<html>
<title> - MISCELLANEOUS PUBLIC LANDS AND FOREST BILLS</title>
<body><pre>[Senate Hearing 108-714]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-714

                    MISCELLANEOUS PUBLIC LANDS AND 
                              FOREST BILLS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   on


                           S. 738                                S. 1614

                           S. 2221                               S. 2253

                           S. 2334                               S. 2408

                           S. 2622



                               __________

                             JULY 21, 2004


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
97-298                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                    LARRY E. CRAIG, Idaho, Chairman
                CONRAD R. BURNS, Montana, Vice Chairman
GORDON SMITH, Oregon                 RON WYDEN, Oregon
JON KYL, Arizona                     DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Carolina
LAMAR ALEXANDER, Tennessee           TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            EVAN BAYH, Indiana
                                     DIANNE FEINSTEIN, California

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Frank Gladics, Professional Staff Member
                    Scott Miller, Democratic Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Acevado-Vila, Anibal, Resident Commissioner, Puerto Rico.........    47
Amador, Don, Western Representative, BlueRibbon Coalition, 
  Oakley, CA.....................................................    36
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     2
Boxer, Hon. Barbara, U.S. Senator from California................     5
Burns, Hon. Conrad, U.S. Senator from Montana....................     4
Calvert, Chad, Deputy Assistant Secretary, Lands and Minerals 
  Management, Department of the Interior.........................    17
Cantwell, Hon. Maria, U.S. Senator from Washington...............    27
Clinton, Hon. Hillary Rodham, U.S. Senator from New York.........    46
Craig, Hon. Larry, U.S. Senator from Idaho.......................     1
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............    45
Feinstein, Hon. Dianne, U.S. Senator from California.............     3
Rey, Mark, Under Secretary, Natural Resources and Environment, 
  Forest Service, Department of Agriculture......................    10
Pope, Art, Director, Northwest Youth Corps, Eugene, OR...........    30
Smith, Hon. Gordon, U.S. Senator from Oregon.....................    26
Thompson, Hon. Jeff, U.S. Representative from California.........     6
Woolley, John, Humboldt County Board of Supervisors, District 3, 
  Eureka, CA.....................................................    34

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    49

                              Appendix II

Additional material submitted for the record.....................    55

 
              MISCELLANEOUS PUBLIC LANDS AND FOREST BILLS

                              ----------                              


                        WEDNESDAY, JULY 21, 2004

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Larry E. 
Craig presiding.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Senator Craig. The subcommittee will come to order.
    Senator Boxer, Congressman Mike Thompson, please be seated 
if you would.
    Good afternoon everyone. I want to thank each and all of 
you for coming to the hearing today. I am happy to see so many 
of our colleagues and hope that others will join us. I also 
want to thank Senator Bingaman, our Energy and Natural 
Resources Committee ranking member, for coming to the hearing 
today on these issues. We have quite a list to cover.
    I know many of you have statements that you will want to 
make. We would hope you can keep them brief. We will enter them 
into the record.
    Likewise, I would like to welcome the three witnesses who 
have traveled to Washington, D.C. to testify.
    Finally, I want to welcome our witnesses from the 
administration to testify on these seven bills.
    Today we will be hearing testimony on seven bills, 
including: S. 738, Senator Boxer and Senator Feinstein's bill 
to designate certain public lands in the Humboldt, Del Norte, 
Mendocino, Lake, Napa, and Yolo Counties in the State of 
California as wilderness and to designate certain segments of 
the Black Butte River in Mendocino County, California as wild 
and scenic;
    S. 1614, Senator Cantwell and Senator Murray's bill to 
designate a portion of the White Salmon River as a component of 
the National Wild and Scenic River System;
    S. 2221, Senator Smith and Senator Wyden's bill to 
authorize the Secretary of Agriculture to sell and/or exchange 
certain national forest lands in the State of Oregon and to 
correct a wilderness boundary that cutoff access to 12 miles of 
forest system roads in the Umpqua National Forest;
    S. 2253, Senator Feinstein and Senator Domenici's bill to 
permit young adults to perform projects to prevent fire and 
suppress fires and provide disaster relief on public lands 
through a Healthy Forest Youth Conservation Corps;
    S. 2334, Senator Clinton and Senator Schumer's bill to 
designate certain National Forest System lands in the 
Commonwealth of Puerto Rico as components of the National 
Wilderness Preservation System;
    S. 2408, Senator Burns' bill to adjust the boundaries of 
the Helena, Lolo, and Beaverhead-Deerlodge National Forests in 
the State of Montana; and S. 2622, Senator Bingaman and Senator 
Domenici's bill to provide for a land exchange to benefit the 
Pecos National Historic Park in New Mexico.
    Due to the large number of bills today, I would ask all of 
the committee members to make their statements as short as 
possible. I will be making an effort to enforce the 5-minute 
rule on the clock in relation to oral statements so that if 
there are any questions, we can move to them. I would want to 
comment about some of the bills to be heard today.
    Once again, we will be asked to address the question of 
authorizing wilderness areas that are in some instances 
substantially eroded. I want each of you to understand that my 
interest in this issue is centered around what to do with the 
bridges and drainage structures to be abandoned and how fire 
protection will be impacted if and when these roads are 
abandoned or obliterated and removed. I think we do future 
generations a great disservice if we do not put into place 
mechanisms for dealing with these roads, bridges, and culvert 
failures that could occur. It is not a question of whether 
these bridges or culverts will fail. It is a question of what 
we will do about them when they fail under the right 
circumstances. Will we have a mechanism in place to immediately 
go in and clean up the mess or will we let them cause resource 
damage in the streams and rivers and further endanger or put at 
risk salmon populations that depend on these rivers?
    Senator Wyden is not here, so let me start with my 
colleague, Senator Bingaman. Do you have any opening comments 
you would like to make?

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Mr. Chairman, very briefly. I thank you 
for holding this hearing. You have done a good job of 
summarizing all of the various bills being considered.
    S. 2622, which Senator Domenici and I have introduced, 
related to the Pecos National Historic Park and the exchange of 
land there, is of particular interest to me. I also have a few 
questions about some of the others.
    Thank you again for having the hearing.
    Senator Craig. Thank you.
    Senator Feinstein.

       STATEMENT OF HON. DIANNE FEINSTEIN, U.S. SENATOR 
                        FROM CALIFORNIA

    Senator Feinstein. Just a couple of statements, Mr. 
Chairman, because I know Senator Boxer and Congressman Thompson 
will give the majority of the testimony.
    But I would just like to submit to the committee some 
pictures of the area that this involves.
    I would like you to know that we have done our due 
diligence on this bill. I have very strong private property 
rights. We consulted on inholders, tried to reach every 
inholder we could. We talked with the boards of supervisors in 
the area. We have reviewed any potential impact of the 
wilderness designation with various local people.
    I think there is one point I want to mention and that, of 
course, is hazardous fuels reduction. We all know that forest 
fires are on the way up. I think it is like from 1.9 million 
acres burned in America last year to something like 4.5 million 
this year. So it is a 400 percent increase already this year. 
The limits on forest reduction projects in wilderness areas are 
legally unclear, and I think a wilderness bill should take care 
to avoid preventing needed and feasible hazardous fuel 
reduction projects, particularly those near communities.
    Now, we have reviewed all of the areas with the Forest 
Service, the Bureau, staff from Mike Thompson's and Senator 
Boxer's office, and the Campaign for America's Wilderness. At 
the end of this review, it was agreed to exclude the 4,000-acre 
Orleans area so the Forest Service can treat hazardous fuels in 
an area next to the town. We are in continuing discussions with 
the Hupa about whether any boundary adjustments are needed in 
the wilderness area next to their reservation. But the Hupas 
have expressed no specific concerns about the bill.
    Bottom line, I think it is a very good bill. I am very 
happy to support it. I think if there are any inholder or other 
problems that come up, we can work them out.
    Let me say one other thing about the Youth Corps bill, if I 
might.
    Senator Craig. Please do.
    Senator Feinstein. You and I and Senator Bingaman as well 
worked on Healthy Families.
    [Laughter.]
    Senator Feinstein. Healthy Forests Initiative.
    Senator Craig. Well, we do know that healthy forests make 
healthy families. There you have got it.
    Senator Feinstein. Right. The thrust of this bill is 
something that I started over 20 years ago, which was the first 
urban conservation corps in America, and that is to take young 
people, aged 16 to 23, enable them to do some of the prevention 
work. The bill language says fire suppression, and I know the 
Forest Service has some concern with them doing fire 
suppression. I think we should delete that, but certainly 
cleaning out areas under supervision, learning some of these 
trades could well be not only job-productive for these 
youngsters, but also very helpful as we move aggressively to 
clean up some of these areas.
    Senator Craig. Well, I appreciate your sensitivity to that. 
I think potentially in a non-adult status, younger than 18 
years of age, we obviously run into the liability question that 
we would have to be sensitive to.
    Senator Burns, any opening comments?

         STATEMENT OF HON. CONRAD BURNS, U.S. SENATOR 
                          FROM MONTANA

    Senator Burns. I do, and thank you, Mr. Chairman, for this 
hearing. I will just comment on S. 2408 which is on the 
calendar today.
    This bill adjusts the boundaries of Helena, Lolo, and 
Beaverhead-Deerlodge National Forests in my home State of 
Montana. For Helena and the Lolo National Forests, these 
adjustments are necessary to continue the community-based 
Blackfoot community project. They call it the Blackfoot 
Challenge. This community-driven project is a collaborative 
effort supported by local residents, the elected officials, 
State and Federal agencies, and others who care about the 
future of the Blackfoot Valley.
    By the way, this is the area of the book and the movie, A 
River Runs Through It, up in that part of the world.
    This is a home-grown effort on the grazers, the ranchers, 
the people of Plum Creek Lumber who want these acres set aside, 
and they are selling some of it to the ranchers and some of it 
to the Forest Service, extending boundaries and blocking up 
some land. So it has taken a couple of years to get this done 
to get it to this point.
    It will finally result in the Federal ownership and 
management of 88,000 acres of land. So it was a fairly good 
project. And that Blackfoot River watershed. The project will 
protect lifestyles of the large, intact landscape. That 
supports agriculture. It supports timber harvesting, 
recreation, and natural resources that are important both 
locally and nationally.
    The project will provide a model for forest management in 
the West by creating a private/public partnership to manage the 
portion of the Blackfoot watershed as a community forest for 
sustainable timber products, other natural resource benefits, 
but particularly in the watershed.
    The local community has requested the Forest Service to 
acquire lands outside the existing national forest boundary to 
ensure continued public uses of these lands, including public 
access for recreation, hunting, livestock grazing, and 
watershed protection.
    The end result of this boundary adjustment will be 
consolidated ownership and improved forest management. The 
boundary adjustment on the Beaverhead-Deerlodge National Forest 
reflects the changes in the forest that result in a watershed 
conservation project completed in 2003. About 11,000 acres of 
watershed property that is currently adjacent to the forest 
will be more accurately classified as existing within the 
forest boundary.
    The Forest Service purchased the property in partnership 
with the Rocky Mountain Elk Foundation. The county 
commissioners, local public conservation and sportsmen groups 
all have supported this project.
    Mr. Chairman, I also welcome Mark Rey here today and we 
will be talking more about this. But this is a home-grown 
solution to an area that is very, very sensitive.
    I thank you for holding this hearing.
    Senator Craig. Senator Burns, thank you very much.
    Now let us turn to our colleagues both in the Senate and 
the House, and I will turn to you first, Senator Boxer. Welcome 
before the committee.

         STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR 
                        FROM CALIFORNIA

    Senator Boxer. Thank you so, Mr. Chairman. I am going to 
try to speak fast and spare you a lot of words because I think 
the photos will speak better than I could ever speak.
    I want to thank you so much. I want to thank Senator 
Feinstein for all her hard work in making this bill a really 
great bill. Of course, you are going to meet shortly a 
wonderful Congressman, Congressman Mike Thompson, who has 
worked so many hours on this bill.
    I know that you know because you come from such a beautiful 
State, Mr. Chairman, that California is blessed with varied 
landscapes of magnificent beauty, and we all want to ensure 
that our children and our grandchildren get to see it the way 
God gave it to us. I think that this bill is a small but 
important step in protecting some of these areas.
    Our bill will designate nearly 300,000 acres of the most 
magnificent lands in northwestern California as wilderness. We 
are going to show you some photos here. I know Senator 
Feinstein has done it in small pictures. But some of the areas 
protected by the bill include Mount Lassic, which offers 
breathtaking views of the coastal range in Humboldt County, 
King Range, which has the longest, undeveloped stretch of beach 
and coastal bluffs in the United States outside of Alaska; Snow 
Mountain in Lake County, which has 10 miles of scenic canyon, 
beautiful oak groves and ancient pine forests. We are moving 
fast here. The beautiful Yuki Wilderness in Mendocino and Lake 
Counties. This is just a small sample of what I could have 
brought to you.
    The bill would also designate 21 miles of the Black Butte 
River as wild and scenic. The Black Butte River provides some 
of the best habitat for endangered salmon and endangered trout.
    Mr. Chairman, I think Senator Feinstein alluded to her work 
in trying to make sure that everyone in this area knew about 
the bill and had a chance to tell us if they supported it, if 
they objected to it. As local people raised concerns to me and 
to her and to Congressman Thompson, we changed our bill to make 
the accommodations.
    Mr. Chairman, you specifically talked about roads, and I 
think when the Congressman speaks to you, he will talk to you 
about the number of roads that we actually had in the bill and 
then we took them out of the bill because of your concern. I 
think you will find we have responded to your concern.
    I want to point out that the bill before you has enormous 
support, and I would ask unanimous consent to place in the 
record just thousands of names on these 8\1/2\ <greek-e> 11 
pieces of paper of elected officials in and outside the 
congressional district, business community in and outside, 
community groups, homeowners. Everybody came together around 
this bill, Republicans, Democrats, everybody.*
---------------------------------------------------------------------------
    * The names have been retained in subcommittee files.
---------------------------------------------------------------------------
    Senator Craig. Without objection.
    Senator Boxer. Again, to stress the negotiation with 
Senator Feinstein, as you know, she is diligent. When she gets 
involved in something like this, she is going to find out are 
there problems with it. She found a few. She talked about one 
where the Forest Service was concerned with wildfire management 
near the community of Orleans, and we removed 4,000 acres from 
the bill. Also again, I will let Congressman Thompson talk 
about removal of roads.
    So once again, I want to say to you, Mr. Chairman, this has 
been a long road in putting this together. We hope that this is 
one of the final steps. We think that you will support us 
because we think we have met your very high bar. And we are 
very excited about this bill and hope that we can get it done 
before this session is out.
    Thank you very much.
    Senator Craig. Barbara, thank you very much.
    Congressman, we understand that a major portion of this, if 
not all of it, is inside your district. So we are pleased you 
are over here this afternoon to defend this work product. Mike, 
welcome before the committee.

              STATEMENT OF HON. MICHAEL THOMPSON, 
              U.S. REPRESENTATIVE FROM CALIFORNIA

    Mr. Thompson. Thank you, Mr. Chairman. It is a pleasure to 
be here. I would like unanimous consent to put my full 
statement into the record.
    Senator Craig. Without objection.
    Mr. Thompson. Thank you.
    I want to thank you, Mr. Chairman, for having this hearing. 
I have always enjoyed working with you. I think the last time 
it was with the salmon habitat bill that we attempted to bring 
into law.
    I want to thank Senator Boxer for her tremendous leadership 
on the issue of wilderness areas throughout California and 
Senator Feinstein not only for all of her past work in this 
area but for the tremendous amount of help that she has given 
us on this particular bill.
    You are correct, Mr. Chairman. All of the land in this bill 
is in my congressional district. It is all federally owned 
property. We are not trying to put any additional property in. 
We are just trying to enhance the level of protection that this 
land currently enjoys.
    I want to make sure that you know that this is more than 
just land in my district. I have hiked, hunted, fished, and 
toured just about every square inch of this land that is 
encompassed in the bill.
    We have had public hearings. We have been working 4 years 
on putting this together. They have been exhaustive hearings. 
We have included every imaginable community of interest, 
timber, hunting and fishing interests, conservationists, 
government, off-road vehicles, mountain bikes, businesses, and 
agriculture. We have been very inclusive in all of our efforts.
    Senator Boxer is correct. When we found problems, we have 
addressed them. She talked a lot about the roads. Most recently 
we found that we had a road that was not an open, legal road 
that we gave wilderness protection to, and we found out that 
the land managers had opened this. About 3\1/2\ miles of this 
road, they reopened it, and it was being used again. This 
happened just recently. So we have taken steps to take that out 
of the bill. We want to make sure that there are no legal roads 
that are closed in this bill.
    During the town hall meetings that I had, the first 
probably 37 questions that were asked in each place was am I 
still going to be able to get into my favorite hunting or my 
favorite fishing place, and the answer is yes. We are not 
closing any legal roads. We have really gone the distance in 
making sure that that takes place.
    The photographs that you saw I think are very telling. The 
area is absolutely beautiful. It is breathtaking. It needs to 
be protected.
    But there is also another side to this. This enhanced 
protection is going to do more than protect beautiful areas and 
ensure that we have pretty pictures. This measure is going to 
address the very real economic concerns that face us with 
threatened and endangered species. It is not only going to add 
protection there to help bring these species back, but it is 
also going to protect their habitat. As you know, Mr. Chairman, 
this is what we tried to do in our salmon bill.
    Senator Feinstein talked about the fire suppression 
concerns that folks raised, and that was probably the second 
biggest concern that I heard throughout my district. She is 
correct. We took added measures. We not only took out the area 
around Orleans, we addressed some boundary setback provisions 
that provided enhanced fire protection in areas, and we made 
sure that there would be nothing in this wilderness bill that 
would preclude Interior from being stopped from being able to 
do preventive work in regard to fire suppression. So I think 
that is an important one to mention.
    I also want to talk about the value of this enhanced 
protection for water quality. California is known for its water 
wars, and there is hardly a thing that happens in California 
that does not spill over--no pun intended--to water. This is 
one of them. By enhancing the protection in this area, we are 
going to make sure that the waters that run through these 
properties in the first congressional district of California 
will continue to produce good, healthy fisheries. You know, Mr. 
Chairman, that these areas were once probably the top producing 
salmon waters in the entire United States, and we have seen 
this diminish over the years. We have not had a commercial 
salmon season in, I think, 13 years on the north coast of 
California. We have gone from a regional industry that was 
worth about $1.25 billion to an industry now that has lost 
7,000 family wage jobs. This bill is important to ensure not 
only the health of the rivers that are so important to the 
fish, but also to protect other businesses and other industries 
that are threatened because of these threatened or endangered 
species.
    I look forward to working with the committee. I think both 
Senator Boxer and Senator Feinstein were on point when they 
said that we have worked so closely with the communities in 
addressing problems. If other problems come about or if other 
issues come about, we certainly want to hear about those. We 
certainly want to work with them, and we want to make sure that 
we enhance this area and also enhance the opportunity for 
millions of Americans to enjoy this beautiful area for 
generations to come.
    Thank you.
    [The prepared statement of Mr. Thompson follows:]

               Prepared Statement of Hon. Mike Thompson, 
             U.S. Representative From California, on S. 738

    Chairman Craig and Members of the committee, thank you for the 
opportunity to provide testimony on S. 738, the Northern California 
Coastal Wild Heritage Wilderness Act. I appreciate the Subcommittee's 
continuing leadership on public lands issues and look forward to 
working with you on this legislation.
    I want to specifically thank Senators Boxer and Feinstein for their 
leadership and good work on this bill. They carefully helped craft this 
bill to address concerns of the communities within California's 1st 
Congressional District. I would also like to thank the witnesses who 
have taken the time and effort to testify on this measure, many of whom 
traveled thousands of miles to be with us today. In particular, I would 
like to thank John Woolley, 3rd District Supervisor for Humboldt 
County. Supervisor Woolley's ``on the ground'' expertise of Humboldt 
County was critically important while crafting this legislation.

                          CRAFTING OF THE BILL

    I have personally invested many hours in the formation of this 
bill. I have hiked, fished, hunted and taken aerial tours of the areas 
in this legislation. I have also held public hearings with stakeholders 
representing timber, hunting and fishing, conservation, government, 
off-road vehicle, mountain bike, business and farming. The process has 
taken over 4 years, was exhaustive and inclusive.
    This legislation would expand wilderness protection on public lands 
by approximately 300,000 acres entirely within California's 1st 
Congressional District. The legislation is not only important for the 
protection of some of my district's most treasured lands, it also 
protects the federally threatened and endangered salmon and trout and 
helps ensure a source of clean, reliable water for California's future.

                                 ACCESS

    With respect to this wilderness legislation, the two most 
contentious issues for the constituents of California's 1st 
Congressional District were our ability to fight and prevent forest 
fires and the continued access to the proposed wilderness areas. 
Protecting the rural communities in my district from future 
catastrophic fires is incredibly important to me. Senators Boxer and 
Feinstein and I took extra precautions to ensure the land managers 
would still have the same tools to fight fire and maintain their 
ability to apply pre-suppression measures to combat catastrophic fire 
in S. 738. I understand Senator Feinstein will go into great detail 
about the fire fighting measure we took in this bill, so at this time I 
will address access.
    I am an avid hunter and angler and have been all my life. Having an 
understanding of the land through the eyes of a hunter and angler has 
allowed me to be especially cognizant to sportsmen's concerns in this 
wilderness proposal.
    One of the first questions raised in town hall meetings by 
sportsmen while we were crafting this legislation was whether any legal 
roads were going to be closed in this proposal. The answer is no. There 
will be no legal roads closed by this wilderness legislation.
    In cases where once closed roads have been repaired and re-opened 
to the public by the land managing agency, we have made changes to the 
bill to ensure that these roads will continue to be open. For example, 
when we crafted this bill, the Telegraph Ridge Road, just off of Smith-
Etter Road in the King Range, had been closed to the public due to 
landslides. It had been closed since 1998. However, the Bureau of Land 
Management (BLM) recently completed repairing Telegraph Ridge road and 
opened 3.2 miles to the public on a seasonal basis. After learning 
about this, we adjusted the boundaries so the public could continue to 
use this road.
    We will continue to work with the land managers to make certain 
that no other roads would be affected by this proposal. As a sportsman, 
I understand how important it is to access these pristine areas and 
will continue to make sure that no legal roads will be closed as this 
bill moves through your committee and the House of Representatives.

                                 WATER

    Water rarely enters into the debate of wilderness protection, but 
in California's 1st Congressional District, it is very important.
    In California's 1st Congressional District, protecting our 
watersheds is immensely important for salmon, steelhead and the 
livelihood of our coastal communities. The State or Federal government 
has listed most of the salmon and steelhead in Northern California as 
either threatened or endangered. These listings have dramatic impacts 
on logging, development, fishing, local businesses and our natural 
resources.
    The fishing communities of Northern California once represented 
some of our country's most productive salmon rivers, generating more 
than $1.25 billion to the regional economy. But declining fish numbers 
and poor water conditions along many of these rivers has forced the 
Federal government to all but shut down commercial fishing along 
California's North Coast for the last 13 years. This closure has cost 
Northern California coastal communities nearly 80% of the region's job 
base and over 7,000 family wage jobs.
    This bill would protect 10 important headwaters along California's 
North Coast. Any disruption of these important headwater areas could 
lead to increased sedimentation and decreased shade, which results in 
higher stream temperatures and lower summer flows.
    Lack of cold-water refuge areas leads to increased stress and risk 
of disease to salmon and steelhead.
    Protecting these 10 headwaters will help protect these watersheds 
and the endangered species. The wilderness protection in this bill 
creates important refuges for migrating salmon and steelhead in 
California's North Coast and is a vital tool for their recovery.

               LOGGING AND JOB CONSIDERATIONS TO THE BILL

    Impacts on the once strong logging industry in Northern California 
were also taken into consideration in this bill and there are no timber 
sales under consideration for any of the public lands in this 
legislation. Nowhere could this issue be more important than in Del 
Norte County, the northern most county in this proposal, where logging 
has been all but shut down.
    S. 738 would add approximately 33,750 acres of wilderness to the 
existing Siskiyou Wilderness in the Six Rivers National Forest in Del 
Norte County. These areas were carefully chosen. Logging has been 
prohibited on the proposed Del Norte County wilderness lands since 1991 
because they are managed as a National Recreation Area. Because of this 
important distinction, and the fact that this area is home to species 
like the northern Spotted Owl, fisher, mink, bald eagle and Roosevelt 
elk, wilderness was the best choice for protecting this land.
    Requests from the environmental community to add 60,000 acres of 
wilderness to this bill along the North Fork Smith River roadless area 
in Del Norte County were turned down. Over 27 percent of the area they 
proposed for wilderness protection is eligible for timber harvest and 
wilderness designation would have significantly reduced our ability to 
harvest these lands.

                               CONCLUSION

    Thank you for this opportunity to testify on this important 
legislation to protect Northern California's important public lands. I 
think the committee will agree that we have carefully crafted this bill 
to take all industries and constituencies into account. I look forward 
to working with you and the committee as this bill moves forward.
                                 ______
                                 
                                  House of Representatives,
                                     Washington, DC, July 23, 2004.
Hon. Larry Craig,
Chairman, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Craig: Thank you for holding a hearing on the 
wilderness bill Senators Feinstein, Boxer and I have introduced (S. 
738/H.R. 1501). As you heard from our testimony, this legislation is 
important for the economy of Northern California, takes extra 
precautions to protect communities from fire and protects California's 
listed threatened and endangered species.
    I share your concerns about whether there are any existing 
culverts, bridges or other obstacles within the proposed wilderness 
boundaries of S. 738. Many of these structures inadvertently block 
important habitat for trout and salmon. I want to make certain that 
either none of these obstacles are within the proposed wilderness areas 
or that the land managing agencies have the ability to remove or repair 
these barriers.
    I also welcome the opportunity to work with the U.S. Department of 
Agriculture and U.S. Department of Interior staff in Washington, DC. We 
have been in constant consultation with the local land managers and I 
want to make certain the Washington staff is also comfortable with this 
proposal.
    Again, thank you for your time and careful consideration of this 
wilderness legislation. I look forward to working with you. If you or 
your staff have any questions or concerns, please contact me anytime.
            Sincerely,
                                             Mike Thompson,
                                                Member of Congress,
                                          1st District, California.

    Senator Craig. Well, Congressman, thank you. Senator, thank 
you. I appreciate it. My first glance at it would indicate that 
there has been a lot of due diligence done here. I do not think 
there is any question about that, and that is greatly 
appreciated because I believe that when we take that extra step 
of protecting, we do need to recognize that these are lands 
that are unique in their character and deserve this kind of 
protection and that we are not just trying to block people out, 
but we are working to accommodate human interests while 
preserving quality area. It appears that you have made every 
effort to do that. We thank you for that.
    I do not believe I have any questions of you. Do any of my 
colleagues?
    Well, thank you very much for being here. We do appreciate 
it.
    Now let me invite our first panel to come forward: the 
Honorable Mark Rey, Under Secretary, Natural Resources and the 
Environment, Department of Agriculture; and Chad Calvert, 
Deputy Assistant Secretary, Lands and Minerals, Department of 
the Interior.
    Secretary Rey, we will let you lead off please.

        STATEMENT OF MARK REY, UNDER SECRETARY, NATURAL 
        RESOURCES AND THE ENVIRONMENT, FOREST SERVICE, 
                   DEPARTMENT OF AGRICULTURE

    Mr. Rey. Thank you, Mr. Chairman. I will summarize my 
written statement and provide that in its entirety for the 
record.
    Senator Craig. Please do. Of course, your total statements 
will become a part of the record.
    Mr. Rey. Let me move through these bills as quickly as I 
can.
    With regard to S. 738, the Northern California Coastal Wild 
Heritage Wilderness Act, I will limit my remarks to the 
provisions of the bill affecting the Forest Service and I will 
go through the bill section by section.
    With regard to the Snow Mountain Wilderness Area additions, 
the Department is not opposed to the designation of the Bear 
Creek and the Deafy Glade units as additions to the Snow 
Mountain Wilderness. The Skelton Glade unit has several roads 
running through it, which compromise wilderness attributes and 
hinder manageability. In addition, designation would complicate 
and hinder habitat improvement work for the Tule elk and 
hazardous fuel management in order to protect the adjacent 
refuge late successional reserve.
    The Department does not support the designation as proposed 
of the Sanhedrin Wilderness Area as the proposed designation 
would complicate and hinder habitat and risk management of the 
Sanhedrin late successional reserve.
    The Department is not opposed to the designation of the 
Yuki Wilderness Area as proposed.
    The Department is not opposed to the designation of the 
Yolla Bolly-Middle Eel Wilderness if boundary adjustments to 
the proposed area additions could be made to avoid the road 
cherry-stemming, as described in my testimony.
    The Department does not support the designation of the Mad 
River Buttes Wilderness Area as proposed. The area is very 
small. It is bordered on three sides by private land, and the 
opportunity for solitude and primitive recreation is low due to 
the small size of the area.
    The Department is not opposed to the designation of 
Siskiyou Wilderness Area additions if the modifications to the 
boundaries are adjusted to better follow land features to 
enhance manageability.
    The Department does not support the designation of the 
Mount Lassic Wilderness Area. This area is bisected by three 
major roads with moderate, dispersed motorized recreation 
presently occurring. A statewide designated California back 
country motorized route traverses the area. This is a State of 
California back country motorized route designation.
    The Department would not support the designation of the 
Orleans Mountain portion as an addition to the Trinity Alps 
Wilderness. The Department is not opposed to the Horse Linto, 
East Fork, and Red Cap additions if boundary adjustments would 
be made to facilitate the removal of hazard trees where roads 
border the proposed wilderness.
    The Department does not support the designation as proposed 
of the Underwood Wilderness Area. The area is located adjacent 
to the 1.5 mile threat zone for a community at risk for 
catastrophic wildfire.
    The Department is not opposed to the designation as 
proposed of the Black Butte River Wild and Scenic River 
designation.
    The Department would like the opportunity to work with the 
bill sponsors and the committee and the Department of the 
Interior on the submission of amendments dealing with fire 
management activities and fire use, as the Forest Service 
already has developed protocols for delegating responses during 
a fire emergency. So with these changes, I think the bill could 
be made one that the administration would not oppose.
    The Department supports S. 2334, the Caribbean National 
Forest Act of 2004.
    The Department supports enactment of S. 1614, the Upper 
White Salmon Wild and Scenic Rivers Act.
    The Department supports passage of S. 2408, the Montana 
National Forests Boundary Adjustment Act of 2004.
    The Department supports with a few technical amendments S. 
2221, the Umpqua National Forest Land Management Act of 2004.
    The Department supports the passage of S. 2622, the Pecos 
National Historic Park Land Exchange with a few technical 
amendments.
    The Department is supportive of the concepts embodied in S. 
2253, the Healthy Forest Youth Conservation Corps Act of 2004, 
particularly the recognition of the importance of the work 
conducted by State departments of natural resources, 
departments of agriculture, and forestry departments. We do 
have some concerns with the bill that we would like further 
consideration by the committee to address. As you are well 
aware, firefighting is an arduous and dangerous job that 
requires a certain amount of maturity, decision-making 
capability, and perspective in order to perform safely. Federal 
firefighting agencies recognize that this level of maturity 
cannot be expected of 16 and 17 year olds, and through policy 
and regulation will not place these individuals in hazardous 
roles. Therefore, we have significant concerns, as Senator 
Feinstein previously indicated, with the inclusion of people of 
this age in the firefighting positions.
    That concludes my summary testimony on each of the measures 
before the committee. I would be happy to respond to any 
questions.
    [The prepared statement of Mr. Rey follows:]

  Prepared Statement of Mark Rey, Under Secretary, Natural Resources, 
  National Forest System, Forest Service, Department of Agriculture, 
    on S. 738, S. 2334, S. 1614, S. 2408, S. 2221, S. 2622, S. 2253

    Mr. Chairman, thank you for the opportunity to appear before you 
today to provide the Department's views on: S. 738 to designate certain 
public lands in the State of California as wilderness; S. 2334 to 
designate certain National Forest System land in the Commonwealth of 
Puerto Rico as components of the National Wilderness Preservation 
System; S. 1614 to designate portions of the Upper White Salmon River 
in the Columbia River Gorge National Scenic Area as either a wild or a 
scenic river; S. 2221 to authorize the Secretary of Agriculture to sell 
or exchange certain National Forest System lands in the State of 
Oregon; S. 2408 to adjust the boundaries of the Helena, Lolo and 
Beaverhead-Deerlodge National Forests in the State of Montana, and S. 
2253 to permit young adults to perform projects to prevent and suppress 
fires, and provide disaster relief on public land through a Healthy 
Forest Youth Conservation Corps.
    s. 738--northern california coastal wild heritage wilderness act
    I will limit my remarks to the provisions of the bill related to 
lands managed by the US Forest Service and will defer to the Department 
of Interior on provisions relating to the Bureau of Land Management 
managed lands.
    S. 738 would designate certain public lands in Humboldt, Del Norte, 
Mendocino, Lake, Napa, and Yolo Counties in the State of California as 
wilderness and to designate certain segments of the Black Butte River 
in Mendocino County,
    California as a wild and scenic river. In furtherance of the 
purposes of the Wilderness Act (16 U.S.C. 1131 et seq.), this bill 
would designate as wilderness, 109,670 acres in the Mendocino National 
Forest and 85,040 acres in the Six Rivers National Forest in the State 
of California, as components of the National Wilderness Preservation 
System (NWPS) or as additions to existing components of the NWPS. S. 
738 would also designate 3 sections (21 miles) of the Black Butte River 
in California as part of the Wild and Scenic River system.
    The following briefly describes each of the proposed wilderness 
designations:

  <bullet> Snow Mountain Wilderness (SNW) Area Addition (Mendocino 
        NF)--20,960 acres of National Forest System lands would be 
        designated as wilderness. As proposed, the Bear Creek and Deafy 
        Glade Units would make good additions to the existing SNWA 
        given their remoteness and opportunity for solitude. However, 
        as proposed, the Skelton Glade Unit has several roads running 
        through it which compromise wilderness attributes and hinder 
        manageability. In addition designation would complicate and 
        hinder habitat improvement for Tule Elk and hazardous fuel 
        management in order to protect adjacent Refuge Late 
        Successional Reserve. The Department is not opposed to the 
        designation of the Bear Creek and Deafy Glade Units as 
        additions to the SNW.
  <bullet> Sanhedrin Wilderness Area-Proposed (Mendocino NF)--10,196 
        acres of National Forest System lands would be designated as 
        wilderness. As proposed designation would complicate and hinder 
        habitat and risk management of the Sanhedrin Late Succesional 
        Reserve. The Department does not support the designation as 
        proposed.
  <bullet> Yuki Wilderness Area-Proposed (Mendocino NF)--approximately 
        35,000 acres of National Forest System lands would be 
        designated as wilderness. The current Mendocino Forest Plan 
        direction assigned management area prescriptions of Back 
        Country and wilderness to this area. The Department is not 
        opposed to the designation of the Yuki Wilderness Area as 
        proposed.
  <bullet> Yolla Bolly-Middle Eel Wilderness (YBMEW) Area Additions 
        (Mendocino NF)--25,980 acres on National Forest System lands 
        would be designated as wilderness. The Smokehouse Unit portion 
        of the YBMEW addition contains important late successional 
        habitat for connectivity from the Buttermilk Late Successional 
        Reserve and the existing Yolla Bolly-Middle Eel Wilderness. In 
        addition, the Smokehouse Unit has high scenic quality. The Eel 
        River Unit portion of the YBMEW is proposed with extensive 
        ``cherry stemming'' of roads on the west side of the Middle 
        Fork Eel River which compromise wilderness attributes and 
        manageability in the center of the unit. The area west of road 
        24N21 has high scenic quality and the current Mendocino Forest 
        Plan direction assigned a management area prescription of Back 
        Country Area to a portion of the area. The Department is not 
        opposed to the designation if boundary adjustments to the 
        proposed YBMEW Area

    Additions could be made to avoid the road ``cherry stemming'' as 
described above.

  <bullet> Mad River Buttes Wilderness Area-Proposed (Six-Rivers NF)--
        5,740 acres of National Forest System lands would be designated 
        as wilderness. The Six River Forest Plan management area 
        prescription for the area is Late Successional Reserve and 
        Adaptive Management. The area is bordered on 3 sides by private 
        land which hinders manageability. The opportunity for solitude 
        and primitive recreation is low due to the small size of the 
        area. Most existing trails are on ridges which have little 
        vegetative screening and allow view of adjacent cutover non-
        federal land. The Department does not support designation as 
        proposed.
  <bullet> Siskiyou Wilderness Area Additions-Proposed (Six Rivers 
        NF)--42,190 acres of National Forest System lands would be 
        designated as wilderness. The Six Rivers Forest Plan management 
        area prescription for the area is Late Successional Reserve and 
        Matrix in the southern portion. The northern portion is within 
        the Smith River National Recreation Upper South Fork management 
        Area, where emphasis is on wild river and roadless back-country 
        recreation. The terrain is very steep and rugged with numerous 
        important cultural sites found in the area. The naturalness of 
        the area has been modified very little. The Department is not 
        opposed to the designation if modifications of boundaries to 
        better follow land features could be made to enhance 
        manageability.
  <bullet> Mt. Lassic Wilderness Area-Proposed (Six Rivers NF)--7,100 
        acres of National Forest System lands would be designated as 
        wilderness. The Six Rivers Forest Plan management area 
        prescription for the area is Late Successional Reserve. The 
        Forest Fire Plan identified this as a Resource Priority Fuel 
        Treatment Area that showed high to very high susceptibility to 
        stand replacing fire. This area is bisected by three major 
        roads with moderate dispersed motorized recreation presently 
        occurring. A state wide designated California Back Country 
        motorized route traverses the area. The Department does not 
        support the designation as proposed.
  <bullet> Trinity Alps Wilderness Area Addition-Proposed (Six Rivers 
        NF)--26,510 acres of National Forest System land would be 
        designated as wilderness. The Six River Forest Plan management 
        area prescription for the area is Late Successional Reserve. 
        The natural integrity of the Horse Linto, East Fork and Red Cap 
        portions have all generally been maintained and offer an 
        opportunity for solitude and remoteness. These areas burned 
        during the Megram Fire. The Orleans Mountain portion of the 
        area is not contiguous to the Trinity Alps Wilderness Area and 
        is located approximately six miles southeast from the town of 
        Orleans (a Community at Risk). The area has been altered by 
        land management practices. The Department would not support the 
        designation of the Orleans Mountain portion as an addition to 
        the Trinity Alps Wilderness. The Department is not opposed to 
        the Horse Linto, East Fork and Red Cap additions if boundary 
        adjustment would be made to facilitate the removal of hazard 
        trees where roads border the proposed wilderness.
  <bullet> Underwood Wilderness Area-Proposed (Six Rivers NF)--3,500 
        acres of National Forest System Lands would be designated as 
        wilderness. The Six Rivers Forest Plan management area 
        prescription for the area is Adaptive Management Area and is 
        located adjacent to the 1.5 mile threat zone for a Community at 
        Risk. Approximately one-third of the western portion of the 
        area is currently managed under a wild river designation 
        (Trinity River). The Department does not support the 
        designation as proposed.
  <bullet> The Black Butte River Wild and Scenic River Designation 
        (Mendocino NF)--16.0 miles of the Black Butte River and 1.5 
        miles of its tributary Cold Creek would be designated as a wild 
        river. 3.5 miles of the Black Butte River would be designated 
        as a scenic river. The 1995 Mendocino Forest Plan and Final 
        Environmental Impact Statement found the Black Butte River 
        eligible for designation and recommended 21.6 miles as wild and 
        scenic river due to its outstanding cultural and fisheries 
        habitat resources. The Department is not opposed to the 
        designation as proposed.

    In addition, the Department would also like the opportunity to work 
with the bill sponsors, the committee, and the Department of the 
Interior on the submission of amendments dealing with fire management 
activities and fire use as the Forest Service already has developed 
protocols for delegating responses during a fire emergency.
    Sections 102(o) and 210(d) would require the Secretary, upon 
request of an Indian tribe or Indian religious community, to 
temporarily close to the general public the use of portions of areas 
designated by the bill to protect the privacy of traditional cultural 
and religious activities in the area by members of the Indian Tribe or 
Indian religious community. We have several concerns with this 
provision. The provision removes the discretion of the Secretary to 
determine whether the requested closure is appropriate. The lack of 
discretion is inconsistent with the approach used in existing statutory 
authorizing temporary closure to certain federal lands, such as the 
Jemez National Recreation Area on the Santa Fe National Forest for 
exclusive use by Indian Tribes for traditional and cultural purposes. 
We believe a more effective approach will be included in forthcoming 
tribal authorities legislation that is proposed in the President's FY 
2005 Budget. We will be sending this proposed legislation in the near 
future. In addition, we understand the Department of Justice would like 
to consult with the committee and bill sponsors regarding 
constitutional issues related to sections 102(o) and 210(d). We also 
would like to work with the committee, bill sponsors and the Department 
of Interior on amendments that address additional concerns we have with 
the above mentioned sections.
    Finally, the Department would also like the opportunity to work 
with the sponsors and the committee on the submission of amendments 
pertaining to Titles II and III in the bill which would require a fire 
management plan and report on the cultural and historical resources 
within the Black Butte River segments designated in the bill to insure 
these provisions are aligned with current policies and laws and are not 
duplicative.

             S. 2334--CARIBBEAN NATIONAL FOREST ACT OF 2004

    S. 2334 would designate approximately 10,000 acres of land in the 
Caribbean National Forest/Luquillo Experimental Forest in the 
Commonwealth of Puerto Rico as the El Toro Wilderness and as a 
component of the National Wilderness Preservation System. The 
Department supports S. 2334.
    The bill would provide that designation of the Wilderness shall not 
preclude within the area's boundaries: installation and maintenance of 
hydrologic, meteorological, climatological, or atmospheric data 
collection and transmission facilities when they are essential to the 
scientific research purposes of the Luquillo Experimental Forest.
    The Caribbean National Forest encompasses over 28,000 acres of 
land, making it the largest block of public land on the Island of 
Puerto Rico. The Forest, locally known as El Yunque, is one of the most 
popular recreation sites in Puerto Rico and the National Forest System. 
Almost a million tourists, from Puerto Rico, the U.S. mainland, and 
abroad experience this tropical rain forest environment each year.
    It is the only tropical rain forest in the National Forest System 
and the most accessible in the world. It is also home to the Puerto 
Rican parrot, one of the 10 most endangered birds in the world, and 
nearly 240 species of trees and 120 terrestrial animals--four of which 
are also listed as endangered species.
    The 1997 revised Land and Resource Management Plan for the 
Caribbean National Forest/Luquillo Experimental Forest recommended 
wilderness designation for the 10,000-acre El Toro area. We believe the 
designation of the El Toro Wilderness would enhance the areas solitude, 
scenery and pristine qualities of the area. The El Toro Wilderness 
would become the only tropical forest in the National Forest Wilderness 
System and the only wilderness area in Puerto Rico.

         S. 1614--UPPER WHITE SALMON WILD AND SCENIC RIVERS ACT

    This bill would amend section 3(a) of the Wild and Scenic Rivers 
Act (16 U.S.C. 1274(a)) to designate portions of the Upper White Salmon 
River in the State of Washington as a component of the National Wild 
and Scenic Rivers System. The four segments that the bill would 
designate are located on the Gifford Pinchot National Forest and 
include 6.7 miles in the Mt. Adams Wilderness, classified as wild and 
13.3 miles classified as scenic for a total of 20 miles. The Department 
supports S. 1614.
    The Forest Service conducted a study of the Upper White Salmon 
River and its tributary, Cascade Creek, as directed by the Columbia 
River Gorge National Scenic Act (16 U.S.C. 544 et seq.) and determined 
their eligibility for designation as a component of the National Wild 
and Scenic Rivers System. The ``Upper White Salmon River Wild and 
Scenic River Study Report and Final Legislative Environmental Impact 
Statement'' (July 1997) recommended the entire 38.4 miles of the Upper 
White Salmon (including Cascade Creek) be added to the System. The 
recommended segments of the Upper White Salmon River possess 
outstanding wildlife, scenery, geology and hydrology, and are highly 
qualified for designation under the Wild and Scenic Rivers Act.
    Although the bill does not designate the 18.4 mile segment of river 
from the Gifford Pinchot National Forest boundary to the confluence 
with Gilmer Creek, which is bounded by non-federal lands, section 4 
does not limit the suitability of this segment for future designation.

   S. 2408--MONTANA NATIONAL FORESTS BOUNDARY ADJUSTMENT ACT OF 2004

    S. 2408 would extend the forest boundary of the Beaverhead-
Deerlodge National Forest to include a recent acquisition contiguous to 
the forest boundary that occurred over a 3-year period from 2001 
through 2003. S. 2408 also would extend the forest boundary of both the 
Lolo and Helena National Forests to provide for future land 
acquisitions in the Blackfoot River Valley. The Department supports S. 
2334.
    The bill would realize an estimated net increase of 6,193 acres 
within the Helena National Forest, 16,121 acres within the Lolo 
National Forest, and 11,727 acres within the Deerlodge National Forest.
    Inclusion of these lands within the boundaries of these three 
national forests will clarify management of the lands acquired, 
simplify boundary management, and allow for the use of the Land and 
Water Conservation fund, outside the existing boundaries, for future 
acquisitions if land is offered for sale to the United States and if 
Congress should choose to fund any such purchase. There is substantial 
local community and county support for these boundary changes.
    The Department would like to work with the Committee to make a 
minor technical change to the name of the map referenced in section 
2(2)(C). Although the map is entitled ``Blackfoot Community Project 
Acquisition Proposal Adjustments, Beaverhead-Deerlodge National Forest 
. . .'', the proposed boundary adjustment on the Beaverhead-Deerlodge 
National Forest is not associated with the proposed Blackfoot Community 
Project acquisition. Consequently, the name of the map should be 
entitled ``Beaverhead-Deerlodge National Forest Boundary Adjustment.''

    S. 2221--THE UMPQUA NATIONAL FOREST LAND MANAGEMENT ACT OF 2004

    S. 2221 would authorize the Secretary to sell or exchange certain 
National Forest System land in the State of Oregon. Specifically, this 
bill authorizes for sale or exchange administrative sites, including 
the Roseburg Service Center (approximately 2.92 acres), the Roseburg 
Powder House (approximately 1.34 acres) and the Brown Residences 
(approximately 2.35 acres). All of these sites are currently in use by 
the Forest Service but are no longer efficient for current agency 
needs. The Department supports S. 2221.
    As S. 2221 illustrates, the Department has a number of facilities 
and appurtenant administrative land excess to agency needs. The FY 2005 
Budget contains a proposal for the establishment of a Facilities 
Acquisition and Enhancement Fund that would enable the Secretary to 
sell such units excess to need and to utilize proceeds from those sales 
for the acquisition or development of land and improvements for 
administrative consolidations while improving efficiencies through the 
reconstruction of functionally obsolete facilities or construction of 
new facilities. To this end, the Department will submit legislation 
concerning this Fund in the near future. In this context, then the 
Department supports S. 2221.
    In section 3(i) Disposition of Proceeds, would allow the agency to 
retain proceeds from a sale or exchange and use them towards ``the 
acquisition or rehabilitation of existing facilities or construction of 
new facilities in Umpqua National Forest in the State''. We would 
recommend changing ``in Umpqua National Forest in the State'' to ``for 
the Umpqua National Forest in the State'' in order to facilitate the 
office collocation with the Bureau of Land Management office in 
Roseburg. Additional administrative facilities would be developed for 
the collocated offices and warehouses at the existing BLM site.
    S. 2221 would also correct an unanticipated problem generated when 
the Rogue-Umpqua Divide Wilderness was initially designated. The 
original legal description, prepared in accordance with the map of 
record at the time of designation, inadvertently resulted in a short 
segment of Forest Service Road No. 2947-300 being within the Rogue 
Umpqua Divide Wilderness by approximately 20 feet. This has resulted in 
the closure of the road which is necessary to access National Forest 
System land beyond the area where the road is within the wilderness 
area. The small portion of land cut off by the road, which is 
designated as wilderness, clearly has no wilderness character. When the 
road is opened for short-term local emergencies (wildland fire 
suppression) there is an automatic conflict with wilderness management.
    S. 2221 would make a technical correction to the wilderness 
boundary by slightly modifying the boundary so that (1) the road is 
outside the wilderness by removing approximately 1.3 acres from the 
wilderness, and (2) by adding approximately 1.3 acres of land with 
wilderness character to the wilderness to offset the removal.

          S. 2622--PECOS NATIONAL HISTORIC PARK LAND EXCHANGE

    The bill would direct the Secretary of Agriculture to convey 
approximately 160 acres located in the Santa Fe National Forest in New 
Mexico to private landowners in exchange for 154 acres owned by the 
landowners within the Pecos National Historic Park that would be 
conveyed to the Secretary of the Interior.
    The 160 acres of National Forest System land to be conveyed are 
located on top of Glorieta Mesa and have been identified in the Forest 
Plan as base for exchange; however, this land was recommended for 
exchange to facilitate the acquisition of other desirable property for 
National Forest purposes within the Santa Fe National Forest. The 
federal parcel is undeveloped and has relatively gentle topography.
    The Department would not oppose the bill if amended to clarify 
several points. We have concerns regarding potential complications that 
could arise as this transaction proceeds and would like to understand 
the committee's intent as to how these should be resolved. We would 
like the opportunity to work with the committee, bill sponsors and the 
National Park Service on amendments to clarify expectations relative to 
the applicability of the National Environmental Policy Act and other 
applicable laws.
    Although not specifically stated, the exchange would be subject to 
the National Historic Preservation Act of 1966 (NHPA). The National 
Forest System lands have not been surveyed for cultural resources. If, 
after survey, resources are found, the exchange would be subject to 
Sec. 110(b) of NHPA, which would require that data recovery precede 
conveyance. The legislation should identify who would be responsible 
for the data recovery costs in the event resources are found.
    Appraisals would be submitted only to the Secretary of Interior for 
approval. We recommend an amendment to the legislation that requires 
joint approval by both the Secretaries of the Interior and Agriculture. 
If there is mutual valuation approval, we recommend the USDA and USDOI 
jointly and mutually secure a title policy, select an appraiser 
agreeable to both agencies, jointly develop appraisal instructions and 
jointly review and approve the appraisal.
    We look forward to working with the Subcommittee, the sponsors, and 
the National Park Service on amendments to this bill to ensure that the 
final bill language reflects the needs and interests of all parties to 
the exchange.

      S. 2253--HEALTHY FOREST YOUTH CONSERVATION CORPS ACT OF 2004

    S. 2253 would establish a Healthy Forest Youth Conservation Corps 
and would authorize the Secretary of Agriculture and the Secretary of 
the Interior to enter into contracts or cooperative agreements with 
existing state, local, non-profit conservation corps, or Indian Tribe 
or state natural resources, agriculture, or forestry departments, to 
carry out projects to prevent fire and suppress fires, rehabilitate 
public land affected or altered by fires, and provide disaster relief. 
The bill directs the Secretaries to give priority to certain projects, 
including those that will: (1) reduce hazardous fuels on public lands; 
(2) restore public land affected or imminently threatened by disease or 
insect infestation; (3) rehabilitate public land affected or altered by 
fires; (4) assess public land at a high risk of reburn; and (5) address 
public land located near a municipal watershed and water supply.
    The Department is supportive of concepts embodied in S. 2253, 
particularly the recognition of the importance of the work conducted by 
state natural resources, agriculture, and forestry departments, and we 
recognize the values associated with providing opportunities for youth 
corps to be more proactive in healthy forest work. We would however, 
like to bring to the Committee some issues the Department has 
identified with S. 2253 that may require further consideration by the 
Committee.
    In many respects, with the exception of including youth aged 16 and 
17, the goals of S. 2253 are consistent with existing authorities that 
the Department has supported, including the Healthy Forests Restoration 
Act (HFRA) [P.L. 108-208], Public Land Corps Act of 1993, P.L. 103-82 
Title II, and the Youth Conservation Corps Act of 1970, P.L. 91-378. 
The Administration has concerns about the Committees expectation 
regarding the authorization of specific appropriations contained in the 
bill given current and future constraints.
    As you are well aware, firefighting is an arduous and dangerous job 
that requires a certain amount of maturity, decision-making capability, 
and perspective in order to perform safely. Federal fire agencies 
recognize that this level of maturity cannot be expected of 16- and 17-
year-old individuals and, through policy and regulation, will not place 
these individuals in hazardous roles.
    We have significant concerns, with the inclusion of youth aged 16 
and 17. Wildland fire suppression or forest and watershed restoration 
work authorized under S. 2253 pose threats to their safety that cannot 
be mitigated.
    The Forest Service and Department of the Interior agencies agree 
that while some states allow individuals under the age of 18 to perform 
hazardous fire suppression duties on the fire line, this practice is 
not allowed by federal fire agency policy. In August 2003, the Forest 
Service and the Department of the Interior each established the policy 
that persons under the age of 18 years old will not perform hazardous 
or arduous duties during wildland fire management operations on federal 
jurisdictions, even if the minors are supervised by states or other 
entities. While legal minors are not to be employed in hazardous fire-
line positions, the policy does allow them to perform fire prevention, 
support, logistical, or other duties away from the fire-line--
activities which, if performed under agreements with existing state, 
local, and non-profit youth conservation corps, are consistent with S. 
2253.
    Similarly, hazardous fuels reduction treatments or restoration 
activities require operating power equipment such as chainsaws, 
brushsaws, or using prescribed fire. This is extremely hazardous work, 
frequently on steep terrain in dense forest environments. We would be 
remiss in supporting an authorization for 16 and 17 year olds to use 
chainsaws or other power equipment in such hazardous situations.
    This concludes my statement, I would be happy to answer any 
questions that you may have.

    Senator Craig. Mark, thank you very much.
    Now let us turn to Chad Calvert, Deputy Assistant 
Secretary, Lands and Minerals, Department of the Interior. 
Chad, welcome before the committee.

          STATEMENT OF CHAD CALVERT, DEPUTY ASSISTANT 
           SECRETARY, LANDS AND MINERALS MANAGEMENT, 
                   DEPARTMENT OF THE INTERIOR

    Mr. Calvert. Thank you, Mr. Chairman, ranking member. I am 
here testifying on behalf of the Department of the Interior 
specifically on three bills, S. 738, the Northern California 
Coastal Heritage Act; S. 2253, the Healthy Forest Youth 
Conservation Corps Act; and S. 2622, the Pecos National 
Historic Park land exchange, which is on behalf of the National 
Park Service. I will begin with that one.
    The Department supports the land exchange for the Pecos 
National Historic Park. We would like to work with the 
committee on a couple of specific issues, namely putting 
together a better map for the committee's review.
    With regard to S. 2253, the Healthy Forest Youth 
Conservation Corps Act, I would simply echo the comments of 
Mark Rey. The Department of the Interior agrees with that 
position.
    With regard to S. 738, the Northern California Coastal 
Heritage Act, the Department generally supports the 
designations for wilderness for the Bureau of Land Management 
lands contained in the act. I could walk through those specific 
designations. We do have some minor concerns with a couple of 
areas and we would like to work with the committee not only to 
address more specific and detailed maps, but also to work with 
you on one of the designations that we think creates some 
practical management problems.
    With regard to the King Range Wilderness, the bill would 
designate 41,615 acres in the Chemise Mountain Wilderness Study 
Area and the King Range Wilderness Study Area. This particular 
provision really highlights why the BLM supports Congress and 
local communities getting together to resolve the wilderness 
study area logjams that we see that have been out there for 13-
14 years. And where the communities and Congress can work 
together and agree on those and where the Department views 
there is being significant wilderness values to protect, the 
department is very supportive of resolving the WSA's. Namely, 
the Department supports that provision.
    With regard to Yuki Wilderness, 51,790 acres are proposed 
for wilderness designation. 17,000 acres are BLM lands and we 
support the designation of those acres, most of which are in 
the Thatcher Ridge Wilderness Study Area.
    On the Yolla Bolly-Middle Eel Wilderness, it would expand 
the existing wilderness areas. Only 780 acres of that is BLM-
managed land, but we do support the designation of it as part a 
larger wilderness designation.
    Cache Creek Wilderness would designate 38,970 acres of BLM 
lands as wilderness. We support the designation that falls 
within the First District on that one.
    With regard to Blue Ridge Wilderness, we actually oppose 
designating the Blue Ridge Wilderness provision in this bill 
because it only addresses a 760-acre parcel that is BLM-
managed, and generally the Department feels that is too small 
of an area to manage as wilderness. It simply just does not 
provide the same character of wilderness that the other areas 
do.
    Cedar Roughs Wilderness Area would be 5,880 acres of BLM 
lands, and we support this designation. It is currently in an 
area of critical environmental concern, specifically for its 
wilderness values.
    The South Fork Eel Wilderness is 14,000 acres to be 
designated. It is almost entirely encompassed by the Red 
Mountain Wilderness Study area, and we support that 
designation.
    Finally, the Elkhorn Ridge potential wilderness area. The 
Department is not opposed to designating this. It is not 
currently managed as a wilderness study area, but it contains 
significant wilderness values and we believe that the sponsors 
of the bill and the local communities have worked very closely 
together to identify the appropriate boundaries of that.
    With that, I will close and answer any questions you may 
have.
    [The prepared statements of Mr. Calvert follows:]

 Prepared Statement of Chad Calvert, Deputy Assistant Secretary, Land 
     and Minerals Management, Department of the Interior, on S. 738

    Thank you for the opportunity to testify on S. 738, the Northern 
California Coastal Wild Heritage Wilderness Act. I will confine my 
remarks to those provisions of the bill which relate to lands managed 
by the Bureau of Land Management (BLM) and will defer to the Department 
of Agriculture on provisions regarding lands managed by the Forest 
Service. While we will propose a number of amendments to S. 738, if 
those amendments are made, the Department of the Interior will support 
this legislation as it relates to BLM-managed lands.
    This Administration strongly supports the efforts of members of 
Congress to work together with their local constituents to find 
solutions to the lingering Wilderness Study Areas (WSAs). Only Congress 
can determine the final status of WSAs--whether to designate as 
wilderness or release lands from WSA status. The WSA issue is one that 
should be resolved and we always stand ready to work with Members of 
Congress toward solutions.
    S. 738 proposes to designate as wilderness nearly 120,000 acres of 
BLM-managed lands in California's 1st Congressional District. Because 
wilderness boundaries do not follow Congressional District boundaries, 
this has resulted in a few awkward provisions in the legislation that 
we will point out. Overall, we support the designations, but recommend 
some changes to the management language which we hope the committee 
will consider.
    The areas proposed for designation include stunning landscapes, 
dramatic coastlines, and unique habitats. Taken together, these 
proposed wilderness areas include pristine Pacific Coast, steep inland 
canyons, rushing whitewater and mountainous terrain. The array of 
wildlife is incredibly diverse. Large mammals such as elk, sea lions, 
and black bear populate these areas. Various raptors including the 
endangered northern spotted owl, peregrine falcons and eagles nest 
here. Additionally, the areas provide significant habitat for 
steelhead, coho, and Chinook salmon, all listed endangered species. 
Recreational use is varied and scattered throughout the area including 
rafting, fishing, hiking, camping, and hunting, all of which will 
continue after designation.
    A brief description of each proposed wilderness designation is in 
order:

  <bullet> King Range Wilderness--41,614 acres encompassing both the 
        Chemise Mountain WSA and the King Range WSA would be designated 
        wilderness. This area truly would be a crown jewel of the 
        wilderness system. Its 26 miles of pristine and undeveloped 
        coastline is the longest in the continental United States. 
        Referred to as California's ``Lost Coast,'' this dramatic 
        wilderness area is within the King Range National Conservation 
        Area (NCA) established by Congress in 1970.
  <bullet> Yuki Wilderness--51,790 acres are proposed for wilderness 
        designation including approximately 17,200 acres of BLM-managed 
        lands which include a steep, rugged river corridor. The larger 
        acreage, approximately 35,000 acres, is managed by the Forest 
        Service. We support the designation of the BLM acres (which 
        encompass most of the Thatcher Ridge WSA) as a portion of the 
        overall Yuki Wilderness.
  <bullet> Yolla Bolly-Middle Eel Wilderness additions--expands the 
        existing 153,000-acre Yolla Bolly-Middle Eel Wilderness Area by 
        approximately 26,760 acres (the existing area includes over 
        7,000 acres of BLM-managed lands). However, only 780 acres of 
        the wilderness addition is BLM-managed land. We support the 
        designation of these 780 acres as a part of the much larger 
        Forest Service addition.
  <bullet> Cache Creek Wilderness--the legislation cites 38,970 acres 
        of BLM-managed lands for wilderness. However, if the bill's 
        intention is only to designate lands within Congressional 
        District 1, this designation may be reduced to approximately 
        31,000 acres. Waters rushing through this area's steep canyons 
        provide popular whitewater rafting venues while the surrounding 
        oak woodlands are home to several herds of tule elk. We support 
        this designation that falls within the Congressional District.
  <bullet> Blue Ridge Wilderness--a small 760-acre area is proposed for 
        designation by the bill. While it is our understanding that a 
        larger 10,000-acre wilderness is envisioned in this area, only 
        760 acres of it is within Congressional District 1. We oppose 
        designating such a small area as wilderness because it is too 
        small to manage properly for wilderness values unless land in 
        the adjacent district is included in the wilderness 
        designation.
  <bullet> Cedar Roughs Wilderness--5,880 acres of BLM WSA is 
        designated as wilderness. We support this designation. The BLM 
        has administratively designated this land as an Area of 
        Critical Environmental Concern (ACEC) in recognition of its 
        significant Sargent cypress stand and important black bear 
        population.
  <bullet> South Fork Eel Wilderness--14,000 acres to be designated 
        encompassing the Red Mountain WSA. The area is home to a number 
        of endangered species including the northern' spotted owl and 
        several salmon species as well as some unique and rare 
        geological features. The designation is supported by the BLM.
  <bullet> Elkhorn Ridge Potential Wilderness Area--8,000 acres of BLM-
        managed lands are proposed for a ``potential wilderness area.'' 
        Under the terms of the legislation, the area would become 
        wilderness within 5 years, or earlier, if determined by the 
        Secretary of the Interior that appropriate ecological 
        restoration had taken place. This area contains a portion of 
        the Eel River headwaters and provides significant endangered 
        species habitat. While such a designation is unique for the 
        BLM, the National Park Service has experience with such 
        designations and we think it is reasonable.

    For those areas in the bill not identified as WSAs, and for the 
areas in the bill that were determined by the BLM to be non-suitable 
for wilderness, we note that Congress has plenary authority over the 
disposition of public lands. Except as otherwise specified, if Congress 
ultimately approves the bill, we do not see any additional management 
impediments to their inclusion.
    We would like the opportunity to work with the sponsors and the 
Committee to perfect boundaries in a few cases, and release from WSA 
status those areas, primarily small bits and pieces of WSAs (our 
current estimate is around 2,200 acres), that are not designated 
wilderness by S. 738. Leaving those pieces unaddressed creates 
potential management problems.
    We would also like the opportunity to work with the sponsors and 
the Committee on the management language in the bill. Specifically, we 
recommend adding standard language on the management of newly-acquired 
lands within the wilderness area and a full withdrawal of the lands 
designated as wilderness. The Department strongly recommends the 
legislation be amended to clarify that the wilderness designation not 
constitute or be construed to constitute either an express or implied 
reservation of any water rights. Additional technical matters on maps 
should also be addressed.
    Thank you for the opportunity to testify on the sections of S. 738 
which apply to BLM-managed lands. The resolution of these longstanding 
WSA questions is a priority for the Department and we welcome the 
opportunity to move this debate forward.
    I would be happy to answer any questions.
                                 ______
                                 
 Prepared Statement of Chad Calvert, Assistant Secretary for Lands and 
      Minerals Management, Department of the Interior, on S. 2622

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you to present the position of the 
Department of the Interior on S. 2622, a bill to provide for a land 
exchange at Pecos National Historical Park in New Mexico.
    The Department supports this legislation with an amendment. A 
hearing on a similar bill, S. 2848 was held during the 106th Congress. 
At that time we supported the bill with several amendments. S. 2622 has 
taken into consideration those amendments as proposed. We do recommend 
minor changes to clarify financial responsibilities for the appraisals 
and completion of compliance documents. By making these changes, and 
clarifying the map, we believe the exchange could be easily 
accomplished. However, we defer to the U.S. Forest Service with respect 
to a determination that the lands they would convey are excess to their 
needs and available to be used as part of the proposed land exchange.
    S. 2622 proposes an exchange among the U.S. Forest Service, 
National Park Service and a private landowner. The private landowner 
would convey 154 acres of land to the National Park Service at Pecos 
National Historical Park. The U.S. Forest Service would then convey 160 
acres of federal land to the private landowner. Because the land 
already is within the boundary of the park and identified for purchase 
in the July 1993 Land Protection Plan, no boundary adjustment would be 
needed. As part of the exchanges the private landowner would be given 
an easement to allow access to two existing wells. The bill also allows 
for the Secretaries to establish additional terms and conditions on the 
exchange in order to protect the interest of the federal government.
    We understand the U.S. Forest Service parcel proposed for the 
exchange is undeveloped. There are no public utilities within one half 
mile of the parcel and no environmental analysis has been completed on 
this parcel.
    We propose minor changes to the language to ensure that all parties 
understand that the landowner will assume the cost of the appraisals 
and associated environmental compliance. The legislation must be clear 
that neither Secretary is responsible for those costs. The proposed 
amendment is attached to this testimony.
    S. 2622 would continue the expansion of the park that was begun 
when lands were added to the boundary in 1990, and allow the National 
Park Service to more adequately and completely serve park visitors and 
protect park resources. This new bill also reflects the needs and 
interests of all of the parties to the exchange and should allow 
completion of the exchange in the most direct manner.
    Pecos National Historical Park (NHP) was established in 1965 as 
Pecos National Monument and was redesignated in 1990. The park includes 
almost 7,000 acres in three units and tells the story of 12,000 years 
of human history. This story includes that of the people of the Pecos 
Pueblo who made their homes at a trading crossroads and the effects of 
Spanish colonization from the south and the movement westward along the 
Santa Fe Trail. In addition, Pecos NHP tells the story of one of the 
most interesting baffles of the Civil War fought in the west, the 
Battle of Glorieta Pass. It is also home to a 20th century ranch that 
illustrates how important and critical this natural and cultural 
crossroads is to the history of America.
    Of foremost importance in Pecos NHP is the Pecos River, one of only 
five in New Mexico that is free-flowing year-round. The mosaic of the 
riparian environment, high elevation forest, grasslands, and meadows 
sustains valuable and variable wildlife habitats and ecosystems that 
are prominent features and vital to the park's cultural landscapes.
    When the park was redesignated in 1990, new lands were added and 
the scope and mission of the park were greatly expanded. The Glorieta 
Unit, divided into two sub-units, each containing approximately three 
hundred acres, preserves sites of the Civil War action at Glorieta 
Pass. More than half of the land in these two units is privately owned, 
making public access, preservation of resources, and protection of 
property rights difficult. The lands proposed for exchange in S. 2622 
are in the Canoncito subunit, the westernmost portion of the park.
    That concludes my remarks. I would be happy to answer any questions 
you may have.

                           PROPOSED AMENDMENT

    Page 6, line 3, strike all after ``COSTS.--'' and insert ``Before 
the completion of the exchange under this section, the Secretaries and 
the landowner shall enter into an agreement that states that the 
landowner shall pay the cost of the appraisals and associated 
environmental compliance documents. Additional costs of the exchange 
will be allocated in the agreement between the Secretaries and the 
landowner.''.

    Senator Craig. Chad, thank you again for your comments and 
we look forward to your responses. So let me start the 
questioning, Mark and Chad.
    I know that both Senators and the Congressman have spoken 
to their effort to take out as many roads as possible. Yet, it 
is our observation that there is a fair inventory remaining of 
roads and bridges and culverts and other drainage structures 
that fall within the proposed wilderness boundaries and the 
Wild and Scenic River proposals.
    Would it be possible for you to provide an inventory of 
those approximate number of miles and structures? I say that 
because we make the general assumption that once these areas 
become designated, certainly they become non-motorized, and any 
ability to maintain or sustain those structures should, 
responsibly under the Wilderness Act, go out. Are these 
structures capable of withstanding the 500-year flood scenario, 
and if not, are we making provisions, once failed, to be able 
to go in and be able to take them out and to recoup the area? 
So that would be my reaction. Your reaction to that, and would 
you supply that for the committee?
    Mr. Rey. We can provide you with that information. Our 
Forest Service road inventories identify the major drainage 
structures for National Forest System roads, such as bridges 
and culverts. So we can provide you with such an inventory.
    We designed those roads to withstand a 100-year flood 
event. So I think it is fair to say whether we designate these 
as wilderness or not, they are not likely going to withstand a 
500-year flood event. But in the course of dealing with the 
wilderness designation in the years afterward, we would 
probably remove as many of these bridges and structures as 
possible so that we do not have to risk the prospect of a 
catastrophic failure in a 100-year or larger flood event.
    Senator Craig. Chad.
    Mr. Calvert. I commit the Department is working on 
improving the maps that you have. I know there are some maps 
that are floating around that have foot trails identified as 
potential roads, and the BLM right now is surveying those 
lands.
    Senator Craig. I am not interested in foot trails. I am 
obviously interested in roads that have received some level of 
maintenance or some level of use and especially the structures 
that encompass those.
    Could you also include information about the likely cost of 
removal of the structures, potential cost of mitigating 
anticipated habitat damage, if there were structure failures?
    Mr. Rey. We can certainly give you a cost of removal. The 
cost of habitat damage would be highly speculative based on the 
kind of failure that would occur, which particular structure 
fails.
    Mr. Calvert. For the areas under the BLM, I am only aware 
of one where they may be in the position of removing roads. 
They are right now looking at that. It is in the potential 
wilderness area where there are several private inholdings and 
access roads to those. It is my understanding that they are in 
the process of naturalizing themselves. So the cost may be 
minimal. It has been estimated to me to be less than $1 
million. But I will certainly ask the BLM to look at that.
    Senator Craig. Thinking about the northern California 
wilderness proposal, it seems that many of these areas receive 
both heavy rains and have the potential for substantially large 
and intense wild fires. I know both the Senator from California 
and I and everybody on this committee have struggled with that 
issue substantially over the last couple of years. We also know 
the scenario out there suggests it is going to get worse before 
it gets better.
    To the extent these areas are roaded, what will be the 
likely increased cost of firefighting if these roads are closed 
to access. Is there any way to evaluate that? Because we do 
change significantly the capability of firefighting or fire 
load reduction in those areas.
    Mr. Rey. Let me answer that under two separate scenarios, 
because I think the bill has some provisions to try to provide 
firefighting within these areas. So it is conceivable that with 
the provisions in the bill, as long as the roads are still 
passable, we could use motorized equipment upon order of the 
appropriate Forest Service officer. So that probably will not 
have a material effect if we decide, based on the language of 
the bill, to allow continued equipment access.
    As time passes, however, since we are not going to maintain 
these roads and we are going to be presented with circumstances 
where we will have to remove bridges and culverts, access will 
begin to diminish, and the use of motorized equipment and 
engine crews will cease to be a practical possibility, 
notwithstanding what sorts of administrative procedures that we 
have developed. Once that occurs, then we will see some 
increased firefighting costs and loss of efficiencies because 
hand crews are not as quick or as effective as engine crews. So 
that is when the impact will begin to be felt irrespective of 
the administrative decisions we make prior to that time 
regarding when and under what circumstances we would allow 
motorized equipment access into the wilderness for firefighting 
purposes.
    Senator Craig. Areas that are currently designated 
wilderness, when fire starts in them, motorized equipment is 
not allowed. Is that not correct?
    Mr. Rey. It is not allowed by statute and regulation, but 
it is also not a practical possibility because most of the 
wildernesses we have now lack roads. If we applied the same 
statutory and regulatory standards to the areas affected by 
this legislation, where there are roads, then motorized access 
would not be allowed. As I read at least one of the provisions 
of the bill, there is some attempt to moderate that and to 
allow motorized access for firefighting purposes under certain 
circumstances, as outlined in the bill. That would provide some 
continued access until the point when that road ceases to be 
passable because of the passage of time without maintenance.
    Senator Craig. Well, I have gone beyond my time.
    Senator Bingaman, questions?
    Senator Bingaman. Thank you very much.
    Let me ask about S. 2253, the Healthy Forest Youth 
Conservation Corps Act. In 1970, Congress passed and the 
President signed the legislation establishing the Youth 
Conservation Corps. In 1993 we passed and the President signed 
the legislation establishing the Public Land Corps. I am having 
difficulty understanding what this Healthy Forest Youth 
Conservation Corps adds to the existing authority. It seems to 
me that the various Federal agencies already have very 
substantial authority to contract with and use young people 
under the Youth Conservation Corps or the Public Land Corps 
programs. The truth is, the National Park Service is the only 
one that has really committed resources to doing this. As I 
understand it, the Forest Service has not. The BLM has not. 
Based on the testimony that each of you have given, it would 
seem to me that you are saying, in as tactful a way as 
possible, that we should not expect you to commit the resources 
to it in the future, whether we pass this or not.
    Is there a reason we should go ahead and pass this bill? 
Does it add anything to the existing authority that the 
agencies have? Is it likely to increase the probability that 
there will actually be funds spent on this?
    Mr. Rey. Well, it complements existing authorities in the 
sense that we could put Public Land Corps and Youth 
Conservation Corps crews into doing this kind of fuel reduction 
work. Currently those crews, when they are employed on national 
forest land, are employed in a wide variety projects, but there 
is nothing in the enabling legislation creating the Public Land 
Corps and the Youth Conservation Corps that precludes them from 
doing this kind of work.
    Generally when Congress passes a new piece of authorizing 
legislation, we try within budget limits to respond to that. So 
I think if you pass this bill and say this is something you 
want to focus these conservation crews on, at least with regard 
to fuel reduction work that is non-hazardous in nature, we 
would try to respond by accommodating that. As I indicated 
earlier, we have very little interest in using 16- and 17-year-
olds for firefighting purposes because we think that is too 
hazardous.
    Senator Bingaman. But I am still unclear as to whether you 
are saying that the administration would be willing to commit 
more funds to these types of activities generally, or are you 
just saying that if we pass this bill, then you will take 
funding that is currently being used for trail maintenance or 
whatever by young people and shift it over to doing forest 
thinning kinds of work? I know it has an authorization, but I 
am asking for how much money the administration would actually 
request each year and support because there are a lot of 
authorizations on the books, which of course the administration 
does not ask for any money for.
    Mr. Rey. I think our experience, particularly in the fuels 
treatment area, is with new authorizations we have tried to 
match that with increased budgets. I obviously cannot talk 
about the 2006 budget because it is in the very early stages of 
preparation right now. But we would look at a piece of 
authorizing legislation that Congress passed as something that 
we would try to be responsive to.
    Senator Bingaman. So you think there might actually be an 
increase in funds if this legislation became law.
    Mr. Rey. We would take a pretty good, hard look at it. 
Sure.
    Senator Bingaman. All right. That is encouraging. I think 
these are very useful programs and I am not in any way opposed 
to trying to go ahead. I would be concerned if we found that 
the very limited funding that is available for this kind of 
work by young people is shifted so that it is only available if 
they are doing this precise kind of work, and some of the 
existing programs have to essentially go away. I think that 
would be a mistake.
    Mr. Rey. Another option is to use more of our appropriated 
dollars for these programs as opposed to commercial contracts. 
That would be another thing we would look at, even within a 
flat budget, if we have specific authorization and interest 
from Congress to employ youth groups in this kind of work, one 
option, if it is work that we are already paying for under a 
commercial contract, is to shift it in that direction.
    Senator Bingaman. There is really no limit on your ability 
to do that now, as I understand it. To the extent that you 
determine to go ahead and contract with these kinds of groups 
to accomplish the work you need done; to the extent they are 
available and to the extent you have appropriated funds, you 
can do that. Am I right?
    Mr. Rey. Generally speaking, unless it is work that needs 
to be dealt with through a competitive contract, in which case 
that might not work. But we can use different authorities to do 
this work through noncompetitive contracts with groups like 
this.
    Senator Bingaman. I think that is useful testimony.
    Thank you very much, Mr. Chairman.
    Senator Craig. Thank you, Senator.
    Now, let me turn to Senator Feinstein.
    Senator Feinstein. Thanks very much, Mr. Chairman.
    On this point, just to respond to Senator Bingaman, the 
reason we did this is because the groups that exist under 
existing law really say that an authorization would help in 
terms of making, as Mr. Rey just pointed out, a kind of 
designated work effort and indicate I think to the Department 
that there was support for this. Otherwise, there is really no 
reason for them to extend a program that already is kind of 
fiscally strapped.
    I would hope we would be able to gain some appropriations 
for the program. I think those of us that worked on Healthy 
Forests really see the huge deficit that we have in terms of 
underbrush and the need to prevent and clean out. So I think 
that would work.
    On the subject of the wilderness bill, I was trying to 
follow what you said, Mr. Rey. I gather where you have sort of 
non-support--and correct me if I am wrong--is Sanhedrin, Mad 
River Butte, Mount Lassic, and Trinity Alps Wilderness, and 
Underwood. If that is a correct assessment, I guess my question 
to you is will you be willing to sit down and work with us and 
see what we can work out on each of those?
    Mr. Rey. Sure. We would definitely be willing to sit down 
and work with you. But let me clarify. On Trinity Alps, we are 
only opposed to the Orleans Mountain portion of that. We would 
not oppose the Horse Linto, East Fork, and Red Cap additions.
    Senator Feinstein. Well, did we not take of the Orleans 
Mountain part?
    Mr. Rey. This testimony was written on the bill as 
introduced. I probably should have said at the outset, based on 
some of your opening comments that you have already resolved 
some of the issues that we have raised here.
    Senator Feinstein. Well, then we need to go over where we 
have made some changes.
    Senator Craig. I would trust that certainly the Department 
and you all can get together and clarify any of these 
differences that exist.
    Senator Feinstein. Fine.
    Just quickly now, when I left this morning, I heard of this 
big fire beginning in southern California and approaching I 
guess they said dead trees. Can you give us any kind of an up-
to-date report? As you may know, some of your people are saying 
that more money will be needed.
    Mr. Rey. For firefighting purposes?
    Senator Feinstein. Yes.
    Mr. Rey. I think you are in the process of taking care of 
that in the Department of Defense budget, appropriations bill.
    Senator Feinstein. That is what I understand. An additional 
$30 million?
    Mr. Rey. That additional $30 million is for fuels 
reduction. As I understand it, there is an additional $30 
million for fuels reduction in southern California that was 
included in the DOD appropriations bill at Congressman Lewis' 
and your request.
    Senator Feinstein. Exactly.
    Mr. Rey. So that will continue the work on as we move 
forward. As I understand, there is also some additional money 
for firefighting which will make sure that we do not have any 
problems there.
    Senator Craig. Approximately $500 million in DOD if we move 
that this week, for fire suppression purposes I believe.
    Senator Feinstein. Can you give us any kind of an update on 
what is happening right now in southern California?
    Mr. Rey. Right now we have six large incident fires active 
in southern California. Most of those are 80 percent or more 
contained. Probably the one that you are hearing about this 
morning is the Crown Fire, which is located southeast of Acton, 
California. We are seeing extreme fire behavior there with 
State Highway 14 from Antelope Valley to the LA Basin being 
closed. We have ordered a type 1 incident command team which is 
en route to the fire at present. So we will be directing all 
available resources to that or at least all the resources that 
the type 1 commander asks for.
    Senator Feinstein. Is that near bark beetle?
    Mr. Rey. I do not think so. I think this would be yet down 
slope from bark beetle infected areas. It is burning in heavy 
brush right now. So it would be at a lower elevation with the 
possibility, if we are unable to contain it, that it could 
compromise some of the bark beetle infected areas if it burns 
into them, but at least right now it is not that far.
    Senator Feinstein. Thank you very much.
    Mr. Rey. I could also tell you that so far there are no 
unmet orders for assets on any of the fires in southern 
California or elsewhere. So we are keeping abreast of all of 
our incident commanders' order requests.
    Senator Feinstein. That is great. Thank you very much.
    Senator Craig. We have been joined by Senator Smith from 
Oregon, and Senator, you have a bill also. So we would 
appreciate any opening comment you want to make in relation 
specifically to that legislation or any questions you might ask 
of Mark or Chad as to the other legislation.

         STATEMENT OF HON. GORDON SMITH, U.S. SENATOR 
                          FROM OREGON

    Senator Smith. Thank you, Mr. Chairman. I have a very brief 
opening statement I will share with you and ask if they have 
any response to it.
    I appreciate you scheduling today's hearing and want to 
thank my colleague from Oregon, Senator Wyden, your ranking 
member on this subcommittee, for joining as a cosponsor of the 
legislation.
    It is S. 2221 and it addresses a couple of basic needs for 
the Umpqua National Forest in Douglas County, Oregon. Between 
1984 and 2003, timber harvest levels on the Umpqua dropped 99 
percent, as did manufacturing jobs in that county. It is with 
this backdrop in mind that I am trying to give the Umpqua 
National Forest and Douglas County a little help and some good 
government.
    S. 2221 is rather simple. First, it authorizes the Umpqua 
National Forest to sell at a fair market value three surplus 
parcels of land totaling 6.6 acres. In turn, the Umpqua is 
authorized to keep the revenues locally for improvements on the 
forests, including capital improvements.
    The bill also adjusts the wilderness area boundary to 
remove a road currently within the boundary of the Rogue-Umpqua 
Wilderness Area. This legislation removes 1.3 acres of 
wilderness and adds 1.3 acres of wilderness. So there is not a 
net loss of wilderness area.
    This legislation I believe will help the Forest Service 
better manage their forest resources and simplify management of 
this property. It will also spur the economic development in 
Roseburg and Glide, Oregon, which have been hit hard by the 
decline in timber harvest on Federal lands.
    That is all I have, Mr. Chairman. If Mr. Rey has any 
comment on it one way or the other, I would love to hear it.
    Mr. Rey. I have already indicated the administration's 
support for the legislation.
    Senator Smith. Thank you very much.
    Senator Craig. The light is green. Senator, thank you very 
much.
    Now let me turn to our colleague from the State of 
Washington, Senator Cantwell. You have legislation before us 
today in the White Salmon River Wild and Scenic designation. 
You can make an opening comment on that and/or ask questions of 
our colleagues here.

        STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR 
                        FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman, and thank you 
for holding this hearing. I would, if I could, submit a 
statement for the record on the S. 1614.
    Senator Craig. Without objection.
    [The prepared statement of Senator Cantwell follows:]

     Prepared Statement of Hon. Maria Cantwell, U.S. Senator From 
                         Washington, on S. 1614

    Thank you, Mr. Chairman, I appreciate you holding this hearing 
today and considering Senate Bill 1614, which is very important to 
residents of southwest Washington.
    The bill before us would designate some 20 miles of the main stem 
of the upper White Salmon River and of the Cascade Creek, all within 
the Gifford Pinchot National Forest, as components of the National Wild 
and Scenic Rivers System. By designating this upper third of the White 
Salmon, we can permanently protect this special river as a premiere 
recreational destination, a Southwest Washington economic resource, and 
an important wildlife and salmon habitat.
    The White Salmon River's remarkable beauty and pristine condition 
are not in question. In fact, the lower eight miles of the river 
received protection when Congress granted that stretch of the river 
``Wild and Scenic'' status in 1986. As we saw then, its protected 
status hasn't prevented residents and visitors from taking advantage of 
the unique recreational opportunities the White Salmon River offers. 
Extending ``Wild and Scenic'' protection to the river's upper reaches 
today is an important step forward in protecting even more of its wild 
character for fishing, boating, and other recreational activities.
    My bill, which will complement legislation offered by Congressman 
Baird in the House, will grant ``Wild and Scenic'' status to the upper 
reaches of the White Salmon and one of its tributaries, Cascade Creek.
    As one of the best whitewater rivers in the Pacific Northwest, the 
White Salmon already supports a number of whitewater rafting companies. 
About 12,000 whitewater boaters visit the river each year. So I see 
this designation as not just protecting a pristine river, but also its 
beneficial impact on the local economy downstream.
    Last August when I announced my intention to introduce this 
legislation, I asked local resident Mark Zoller to join me. Mark heads 
Zoller Outdoor Odysseys, a whitewater rafting company, and is the third 
generation of his family to guide whitewater trips on the river.
    That's exactly why I believe we need to protect the White Salmon 
River--to ensure that future generations of Zollers can take people 
down the river and future generations of Washingtonians have the same 
opportunities to enjoy its wild beauty, its opportunities for 
recreation, and its economic benefits.
    Whitewater sports are booming and last year were the second-fastest 
growing sport in the country. Nearly a quarter of all Americans 16 and 
older participated in a paddling sport at least once, and almost ten 
million people went seven or more times.
    Protecting the White Salmon River will help increase opportunities 
for other outdoor sports, too. This is an important sector of our 
state's economy. According to the Washington Department of Fish and 
Wildlife, fish and wildlife related recreation pumps nearly $2.2 
billion per year into our economy. And we rank first in the Northwest 
and eighth in the nation in spending by sport fishers.
    Safeguarding the White Salmon through this designation will also be 
an important step toward restoring wildlife habitat. Once the Condit 
Dam is removed from the lower reach of the river in 2006, the White 
Salmon will again become a major salmon and steelhead spawning habitat.
    As I'm sure you can attest, Mr. Chairman, getting bills through 
Congress can sometimes make rafting Class V rapids look easy. But 
thanks to the tireless efforts of local residents, ranchers, farmers, 
the timber industry, environmentalists, and county commissioners, I am 
proud to be able to confirm that this legislation has strong support 
from all the key stakeholders.
    In fact, I'd like to submit for the record a letter of support I 
received from 102 local citizens, including 30 individuals representing 
businesses.* I'd like to read a quote from that letter which I believe 
sums up the importance of this legislation: ``This is a magnificent gem 
of a river, with waters that plunge through rugged canyons and provide 
many benefits for small towns on the way--organic herb and dairy farms; 
river rafting; kayaking; bed and breakfast enterprises; tourism; 
hiking; fishing; camping; wildflower viewing; sales of gas and food. 
These are only a few of the businesses and recreational activities that 
provide livelihoods for residents of our rural region.''
---------------------------------------------------------------------------
    * The letter can be found in the appendix.
---------------------------------------------------------------------------
    In addition, I would also like to submit for the record a letter 
from Gifford Pinchot Forest Supervisor Claire Lavendel that confirms 
the Upper White Salmon River is eligible for the National Wild and 
Scenic River System. To quote Ms. Lavendel ``Thank you for allowing me 
the opportunity to speak to one of the true treasures of the Gifford 
Pinchot National Forest. The Upper White Salmon River and Cascade Creek 
as they flow through the Forest near Mt. Adams are beautiful and 
special places.''
    This broad range of support reflects that this is truly a win-win 
proposal for local interests.
    Mr. Chairman, I look forward to working with you and our Senate 
Colleagues to ensure that the Upper White Salmon River gets the special 
recognition and protection it deserves.

    Senator Cantwell. And if I could also, Mr. Chairman, submit 
for the record a letter from the forest supervisor for the 
Gifford Pinchot Forest in support of S. 1614 and letters from 
various property owners, businesses, and residents from the 
area.
    Senator Craig. Without objection.
    Senator Cantwell. Thank you, Mr. Chairman.
    I have read some of the statement that Mr. Rey gave this 
morning, so I will just ask a question. Obviously in the 
history of the designation of the White Salmon as a Wild and 
Scenic area, there had been first an original designation and 
then the continuation study of whether various parts of the 
river should also be added to the original scenic designation. 
It is my understanding that the Forest Service then came back, 
completed that study, and recommended the addition of the upper 
third of the river. So I am reading your testimony as 
supporting S. 1614. Is that correct?
    Mr. Rey. That is correct.
    Senator Cantwell. And the rest of the study and analysis as 
to other parts of the river is inconclusive or----
    Mr. Rey. We actually, in July 1997, recommended the entire 
38.4 mile length of the upper White Salmon to be added to the 
system. So our recommendation was a little more extensive than 
what is envisioned in the legislation, but the legislation does 
not preclude a subsequent designation. So we are fine to 
support the legislation as introduced.
    Senator Cantwell. Thank you, Mr. Chairman. That is all I 
have.
    Senator Craig. Senator, thank you very much. We appreciate 
your attendance.
    A couple of questions and I will submit more for the 
record, again specific to the northern California wilderness 
proposal. There are some new concepts in this that have not 
been embodied, to my knowledge, in past language for wilderness 
designation. S. 738 includes language to provide a 600-foot 
buffer strip to be managed around each parcel of private 
property within a wilderness proposal. I am going to follow 
that up with some questions about how we would propose to 
manage those strips because I am assuming concern about fuel 
loading and those kinds of things and how you will gain access 
to them. Is that a realistic proposal? I understand what our 
colleagues are attempting to do here and I appreciate that 
concern. I think the question remains, how do you do it? Is 
that a practical approach toward this kind of designation?
    Also, we are going to hear testimony in a few moments from 
Mr. Amador in which he talks about ROS's, or the recreational 
opportunity spectrum, as it relates to how the Forest Service 
views it and I think that as it relates to wilderness 
recreational experiences, an individual must be at least 3 
miles from the nearest road or trail where motorized vehicles 
are used. The ROS systems were developed by the Forest Service 
and used by your field folks. I am going to have some questions 
there that I wish you all would look at.
    I do not mind new concepts entering wilderness proposals. I 
think if we march in lock step to a 1963 law and demonstrate no 
flexibility, where certain areas and certain resources deserve 
additional protection, they are going to get denied in the end, 
and I think certainly the Senators from California and the 
Congressman have attempted to demonstrate some flexibility 
here. So I will have a series of questions for us to look at 
before we make a final decision on the legislation, and that 
will be for both of you.
    Thank you very much. I have no further questions of you and 
I appreciate your time and your testimony this afternoon.
    Mr. Rey. Thank you.
    Mr. Calvert. Thank you.
    Senator Craig. Now we will ask our second panel to come 
forward: Art Pope, Don Amador, and the Honorable John Woolley. 
Art Pope is the executive director for the Northwest Youth 
Corps of Eugene, Oregon. The Honorable John Woolley is with the 
Humboldt County Board of Supervisors, District 3, Eureka, 
California, and Don Amador is the Western representative for 
the BlueRibbon Coalition of Oakley, California.
    We do appreciate you gentlemen being with us today and 
traveling the distances you have and taking the time that you 
have on this issue. So, Art, we will start with you. Please 
pull the microphone as close as possible and proceed.

STATEMENT OF ART POPE, DIRECTOR, NORTHWEST YOUTH CORPS, EUGENE, 
                               OR

    Mr. Pope. Thank you. Mr. Chairman and members of the 
committee, I am honored to be here today to testify in support 
of S. 2253, the Healthy Forest Youth Conservation Corps Act of 
2004. I want to thank Senator Domenici and Senator Feinstein 
for their leadership. I also want to thank my home State 
Senators, Senator Wyden and Senator Smith.
    As you noted, I am director of the Northwest Youth Corps, 
and though our offices are located in Eugene, Oregon, our youth 
corps works on projects throughout the State as well as in 
Washington, central Idaho, and northern California. I am also 
testifying on behalf of the National Association of Service and 
Conservation Corps, NASCC, which represents more than 100 corps 
programs and 23 corps members in 32 States and the District of 
Columbia. I have attached detailed descriptions of the 
Northwest Youth Corps and NASCC for the record.
    As folks have noted earlier, there are a lot of fires 
burning in the Western States. As of July 8, five Western 
States--Alaska, Arizona, Colorado, New Mexico, and Washington--
all reported large, active fires. As of that time, 40,470 fires 
had consumed 2.9 million acres since the start of the year. 
Right now large, highly active fires are burning in Alaska and 
California. And in the West, fire danger remains high and 
continued drought conditions are expected to extend the fire 
season again this year.
    The National Fire News notes that once firefighters control 
a wildland fire, another group of quiet heroes move in to start 
the healing. After a fire, extensive work is often needed to 
control erosion and protect water quality. Land management 
professionals often turn to corps programs for the resources 
they need to start the stabilization and reforestation process.
    For example, in 2003, corps members in our programs built 
or maintained 367 miles of trail, pruned 257 acres of conifers, 
completed fuel reduction work on 147 acres, removed noxious 
weeds from 1,000 acres, planted 8,230 trees and covered 45 
acres collecting native seeds needed for habitat restoration 
work.
    In 2001, the Southwest Youth Corps in Durango, Colorado 
thinned or cleared 175 acres, created defensible space around 
20 structures, removed 33 truckloads of wood and created a 
serious of fire breaks 1 to 4 miles long and 40 to 400 feet 
wide.
    In 2003, the Youth Corps of Southern Arizona partnered with 
the Apache-Sitgreaves National Forest, the Coronado National 
Forest, and the Chiricahua National Monument to cut and pile 
excess fuels in order to reduce the potential for a 
catastrophic fire.
    The nearly 90,000 alumni of the California Conservation 
Corps have dedicated more than 50 million hours to protecting 
and enhancing the environment and another 6 million hours to 
responding to emergencies like fires, floods, and earthquakes.
    Corps programs offer Federal, State, and local land 
management agencies a flexible, experienced work force able to 
respond to emergencies and disasters on short notice. In 2001, 
16 corps programs engaged more than 1,400 corps members who 
provided 500,000 hours of service on our national forests. 
During this period, the Forest Service invested $4.2 million in 
these partnerships, while corps programs contributed an 
additional $2.4 million in matching dollars.
    Today's corps programs are direct descendants of the 
Civilian Conservation Corps of the Depression era. Like the 
legendary CCC, corps are a proven strategy for giving young 
people the chance to change their communities and their lives. 
Corps give young people the chance to step up a challenge, a 
chance to make a difference, and sometimes just a vitally 
needed second chance.
    Working under the leadership of adults who serve as mentors 
and role models, corps participants discover pride in their 
abilities, learn the importance of team work, and experience 
the recognition that comes from making a positive investment in 
their communities.
    Nationally approximately 60 percent corps members are young 
people of color, 50 percent without a high school diploma or 
GED, and 55 percent come from homes where the annual income is 
less than $15,000.
    S. 2253 provides the additional resources needed to prevent 
and fight forest fires, protect rural communities, and restore 
fire-damaged land. It will help corps programs to meet the 
needs of our youth and help today's young people become 
productive members of society.
    Mr. Chairman and members of the committee, thank you for 
the opportunity to testify on this important piece of 
legislation.
    [The prepared statement of Mr. Pope follows:]

   Prepared Statement of Art Pope, Director, Northwest Youth Corps, 
                               on S. 2253

    Mr. Chairman and members of the Subcommittee, I am honored to be 
here today to testify in support of S. 2253, the Healthy Forest Youth 
Conservation Corps Act of 2004. I want to thank Senator Domenici and 
Senator Feinstein for their leadership. I also want to acknowledge the 
leadership of Senators Wyden and Smith from my home state of Oregon.
    I am the Director of the Northwest Youth Corps (NYC). The NYC is 
headquartered in Oregon but also does work in Idaho, Washington State, 
and California. I am also testifying on behalf of the National 
Association of Service and Conservation Corps (NASCC) which represents 
the corps movement in Washington and consists of more than 100 corps, 
enrolling 23,000 corpsmembers in 32 states and the District of 
Columbia. I have attached detailed descriptions of the NYC and NASCC 
for the record.
    Based on our work in Oregon and reports from my colleagues around 
the country, I am convinced that corps have an important role to play 
in preventing forest fires and other natural disasters that endanger 
our forests, providing appropriate assistance to communities threatened 
by fires, and helping communities recover from the devastation caused 
by fires.
    As of July 8, five states--Alaska, Arizona, Colorado, New Mexico, 
and Washington--were reporting large, active fires and almost 300 large 
fires had been contained since January 1, 2004. In addition to these 
large fires, the National Interagency Fire Center reported that there 
had been 40,470 fires consuming 2.9 million acres since the start of 
the year. According to press reports, the extreme drought is expected 
to extend the West's fire season and drier than normal logs and trees 
are expected to fuel further fires as the heat wave conditions 
continue.
    According to the National Fire News ``as firefighters control 
wildland fires, another group of quiet heroes move into the area to 
start the healing. After a wildland fire, the land may need 
stabilization to prevent loss of topsoil through erosion and prevent 
the movement of dirt into rivers and streams. Land management 
specialists and volunteers jump start the renewal of plant life through 
seeding and planting with annuals, trees, and native species that help 
retain soils and fight invasive weeds. It's a long term process that 
comes alive as the wildland fires die down.''
    This is exactly the kind of work at which corps excel. In fact, we 
are already doing this work. Legislation such as S. 2253 will provide 
the federal government with the resources necessary to continue to 
utilize corps and cost-effectively fight wildfires. At the same time, 
this bill targets disadvantaged youth and encourages them to help 
themselves by helping their communities. For example:
    In 2003, NYC Corpsmembers built or maintained 367 miles of trail, 
pruned 257 acres of conifers, performed fuel reduction on 147 acres, 
removed noxious weeds from 1,000 acres, planted 8,230 trees, and 
collected seeds on 45 acres.
    Between April and October, 2001 the Southwest Youth Corps in 
Durango, Colorado thinned or cleared 175.5 acres, created defensible 
space around 20 structures, removed 33 truckloads of wood, and created 
a series of fire breaks that extended between one and four miles and 
were between 40 and 400 feet wide.
    In the past year the Utah Conservation Corps did thinning in a 
wildland fire-urban interface zone outside of Park City that was a 
partnership between a homeowner's association and Utah Department of 
Forestry. In the past, it has carried out ``soil stabilization'' 
projects in the Bridger-Teton National Forest that included the 
rehabilitation and re-routing of trail in bum areas and building 
drainage structures.
    In 2003, the Youth Corps of Southern Arizona have partnered with 
Apache-Sitgreaves National Forest, the Coronado National Forest, and 
Chiricahua National Monument. Corpsmembers cut and piled excess fuels 
in preparation for a burn as part of a hazardous fuel reduction 
project. They also thinned and removed trees for habitat improvement on 
the Apache-Sitgreaves. The YCOSA worked with Ramsay Canyon, a facility 
of The Nature Conservancy in southern Arizona to remove hazardous, 
flammable material from buildings. Work to create defensible space was 
conducted several weeks prior to a fire and the Corps has received 
credit for saving the buildings. In the past, three camp crews were 
sent to fires on BLM and USFS areas (once in Wyoming and twice in 
Arizona).
    The Coconino Rural Environment Corps located in Flagstaff, Arizona 
thins hundreds of acres of federal, state, county, city, and private 
lands every year. The Corps has created multiple partnerships in local 
communities to mitigate the hazards of catastrophic wild fires. Summit 
Fire Fuels Reduction Partnership has thinned land around more that 30 
homes in its local community. The Partnership also provided the local 
Native American Reservations with more than 400 cords of fire wood. 
Partnering with County and City Waste Management the partnership found 
a way to transport fire wood to community members in need with little 
to no cost to the project. The partnerships have also increased 
community awareness to the dangers of wildfire and the risks that may 
be associated with living in one of the most fire prone forests in the 
world, thus creating a more fire wise community.
    The CREC thins more than 500 acres a year and returns more than 
4000 acres to native grasslands. Forest restoration has also been a 
large portion of the forestry work CREC has done over the last several 
years.
    The Western Colorado Conservation Corps (WCCC) has done access and 
egress in urban interface in the Black Canyon of the Gunnison National 
Park housing area to insure safe passage for emergency response 
workers. Corpsmembers have been trained in firescaping around new 
suburban neighborhoods as cities spread into rural areas to provide 
both visually aesthetic and fire resistant landscape around structures 
of value and along the avenues of emergency response. In 2003, The 
Minnesota Conservation Corps responded to 45 wildfires that totaled 
30,656 acres. It completed 920 home and property assessments (fire 
wise) relating to wildfire danger and defensible space and made 
recommendations to the home owners on how to make their property safer 
in the event of a wildfire.
    Corpsmembers also provided about 8,720 hours in indirect fire 
suppression activities including 5 miles of fire break construction, 
400 acres of timber stand improvement, and 5,560 acres of prescribed 
burns.
    In any given year MCC plants 150,000 plus trees in areas that may 
or may not have been impacted by previous fires. MCC also completes 150 
Forest Inventory Analysis (FIA) plots each year for the Minnesota 
Department of natural resources Division of Forestry. These plots are 
then used in a variety of Forestry models including a wildfire model.
    The California Conservation Corps (CCC) is the nation's oldest, 
largest and longest-running youth conservation corps. Nearly 90,000 
young men and women have worked more than 50 million hours to protect 
and enhance California's environment and communities and have provided 
six million hours of assistance with emergencies like fires, floods and 
earthquakes.
    This June the CCC laid plastic and sandbags on Delta levees to 
prevent flooding; fought fires in Santa Barbara and Madera counties and 
surveyed for the glassy-winged sharpshooter (a major agricultural pest 
that cause Pierce's disease in grapevines and other diseases in other 
plants and has caused the loss of millions of dollars to wine grape 
growers) in Solano County. At the request of the San Joaquin County 
Office of Emergency Services and the state Department of Water 
Resources, 200 corpsmembers and staff were dispatched. The 15 crews 
placed heavy plastic sheeting and sandbags to protect 13.5 miles of 
interior levees not designed to hold flood waters. Corps headquarters 
or satellites sending crews included Chico, Delta, Fresno, Los Angeles, 
Monterey Bay, Norwalk, Placer, Pomona, Redding, San Luis Obispo, 
Siskiyou and Tahoe.
    At the same time the CCC responded to the Delta levees, three crews 
were dispatched to the Gaviota Fire in Santa Barbara County. 
Corpsmembers from the Los Padres and Pomona centers assisted the 
California Department of Forestry and Fire Protection with logistical 
support.
    As crews finished up with the Gaviota Fire this month, the CCC was 
called upon to respond to the Source Fire in the Sierra National 
Forest, under the direction of the U.S. Forest Service. Fresno and 
Pomona corpsmembers provided assistance at the fire camp. As I have 
indicated, corps have experience working with federal, state, and local 
land management agencies. In 2001, 16 NASCC Corps engaged more than 
1,400 corpsmembers in projects in national forests and corpsmembers 
provided more than 500,000 hours of service. Indeed, the Forest Service 
invested $4.2 million in partnerships with Corps and leveraged an 
additional $2.4 million in match.
    Corps do fee-for-service work and meet the test of the marketplace 
everyday. If we don't meet or exceed expectations our partners go 
elsewhere. Enactment of S. 2253 and corresponding funding will enable 
us to do more.
    Corps are the direct descendents of the Civilian Conservation Corps 
(CCC) of the Depression era. Like the legendary CCC, today's Corps are 
a proven strategy for giving young men and women the chance to change 
their communities, themselves, and their families. By providing 
opportunity to young people who need a second chance, corps turn 
potential problems into valuable resources.
    Approximately 60% of NASCC corpsmembers are young people of color, 
50% enroll without a high school diploma or GED and 55% come from homes 
where the annual income is less than $15,000. A rigorous, random 
assignment evaluation conducted by Abt Associates/Brandeis University 
reports positive outcomes for young people who join a corps. The Abt 
Associates/Brandeis University study also found that:

  <bullet> significant employment and earnings gains accrue to young 
        people who join a corps;
  <bullet> arrest rates drop by one third among all corpsmembers;
  <bullet> out-of-wedlock pregnancy rates drop among female 
        corpsmembers; and
  <bullet> corps generate $1.60 in immediate benefits for every dollar 
        invested.

    Corps engage primarily young people ages 16-25 in service, training 
and educational activities. The corps model places young people under 
the leadership of adult leaders who serve as mentors and role models.
    In return for their efforts to restore and strengthen communities, 
corpsmembers receive: 1) a stipend; 2) classroom education to improve 
basic competencies and secure credentials; 3) technical skills 
training; 4) supportive services; and 5) a post-service educational 
award. Young men and women learn to value their personal contribution, 
learn the importance of teamwork and experience the recognition that 
comes from making a positive investment in their community.
    Corps are established pathways to re-integrate vulnerable young 
people into society. The supportive environment, the power of providing 
service to their own neighborhoods and the value of paid work to self-
esteem combine to strengthen the ties between a young person and his or 
her community.
    S. 2253 provides needed additional resources to meet the challenges 
posed by forest fires. Funding corps to thin forests generate community 
volunteers, and restore land after a fire occurs is a cost-effective 
way to reduce the danger of fires and their aftermath.
    Mr. Chairman, thank you again for the opportunity to testify on 
this important piece of legislation.

    Senator Craig. Art, thank you for that testimony. Those are 
valuable and important figures that we add to the record.
    Now we turn to the Humboldt County Board of Supervisors, 
John Woolley. John, welcome before the committee.

            STATEMENT OF JOHN WOOLLEY, SUPERVISOR, 
                      HUMBOLDT COUNTY, CA

    Mr. Woolley. Thank you, Mr. Chairman. It is my pleasure to 
be here today. I am a Humboldt County Third District 
Supervisor, and I want to thank you for the opportunity for 
this hearing and to testify on behalf of the Northern 
California Coastal Wild Heritage Wilderness Act.
    I would also like to recognize colleagues of mine behind me 
who are here today to help support the bill for California's 
First Congressional District. We have Mike Rippey, Napa County 
Supervisor; Peter Windrom, a horseman and hunter from Lake 
County; and Karen Oslund, the mayor of the town of Willits 
which is in Mendocino County, the county just south of mine.
    Senator Craig. Welcome to the committee, folks. We 
appreciate you attending today. Thank you.
    Mr. Woolley. I want to thank our representatives starting, 
of course, with Congressman Mike Thompson, and then of course, 
our Senators Feinstein and Boxer. It is truly great to see 
their hard work on this bill and I will be speaking to that in 
my testimony.
    So all of us are here to lend our support on this bill 
because of its benefits to what we believe is our quality of 
life throughout the congressional district. We believe this 
bill will protect our spectacular scenery and unmatched outdoor 
recreation opportunities. It protects our clean air and water 
and passes our natural heritage on unspoiled for future 
generations to enjoy. At the same time, it ensures continued 
motorized access by not closing any areas legally and 
physically open to standard passenger vehicles. We believe it 
can help increase tourism to the region while benefiting rare 
wildlife and plant communities, and last, greatly protect our 
300 miles of important fish habitat. The bill provides local 
government with a critical piece of the puzzle for saving our 
imperiled salmon.
    I should say as a sidebar, I am part of the five-county 
team that works on salmon restoration efforts and we believe 
what you have identified here are the headwaters areas that 
will really help with our salmon efforts.
    The great degree of local support for S. 738 is largely due 
to the extraordinarily inclusive process through which Senators 
Boxer and Feinstein and Representative Thompson crafted in 
their legislation. We witnessed their development of this bill 
from the ground up. During the 4 years they spent listening to 
local citizens and elected officials throughout the First 
Congressional District, they sought out and received input from 
a wide range of local stakeholders. As a result, the bill is 
now a mosaic of fine-tuned adjustments designed to address 
these local concerns. These stakeholders include equestrians, 
local fire officials, Native Americans, mining interests, the 
timber industry, anglers, hunters, ranchers, private 
landowners, local mountain bikers, and many others, including 
our elected officials.
    So we are pleased with the discussion around what has 
happened so far.
    We are very grateful of your attention to the fire issue 
because we too suffer, as you know, with the fire threats up 
there. In fact, we have been using fire planning funds to help 
address the very important issues around the Orleans 
communities, as was mentioned by Senator Feinstein.
    The owners of the Short Ranch supported the bill after a 
boundary line was adjusted behind a fork of Boise Creek near 
their land. Another example with adjustments was when the BLM 
shared their fire management strategy in the King Range, the 
proposal boundaries were adjusted to accommodate their plans. 
Down in Lake County, when the Clear Lake Horsemans Association 
was concerned about continuing to be able to cut firewood in a 
particular area, the wilderness boundaries were adjusted to 
meet their needs, and there are many more examples of this that 
brought about the changes such that from the original plan 
21,000 acres were then dropped.
    So this is the true level of cooperation and--I cannot 
emphasize this more--an attentiveness to local interests that 
county supervisors like Mike Rippey and myself truly appreciate 
from the Federal Government. I should say that we have, as has 
probably been mentioned, a list of hundreds of local folks 
throughout a whole community that both want wilderness 
protection but also the access that it provides. I think this 
bill really clearly demonstrates the flexibility that you spoke 
to earlier that is needed.
    So aside from this inclusive process undertaken in crafting 
it, this bill is truly a gift to our region. We want to be able 
to make sure that we help support the tourism that continues we 
believe these designations will. These benefits have drawn the 
support of a broad and diverse range of citizens in the First 
Congressional District. I will support with my written 
testimony, if I could, this list of over local supporters of 
the bill, including many letters from individuals throughout 
the First District.
    We thank you very much for your attention on this matter. I 
will be glad to answer any questions you may have.
    [The prepared statement of Mr. Woolley follows:]

 Prepared Statement of John Woolley, Supervisor, Humboldt County, CA, 
                               on S. 738

    Good afternoon, Mr. Chairman and members of the Committee. Thank 
you for this opportunity to testify on behalf of the Northern 
California Coastal Wild Heritage Wilderness Act.
    My name is John Woolley. I'm a supervisor representing the people 
of northwestern Humboldt County.
    I would like to also recognize some other visitors from 
California's First Congressional District who are here today. We have 
Mike Rippey, Napa County Supervisor, Peter Windrom, a horseman and 
Hunter from Lake County, and Karen Oslund, the Mayor of the town of 
Willits in Mendocino County.
    We are here to lend our support to this bill because of its 
benefits to our quality of life in the North Coast.
    It will protect our spectacular scenery and our unmatched outdoor 
recreation opportunities. It protects our clean air and water-and 
passes our natural heritage on unspoiled for future generations to 
enjoy. It ensures continued motorized access by not closing any areas 
legally and physically open to standard passenger vehicles. It can help 
increase tourism to the region while benefiting rare wildlife and plant 
communities. Lastly, by protecting over 300 miles of important fish 
habitat, the bill provides local government with a critical piece of 
the puzzle for saving our imperiled salmon.
    But these benefits only partly explain the popularity of this bill. 
The great degree of local support for S. 738 is largely due to the 
extraordinarily inclusive process through which Senators Boxer and 
Feinstein and Representative Thompson crafted their legislation. They 
painstakingly built the bill from the ground up. During the four years 
that they spent listening to local citizens and elected officials 
throughout the First Congressional District, they sought out and 
received input from a wide range of local stakeholders. As a result, 
the bill is now a mosaic of fine-tuned adjustments designed to address 
these local concerns. These stakeholders included equestrians, local 
fire officials, Native Americans, mining interests, the timber 
industry, anglers, hunters, ranchers, elected officials, private land 
owners, local mountain bikers, and many others.
    For example, in my home of Humboldt County, when fire officials in 
Orleans expressed concerns about the proposed boundaries, the bill's 
sponsors removed the portion closest to the town. The owners of the 
Short Ranch supported the bill after a boundary line was set back 
behind a fork of Boise Creek near their land. When the BLM shared their 
fire management strategy in the King Range, the wilderness proposal 
boundaries were adjusted to accommodate their plans. Down in Lake 
County, when the Clear Lake Horsemans Association was concerned about 
continuing to be able to cut firewood in a particular area, the 
wilderness boundaries were adjusted to meet their needs.
    In all, 18 major adjustments and literally dozens of minor ones 
were made to the wilderness proposals as a result of these 
collaborative discussions. These efforts resulted in dropping nearly 
21,000 acres from the original plan.
    This is the level of cooperation and attentiveness to local 
interests that County Supervisors like myself truly appreciate from the 
federal government.
    But of course; aside from the process undertaken in crafting it, 
this bill is truly a gift to our region. The scenic federal lands that 
this bill would protect are essential to our quality of life in 
Humboldt County. Tourism is a growing part of our economy along with 
timber, fishing, retail, and government. The areas proposed for 
protection are considered poor candidates for logging but are well 
suited to draw visitors in off the highway to come and hike, raft or 
kayak, hunt, fish, birdwatch, or just see our beautiful wildflowers in 
spring. They will eat at our restaurants and shop at our stores, and 
perhaps some of them will decide to make their home on the North Coast. 
While of course Wilderness is not the entire answer to our region's 
economic problems, it could make an important contribution.
    These benefits have drawn the support of a broad and diverse range 
of citizens in the 1st Congressional district. I will submit as part of 
my written testimony this list of over 200 local supporters of the bill 
and this set of nearly 100 individual endorsement letters from elected 
officials, tribes, religious groups, inholders, citizen organizations 
and small businesses including ranch and mill owners.
    We hope you will join with Senator Boxer and Senator Feinstein in 
supporting the Northern California Coastal Wild Heritage Wilderness 
Act.
    Thank you for this opportunity to speak here today.

    Senator Craig. Supervisor Woolley, thank you very much for 
that testimony.
    Now let me turn to Don Amador, Western representative of 
BlueRibbon Coalition from Oakley, California. Don, it is 
pleasing to have you before the committee. I have had a great 
working relationship with BlueRibbon Coalition and I appreciate 
your advocacy for off-road vehicle use, responsible off-road 
vehicle use and recreational values. Thank you and please 
proceed.

  STATEMENT OF DON AMADOR, WESTERN REPRESENTATIVE, BLUERIBBON 
                  COALITION, INC., OAKLEY, CA

    Mr. Amador. Mr. Chairman Craig, I appreciate being asked to 
testify on S. 738. My name is Don Amador. I am the Western 
representative for the BlueRibbon Coalition. I am also a native 
of Humboldt County and grew up there hunting and fishing and 
otherwise enjoying the use of public lands in that area.
    BRC supports the intent of the original Wilderness Act of 
1964 as quoted on Senator Barbara Boxer's web site, and in 
quotes, ``an area where the earth and its community of life are 
untrammeled by man, where man himself is a visitor who does not 
remain, an area of undeveloped Federal land retaining its 
primeval character and influence, without permanent 
improvements or human habitation, which is protected and 
managed so as to preserve its natural conditions.''
    Mr. Chairman, we all remember the land use battle 
surrounding the wilderness designations in the mid-1980's. Many 
of us felt the strict 1964 Wilderness Act guidelines were bent 
or manipulated by wilderness advocates for political reasons. 
As you know, many of those lands contained historic mechanized 
roads and trails that were used by multiple use recreation and 
resource interests.
    Today it appears that those same wilderness advocates are 
not just bending the rules, but throwing them out the window. 
Mr. Chairman, at the core of this issue, as you pointed out 
earlier, is roads and access. This bill's advocates have said 
that no current legal roads will be closed if the wilderness 
act is approved. However, BRC has found that many maintained 
public roads will be closed to motorized and mechanized uses, 
including portions of the Smith-Etter Road that go out to the 
Kinsey and Spanish Ridge trail heads in the King Range. BRC's 
review of on-line maps available to the public of these 
proposed wilderness areas found they used general purpose, low 
detail forest maps instead of the more accurate 7\1/2\ minute 
topo's. As you may know, general forest maps only contain about 
50 to 80 percent of the legal and maintained road network.
    Mr. Chairman, many legal and maintained logging spur roads 
are penned out in this proposal. As you know, these roads are 
important dispersed recreation sites or hunter camps used by 
outdoorsmen. Many of these would be closed to RV's and SUV's 
and these rigs would be forced to park along very narrow Forest 
Service roads creating both traffic problems, potential for 
theft, and visual impacts.
    Another issue is that much of the promised hunting and 
outdoor access in S. 738 for motorized users is based on the 
cherry stem concept. While this idea sounds reasonable, it 
often fails to live up to its access promise. It must be 
remembered that motorized and mechanized use via the cherry 
stem concept is only an allowed use and not a prescribed use. 
Several Forest Service resource specialists have told me 
privately that cherry stem routes will not work long-term 
because it causes management problems or conflicts for the 
agency.
    BRC believes this legislation is purposely deviating from 
the original intent of the Wilderness Act of 1964 by lowering 
the standards for Federally designated wilderness so that non-
wilderness lands can be withdrawn from certain public use and 
management prescriptions.
    BRC's review of this legislation shows that this 21st 
century modern type of wilderness can include radio and cell 
phone towers. It can include electrical transmission lines. It 
can border a county landfill site with views of people dumping 
their garbage from a proposed wilderness trail head. And as you 
pointed out before, it can contain well-maintained roads with 
culverts. And you may even find private inholders blocking 
access to public land with no trespassing signs such as greeted 
me on a recent attempt to survey the Elkhorn Wilderness 
addition.
    Mr. Chairman, BRC feels that S. 738 fails to live up to its 
promise for access, recreation, and resource protection. At a 
time when the public is demanding more managed recreational use 
of Federal lands, BRC feels that Congress should work to 
provide more vehicle and mechanized opportunities and the 
resources to better care for our timber stands and grasslands. 
Should Congress feel that any part of S. 738 needs additional 
protection, BRC strongly suggests that it consider our back 
country designation.
    Last, BRC and AMA did meet with Senator Boxer's senior 
staff in 2000, offering to look at lands that truly met the 
wilderness criteria. We just feel that this new modern type of 
wilderness where you are hiking and you maybe pass by a lineman 
driving a Dodge power wagon just does not fit the wilderness 
criteria.
    I will be glad to answer any questions.
    [The prepared statement of Mr. Amador follows:]

       Prepared Statement of Don Amador, Western Representative, 
                 BlueRibbon Coalition, Inc., on S. 738

    Mr. Chairman and honorable committee members, I am Don Amador, the 
Western Representative for the BlueRibbon Coalition (BRC), based in 
Pocatello, Idaho. The BlueRibbon Coalition is a national recreation 
group that champions responsible use of public and private lands, and 
encourages individual environmental stewardship. It represents over 
10,000 individual members and 1,100 organization and business members, 
for a combined total of over 600,000 recreationists nationwide. I am a 
native of Humboldt County and grew up in the Eureka area hunting, 
fishing in the ocean and streams, hiking in state parks, and riding my 
off-highway vehicle on public lands. In fact, the black bear I bagged 
in the late 1970s was the first bear taken off of Underwood Mountain (a 
proposed Wilderness area) according to the USDA Forest Service (FS) 
officer who validated my tag.
    Between 1994-2000, I was a commissioner and chairman for the Off-
Highway Motor Vehicle Recreation (OHMVR) Commission at California State 
Parks. I currently serve on the OHMVR community stakeholders group. I 
helped develop the current Memorandum of Understanding between BRC and 
the Washington Office of the USDA Forest Service. Recently on behalf of 
BRC, I partnered with the Mendocino National Forest on a joint grant 
request to Tread Lightly! and their HUMMER HELPS program to fund the 
restoration of the North Fork Campground that was destroyed in the 2002 
Trough Fire. I have been invited to speak on public land access issues 
by the Society of Environmental Journalists, Outdoor Writers 
Association of America, and the Western Outdoor Writers.
    BRC members work hard to promote a responsible land-use ethic and 
donate literally thousands of hours to maintain our existing trail and 
recreational facilities on lands managed by the FS and Bureau of Land 
Management (BLM). BRC also supports the intent of the original 
Wilderness Act of 1964 as, ``an area where the earth and its community 
of life are untrammeled by man, where man himself is a visitor who does 
not remain . . . an area of undeveloped Federal land retaining its 
primeval character and influence, without permanent improvements or 
human habitation, which is protected and managed so as to preserve its 
natural conditions . . .''
    In general, the public supports protection of these lands. The 
primary argument is not a conflict between protection and exploitation 
but a disagreement on the specific actions that are necessary to 
provide appropriate protection to these areas. In 1972, the Forest 
Service began the first review of FS Roadless Areas. This study was 
known as the Roadless Area Review and Evaluation (RARE) process. The 
intent within the agency, at that time, was to identify areas that met 
the criteria and then make a determination of which areas qualified for 
inclusion in the Wilderness Preservation System. One of the criteria in 
this 1972 process, for inclusion of an area in the roadless inventory, 
was that primitive roads would be ignored unless they were constructed 
or maintained with mechanical equipment.
    Disagreements over what areas were suitable for Wilderness created 
significant controversy. In an attempt to reduce the controversy and 
conflict, the FS undertook a second review (RARE II). This second 
review resulted in the 58.5 million acres in the current inventory. As 
part of this review, the FS again made Wilderness suitability 
determinations. In the several decades since this last review, Congress 
has designated some of the areas as Wilderness and not acted on some 
others. Instead of reducing the controversy surrounding Wilderness 
recommendations, this second review only served to expand the area 
under disagreement. Wilderness advocates, using the perception that all 
of these areas--and some BLM properties--are pristine have now pushed 
forward with their efforts to include all areas as designated 
Wilderness.
    BRC appreciates that Senator Barbara Boxer and Congressman Mike 
Thompson want to protect our natural resources and provide for a 
variety of recreational activities. However, BRC has reviewed this 
proposal and finds that it has many programmatic and technical 
deficiencies that could result in the loss of those values that we all 
seek to enjoy.
    Even though Thompson legislative aide Jonathan Birdsong stated 
(Press Democrat, April 1, 2003), ``. . . no current legal roads--for 
example some of those in the King Range--will be closed if the 
wilderness act is approved.''--BRC finds that according to proposed 
Wilderness maps available on Senator Boxer's website many existing 
roads including about 12 miles of local roads including the Smith-Etter 
Road in the proposed King Range Wilderness Area will be closed to the 
general public or mountain bikers traveling to interior staging areas. 
Many other legal and existing motorized roads used by hunters and other 
dispersed recreation interests will be closed as well.
    BRC is concerned that road closures in S. 738 closely mirror other 
roads that are being closed elsewhere in the state by this 
legislation's parent bill, S. 1555--The California Wild Heritage Act of 
2003. While this bill's supporters make similar claims that no roads 
are being closed, BRC found that many recreational access roads 
including 9N10, 10N14, and 10N14B would be closed in the new Caples 
Creek Wilderness Area.
    Rather than this being a so-called citizen's Wilderness proposal, 
the advocates for this legislation simply appear to have used a marking 
pen and traced many of their proposed Wilderness areas from the Forest 
Service's March 2, 2000 Map of Inventoried Roadless Areas on National 
Forest System Lands. BRC's review of online maps available to the 
public of these proposed Wilderness areas found they used general 
purpose low detail Forest Maps instead of the more accurate 7.5 Minute 
Series Topographic Maps. As you may know, general Forest Maps only show 
50-80 percent of their legal and maintained road network.
    Often because of large scale maps, the marking pen (representing up 
to \1/4\ mile in width) obliterates adjacent or boundary roads and 
makes it unclear if S. 738 intends to close the road or leave it open. 
Also, many legal and maintained ``logging spur'' roads that are usually 
between 100 yards to \1/4\ mile in length are ``penned out.'' These 
roads are important dispersed recreation sites or ``hunter camps'' used 
by outdoorsmen. Many of these would be closed to RVs and SUVs and these 
rigs would be forced to park along very narrow FS roads creating both 
traffic flow problems, potential for theft, and visual impacts.
    Much of the hunting and outdoor access for motorized users is based 
on the ``cherry stem'' concept. While this idea sounds reasonable, it 
often fails to live up to its access promise. It must be remembered 
that motorized/mechanized use via the cherry-stemmed concept is only an 
``allowed'' use, not a prescribed use. The Gasquet-Orleans road in the 
Six Rivers National Forest was originally cherry-stemmed in the 
California Wilderness Act of 1984, yet in the early 90s it was closed 
to motorized and off-highway vehicle (OHV) access because that use was 
not compatible with ``Wilderness values.'' Four-wheel drive use on the 
BLM's Black Sands Beach in Northern California was recently banned 
because the agency said, ``OHV use [i.e. motorized] is not compatible 
with Wilderness values.''
    The passage of the California Desert Protection Act had as one of 
its ``access foundations'' the cherry-stemmed route to get buy-off from 
access groups and multiple-use legislators. Yet, when the final version 
of the bill was released or went into conference committee, many of 
those routes were erased from the legislation.
    Even the Glamis Sand Dunes in Imperial County was a ``cherry-
stemmed'' recreation area that the OHV community was promised as a 
bone, yet today the very groups that pushed the original Act have 
targeted that area for closure as well.
    Because S. 738 uses many existing and legally maintained OHV and 
mechanized roads as new Wilderness ``boundary markers,'' it has created 
a new and somewhat problematic management dilemma for the FS and BLM. 
These roads could be called ``quasi-cherry stems'' and appear to be in 
conflict with the ``3-mile'' setback rule. According to the Recreation 
Opportunity Spectrum (ROS), in order to have a wilderness recreation 
experience, an individual must be at least 3 miles from the nearest 
road or trail where motorized vehicles are in use.
    A Forest Service resource specialist once told me that another 
reason the cherry-stemmed route does not work long-term is because it 
causes ``management problems or conflicts'' for the agency. Again this 
dilemma for the agency derives from the fact that cherry-stemmed or 
quasi-cherry-stemmed OHV and mountain-bike (MTB) use is only an. 
allowed activity that does not mesh well with the very strict 
management or non-management directives for federally designated 
Wilderness.
    BRC believes this legislation is intentionally deviating from the 
original intent of the Wilderness Act of 1964 and the ROS 3-mile 
setback rule by ``lowering the standards'' for federally designated 
Wilderness so that non-Wilderness lands can be withdrawn from certain 
public uses and management prescriptions. BRC's review of this 
legislation shows that this 21st Century ``modern-type of Wilderness'' 
can include radio and cell phone towers, electrical transmission lines, 
bordering a county land-fill site with views of people dumping their 
garbage from the proposed Wilderness trail-head, and well maintained 
roads with culverts. According to apparent promises made to local water 
districts, utilities, and forest health interests a hiker in this 
modern Wilderness can expect to see garbage trucks emptying their 
loads, loggers running chainsaws to address overgrown habitats, 
bulldozers maintaining existing roads or building a fire line, backhoe 
operators repairing a culvert so radio technicians can reach a tower, 
and linemen or linewomen in Dodge Powerwagons, Jeeps, or all-terrain 
vehicles (ATVs) traveling on roads and trails to repair telephone poles 
or transformers. You may even find private inholders blocking access to 
public lands with NO TRESSPASSING signs.
    Using the available proposed Wilderness maps posted on Senator 
Boxer's website and based on my recent tour of some of the proposed 
Wilderness areas, I will endeavor to accurately portray what BRC 
believes the effect will be to the recreation community if the 
legislation is passed.
    Snow Mountain Wilderness Additions--This 20,960 acre proposal would 
increase the size of the existing Snow Mountain Wilderness by 
approximately 60%. The affected National Forest System lands 
surrounding the current Snow Mountain Wilderness Area are important 
recreation lands used by MTBs, OHVs, hunters, fishermen, equestrians, 
houndsmen, and people driving for pleasure. It contains or is adjacent 
to many dispersed and developed recreation site. The proposal would 
close a number of mountain bike trails and apparently some legal 
motorized routes that do not show up on the low detail general forest 
maps used by the advocates for this legislation. As stated before, the 
sometimes indiscriminate use of a black marker pen on these large scale 
maps appear to effect a number of routes currently open to legal 
motorized access interests. The routes closed to mountain bikes include 
the Cold Creek Trail, Marble Cabin Trail, Bloody Rock Trail, and 9W45. 
Existing and legal forest roads that are cherry-stemmed or quasi-
cherry-stemmed include, but are not limited to; M3, M6, M10, 17N02, 
17N29, 17N33, 17N87, 18N02, 18N04, and 19N12. Also at risk of closure 
to motorized access are many dispersed hunter campsites that exist at 
the end of short logging spur roads. Since this area is at risk for 
catastrophic wildfire, BRC feels this Wilderness addition would 
complicate efforts to manage federal lands for forest health and fire 
protection and would place the local community including the nearby 
Fouts Springs Youth Facility in serious jeopardy. BRC does not believe 
this area qualifies for federal Wilderness under the guidelines of the 
Wilderness Act of 1964.
    Sanhedrin Mountain Wilderness Addition--This 10,160 acre proposal 
appears to close a number of OHV and mountain bike opportunities. These 
include, but are not limited to, road near Pen Creek, and road south of 
L. Signal Peak. 9N16 appears to be cherry-stemmed or quasi-cherry-
stemmed on the proposed Wilderness map. A Wilderness designation would 
impact the agency's ability to actively manage the area for wildfire. 
BRC believes this area does not qualify for federal Wilderness.
    Yuki Wilderness Addition--This 51,790 acre proposal appears to 
close a number of existing and legal OHV and mountain bike routes. 
These include, but are not limited to, 10W27, 10W32, 21N19, 4 unnamed 
roads/trails in the NW section, and a 4WD trail near Thatcher Creek. 
Roads that are cherry-stemmed or quasi-cherry-stemmed include, but are 
not limited to, M1, 20N14, 21N08, 21N11, and 21N18. Too many existing 
recreation facilities would be closed or otherwise impacted by this 
proposal. It would also functionally limit the agency's ability to 
actively manage said lands for forest health and wildfire protection.
    Yolla Bolly-Middle Eel Wilderness Additions--This proposal would 
add 26,760 acres to the existing 153,841 acre Yolla Bolly-Middle Eel 
Wilderness area. These additions would close all or portions of many 
existing and legal mountain bike trails and/or motorized routes. These 
impacts include, but are not limited to, 10W12, 10W13, 10W36, 10W36, 
10W47, National Recreational Trail, 24N21, and the Leech Lake Mountain 
Road. The routes that are cherry-stemmed or quasi-cherry-stemmed 
include, but are not limited to, M1, M2, M21, 9W36, 23N34, 24N21, 
25N11, 25N16E, 25N18, 25N34, 28N23, Forest Road 35, and Forest Road 45. 
This proposal would negatively impact existing multiple-use recreation 
facilities that compliment the existing Wilderness area. BRC believes 
this plan would affect the agency's ability to actively manage the area 
for forest health and fire prevention.
    Mad River Buttes Wilderness Addition--This 5,740 acre proposal 
would close one of the only legal semi-primitive OHV trails in the Six 
Rivers National Forest. 4E26 is also known as the Bug Creek Trail and 
is one of my personal favorites on the Six Rivers National Forest. It 
is being successfully managed for both OHVs and mountain bikes under 
existing statutes, codes, and regulations including direction from the 
1995 Six Rivers National Forest Land and Resource Management Plan. 
Roads cherry-stemmed or quasi-cherry-stemmed include, but are not 
limited to, Route 1, 3N05, and 4N38. BRC does not believe it is in the 
public's best interest for Congress to withdraw this area from 
multiple-use recreation and resource management. BRC does not believe 
this area qualifies for federal Wilderness.
    Siskiyou Wilderness Area Additions--This proposal consists of 
33,750 acres in Del Norte County and 8,440 acres in Humboldt County. 
The access disaster story of the Gasquet-Orleans Road (G-O Road) is one 
of the best examples of why cherry-stemmed roads can be eventually 
closed. The G-O road was cherry-stemmed in the California Wilderness 
Act of 1984 because it provided an important access route for trade, 
commerce, and Forest Service administrative activities between the 
coast and the inland valleys. However, because cherry-stemmed routes 
often cause management problems or impact ``Wilderness values'' this 
road was closed to motorized and mechanized use in the early 1990s 
despite promises--similar to the buffer exclusion clauses in this 
bill--in the 1984 Act. The segments of the following mountain bike 
trails that appear to be impacted include, but are not limited to, 
3E01, 4E09, 5E06, S. Kelsey Trail, and the trail near Norcross 
Campground. Short logging spur roads may be impacted by this bill as 
well. Roads cherry-stemmed or quasi-cherry-stemmed include, but are not 
limited to, G-O Road, 12N11, 13N01, 13N02, 13N34, 13N44, 13N44D, 14N01, 
14N02, 14N06, 14N39, 15N01, 15N17, 15N17Y, 15N19, 15N27, 15N34, 15N35, 
15N36, 16N02, 16N28, 17N11, 17N32, and 18N07. BRC believes these 
additions do not meet the guidelines for federal Wilderness.
    Mount Lassic Wilderness Addition--This proposal would add an 
additional 7,100 acres of Wilderness to the Six Rivers National Forest. 
This area already has special protection afforded it by virtue of its 
designation as a botanical area. BRC is concerned that an important 
segment of 1S07 also known as the California Backcountry Motorized 
Trail will be quasi-cherry-stemmed and placed at risk for future 
closure. 2S08C appears to be quasi-cherry-stemmed as well. Several 
hunting spur roads also appear to be at risk for closure. BRC feels 
this area should remain in its current status as a botanical area.
    Trinity Alps Wilderness Additions--This proposal would add an 
additional 26,510 acres of Wilderness to the Six Rivers National 
Forest. It appears this plan would close segments of the following 
mountain bike opportunities, Horse Ridge Trail, 6E14, 6E15, 6E18, and 
6E31 in the Six Rivers National Forest or adjacent Forests. Numerous 
legal logging spur roads would be closed to motorized hunting access. 
The cherry-stemmed or quasi-cherry-stemmed routes include, but are not 
limited to, 5N04, 5N05, 5N15, 5N18, 5N33, 7N09, 7N15, 7N26, 7N53, 9N03, 
9N26, 9N31, 10N01, 10N02, 1ON01C, 10N03, 1ON03B, and the Lubbs Trail. 
BRC feels the areas proposed are in conflict with the original intent 
of the Wilderness Act of 1964.
    Underwood Wilderness Addition--This proposal would add an 
additional 3,500 acres to the Wilderness System. I recently toured this 
area with Scott Sinclair, a former OHV recreation manager for the Six 
Rivers National Forest. BRC found numerous spur roads that would be 
closed as well as 5N27D. An important mountain bike trail--5E23--would 
be closed to cyclists. We also found a number of ongoing forest health 
projects including the construction of ``truck roads'' to address 
active timber and wildfire management in the ``Wilderness'' portion of 
this proposal. Roads cherry-stemmed or quasi-cherry-stemmed includes, 
but are not limited to, 4N09, 4N29, 4N34, 5N08, 5N27, and 5N40. Too 
many important hunting and dispersed recreational opportunities would 
be closed by this plan. Also, much needed and apparently ongoing active 
management programs would be halted. BRC believes this unit should 
remain open for responsible multiple-use activities.
    Cache Creek Wilderness Area--This proposal would add an additional 
38,960 acres of Wilderness to the Ukiah Field Office of the BLM. This 
area is constantly at risk for catastrophic wildfire. It is close to 
the San Francisco Bay area and is used by mountain bikers, equestrians, 
hikers, and outdoorsmen. Numerous MTB trails would be closed by this 
plan. They include the Judge Davis Trail, Redbud Trail, and the Perkins 
Creek Trail.
    Also, the western boundary is adjacent to the county landfill. This 
proposal would install a Wilderness trailhead that overlooks people 
dumping garbage at the county site. Also, this area contains a vast 
network of private and government roads that should disqualify it from 
Wilderness designation. A Wilderness designation would prohibit the 
active fire management that this unit so desperately needs. Its close 
proximity to the residents of the Clear Lake area is another strike 
against this proposal. BRC suggests Congress leave this unit in its 
current status.
    Blue Ridge Wilderness Area--This proposal would add 760 acres to 
the Ukiah Field Office of the BLM. This area contains at least one 
mountain bike trail. It is also too small to be considered for 
Wilderness and should remain in its current land management status.
    Cedar Roughs Proposed Wilderness Area--This proposal would add 
5,880 acres to the Ukiah Field Office of the BLM. This plan would 
remove the agency's option for active management to reduce the prospect 
of a catastrophic wildfire and its potential impacts to adjacent 
landowners in the Lake Berryessa area. This unit is also in relatively 
close proximity to the Los Posadas State Forest and Pacific Union 
College.
    King Range Wilderness Area--This proposal would add 41,614 acres to 
the Arcata Field Office of the BLM. Contrary to statement made by 
Congressman Thompson's staff, this proposal as mapped on Senator 
Boxer's website would close significant portions of the Smith-Etter 
Road and other access roads to various trail heads on the front range. 
It would also close over 20 miles of the Lost Coast Trail to mountain 
bikes. Other mountain bike trails would be closed as well. A recent 
fire in the King Range illustrated that this unit requires more active 
resource management, not less. The 1865 Official Township Map of 
Humboldt County shows that the Lost Coast Trail was indeed an important 
north-south coastal ``highway'' at the time because of steep inland 
terrain. BRC has long contended that the BLM is already managing this 
area as de facto Wilderness based on the agency's ongoing road and 
trail closure program. Designating this area as federal Wilderness 
would be redundant and is unnecessary because it is already a National 
Conservation Area. It would also prohibit the active fire management 
prescriptions that are needed to protect private inholding within and 
adjacent to the King Range.
    South Fork Eel Wilderness Area--These additions would add 14,000 
acres to the Arcata Field Office of the BLM. Rather than designating 
these areas as Wilderness, Congress should look at the lack of public 
access to these federal lands. In fact, as I was preparing to do a 
field review of the Elkhorn segment of the proposal, I was rudely 
greeted with a NO TRESSPASSING sign placed near the only access point 
off of State Highway 271. As a native of this region, I was surprised 
the BLM even had this land in their jurisdiction. It appears these 
lands are purposefully land-locked and are the playground for private 
interests. BRC does not understand how a Wilderness designation will 
enhance public access to these units when they are currently closed and 
apparently jealously guarded by non-governmental parties. Also, these 
lands need intensive active fire and forest health management 
prescriptions. Ripping roads in the Elkhorn segment and prohibiting 
forest management unit-wide is unwise and could threaten nearby 
residents in Cummings and Legget. The Cahto Unit near Laytonville has 
numerous roads, trails, and various radio or cell tower installations. 
Although important to the communication needs of the local community, 
the visual impact of these manmade structures makes this area 
unsuitable for federal Wilderness. Also, the access needs for radio and 
telecommunication professionals would be affected by this plan. BRC 
recommends this unit remain in the current management strategy.
    Black Butte Wild and Scenic River Designation--This would add 21 
miles of Wild and Scenic River to the Mendocino National Forest. BRC 
could not find a map of this proposal on Senator Boxer's website. 
However, BRC endeavored to review this proposal using existing Forest 
Maps and have determined that some or all of the following roads could 
be closed to motorized use and they include but are not limited to, 
21N41, 22N29, 22N31, 22N32, 22N36, and 22N38. BRC recommends that most 
if not all of this proposal remain in current management strategy.
    In conclusion, BRC feels that S. 738 fails to provide the public 
with adequately detailed maps upon which to make a judgment on the 
worthiness of the legislation. Based on the available information and 
field reviews, BRC suggests that most, if not all, of said lands remain 
in current management prescriptions. In fact, BRC suggests that active 
forest health and fire management treatments be accelerated. Over 90% 
of forest recreation and access is vehicle based with driving for 
pleasure being listed as the number one recreational activity. Most 
forest recreation occurs within 1/4 mile of a vehicle. It is said that 
only 3% or less of forest recreation is Wilderness based. At a time 
when the public is demanding more managed recreational use of federal 
lands, BRC feels that Congress should work to provide more vehicle or 
mechanized opportunities and the resources to better care for our 
timber stands and grasslands.
    Should Congress feel that any part of S. 738 needs additional 
protection, BRC strongly suggests that it review our Backcountry 
Designation. Congress should consider establishing a new land 
designation that provides the protection the public demands for these 
lands while at the same time providing the managing agencies the 
necessary management flexibility to respond to recreational demands and 
address critical concerns of forest health, fire prevention and 
wildlife habitat enhancement.
    These lands provide a very valuable resource for recreational 
activities that allow people to experience and enjoy natural appearing 
landscapes. They provide opportunities for people to escape from the 
pressures of the everyday world. This can include a wide range of 
recreational activities including hunting, fishing, snowmobiling, 
hiking, off-highway motorcycling, horseback riding, ATV use, bicycling 
or use of 4-wheel drive vehicles. At the same time, many of these lands 
are threatened by insect and disease epidemics and by catastrophic 
wildfires that could destroy the very values that the public wants to 
see preserved. Therefore, it is essential that this land designation 
also allow the managing agencies the ability to apply a minimum level 
of management to deal with these threats.

    Senator Craig. Well, thank you very much for that 
testimony.
    Art, I do very much appreciate your testimony. There are a 
number of people who believe this legislation is not needed. I 
think you heard Senator Bingaman question how it righted 
itself, if you will, with other corps concepts because I think 
they are concerned that the Healthy Forest Corps is either 
redundant or might consume all of the funding currently 
proposed for the Public Land Corps and Youth Conservation 
Corps. Could you spend just a minute or so to help us 
understand why this bill, S. 2253, is different from the 
existing authorizations and why it might be needed?
    Mr. Pope. I would be happy to try and respond to that 
question. It is not an area I have got a lot of expertise in at 
this point and I might need to request the opportunity to 
provide clarification to you later.
    But in the corps world, we are always as a nonprofit trying 
to find ways to piece together funding sources. This is another 
opportunity that allows us to partner with Federal agencies and 
bring our resources to bear for some of the projects that they 
are trying to complete. There are a number of ways that this 
would provide us the opportunity to continue to work with those 
agencies and expand the services we can provide.
    In terms of the exact differences in the legislation, I 
would like to be able to get back to you on that.
    Senator Craig. Okay. Thank you very much, Art. I do 
appreciate that. I think it is important. Sometimes we do get 
redundant around here and sometimes we maybe ought to adjust 
what we have to make it work better if it is not functioning 
properly. I think all of us share the example and the values 
you gave as it relates to the corps and corps activities and 
the kind of work that can be effectively done on public lands 
with the use of this talent. So I do thank you for it.
    John, let me again thank you. I know that you have heard 
all of the testimony here today given on S. 738 and the other 
bills, and I know that you and many others in northern 
California have worked hard to get this legislation to where it 
is. How would you portray the involvement of the mountain bike 
community when it comes to this bill, and were they involved 
and are they supporters?
    Mr. Woolley. Thank you, Mr. Chairman. If I could speak to 
this, I would like to lend my support as well, if I could take 
the liberty, for the conservation efforts. I just finished last 
week voting on an effort we pushed through to blend the 
Conservation Corps with fire suppression activities through our 
work force investment programs as we did not have the funds. 
But we were able to find through fire suppression moneys 
through H.R. 2389 funds for helping with the Conservation Corps 
and they were right on the spot. I want to tell you without our 
corps, we would be lost in Humboldt County.
    But as to your question, I think that what I observed is 
both the work in the community for the 4 years that the 
advocates for the bill brought forward, and I also had 
testimony, if you will, brought to me individually by both 
mountain bike individuals as well as individuals that own bike 
stores in our area who are really well aware of the proposal 
sites and see that those are gems, something that they believe 
is something worth protecting. We believe that that is the case 
and that the mountain bike community is not all one voice, but 
we do recognize there is some more concern and we are willing 
to work with that, but right at this point I believe our 
community understands that these are the sites, the wilderness 
sites, that need protection.
    Senator Craig. I see that many of the supporters of the 
King Range Wilderness make the point that this is the largest 
undeveloped section of the coast on the west coast outside of 
Alaska. I also see that it is roaded and that it is managed by 
the BLM. So I am a bit confused. If they are managing most of 
the area as a de facto wilderness, why does it need this 
designated protection?
    Mr. Woolley. Well, I think it has been kind of a football 
as far as wondering who is going to control what, and I think 
that the key to aspects to wilderness is it is a legacy 
program. I think by designating that land base--41,000 acres, 
as you know, is quite large for a rural area, and the coastal 
grounds that it is in is very steep and rugged. I think it just 
makes sense for us to legislatively protect that for the legacy 
purposes. The concerns that we have brought to the table I 
think have been addressed.
    And I want to thank the administration for being on board 
with recognizing those purposes as well.
    Senator Craig. Thank you.
    My last question of you, John. What about the private 
properties that currently have road access and have 
historically had road access? Do you have specific language 
that you would recommend to ensure these private landowners can 
continue to gain access to their lands?
    Mr. Woolley. Personally I do not have language, but I 
believe it is the case where inholding lands, in particular, 
private roads that are in place now, will be protected by this 
bill.
    Senator Craig. Well, I think that is the intent, and we are 
certainly going to look at that very closely because obviously 
we do not want private landowners denied that right of access.
    Mr. Woolley. We agree.
    Senator Craig. Don, again, thank you for being with us. 
Having read your testimony concerning recreational opportunity 
spectrum, I am wondering if it is your contention that no 
wilderness should come within 3 miles of a road.
    Mr. Amador. Well, that is just a general recommendation. I 
think sometimes, depending on topographic contours, you might 
even go down to 1 mile. I know some people talk about a 1 to 3 
mile buffer, and that is something we would be willing to look 
at.
    But if you look at this new legislation, you will see that 
existing mechanized and motorized roads are being used as 
boundaries for most of these proposals. As you know, in the 
West particularly during hunting season, these roads and 
dispersed camp sites, logging roads are still being maintained 
by the Forest Service. It is literally a parking lot at the 
opening of hunting season. I just do not want to see that sort 
of access go by the wayside, and I do not think Supervisor 
Woolley does either.
    Senator Craig. Given your testimony on a number of 
California examples where roads have been cherry-stemmed out of 
wildernesses, only to have the land management agencies 
subsequently close the road because the road use was not 
compatible with wilderness values, we have always thought that 
that was a way around particular problems. We are finding out 
not necessarily so.
    I am wondering if your organization could provide us with 
some detail where this has happened in western States, once 
cherry-stemmed, then closed.
    Mr. Amador. Yes, I would be glad to provide the committee 
with that information.
    Senator Craig. Thank you.
    I guess my last question of you, Don, would be if we 
cherry-stemmed these roads out of the wilderness and include 
express language that agencies must maintain access to these 
roads, are there any of these proposed areas that you would 
support?
    Mr. Amador. Again, I would have to go back and look at 
these proposals because, again, many of them have legal and 
maintained roads and trails in them, and I think we would just 
have to review those. I would be glad to supply the committee 
with that information.
    Senator Craig. Well, gentlemen, thank you very much for 
your time with us today. I do appreciate it. I know that my 
colleagues from California have worked hard to try to resolve 
this issue and we will see what we can do to make it happen 
where it fits.
    I want to remind everyone that we will hold the hearing 
record open for 10 days, so anyone who wants to submit 
additional testimony may do that.
    Additionally, I have a number of opening statements from 
Senators Domenici, Clinton, and Puerto Rico's Residential 
Commissioner Acevedo-Vila that we will enter into the record.
    [The prepared statements of Senator Domenici, Senator 
Clinton, and Mr. Acevedo-Vila follow:]

             Prepared Statement of Hon. Pete V. Domenici, 
                      U.S. Senator From New Mexico

    I want to thank Senator Craig for holding this hearing on the seven 
bills listed in the hearing notice and ask that my statement be 
included in the record of this hearing.
    I am a cosponsor on two of the bills to be considered today. I want 
to take just a moment to speak to each of them, and to thank Senators 
Bingaman and Feinstein for introducing these two bills.
    First, I want to speak to S. 2253--The Healthy Forest Public Land 
Corps Act of 2004 which I am honored to co-sponsor with Senator Diane 
Feinstein.
    As many of you know this legislation was included in the Healthy 
Forest Restoration Act of 2003 that was passed by the Senate last year. 
However, along with many of the provisions in the latter sections of 
H.R. 1904, it was stripped in conference.
    I know that some believe that the Healthy Forest Public Land Corps 
may be redundant and not needed, but I believe that the Healthy Forest 
Public Land Corps called for in S. 2253 encourages more effort by 
young, economically disadvantaged youth, rather than replacing the good 
works that the existing Public Land Corps provides.
    Both the Bush Administration and a number of Democrats in addition 
to my co-sponsor, Senator Feinstein, support a healthy forest public 
land corps. The Bush Administration supported the provisions in the 
Senate passed H.R. 1904. Senators Kerry and Edwards have called for an 
expanded Public Land Corps to work on the healthy forest situation. 
Given this bi-partisan support, I have to believe that S. 2253 will 
enjoy overwhelming political support.
    I would hope that all members of this Committee would work with 
Senator Feinstein and me to improve this bill. It will provide 
meaningful work for disadvantaged youth while improving our federal 
forests.
    The second bill is one introduced by Senator Jeff Bingaman that I 
am also honored to co-sponsor. This bill is one that we marked up in 
the 106th Congress. S. 2622, the Pecos National Historic Park Land 
Exchange, would authorize a land exchange between a private landowner, 
the Pecos Historic Park, and the Forest Service.
    The Glorieta Unit of the Park, where this exchange is focused, 
protects key sites associated with the 1862 Civil War Battle of 
Glorieta Pass, a significant event that ended Confederate attempts to 
expand the war into the west.
    More than half of the land in the unit is privately owned, making 
public access, preservation of resources, and cooperation with private 
property owners very difficult.
    Again, I hope that all Committee members will work with Senator 
Bingaman and me to get this important legislation signed into law.
    I look forward to the testimony of our witnesses in support of 
these two bills.
                                 ______
                                 
          Prepared Statement of Hon. Hillary Rodham Clinton, 
                       U.S. Senator From New York

    Mr. Chairman, I want to thank you holding this hearing today, and 
for the opportunity to testify regarding the Caribbean National Forest 
Act of 2004, a bill I introduced earlier this year along with Senator 
Schumer.
    The Caribbean National Forest Act designates approximately 10,000 
acres of the Caribbean National Forest as the ``El Toro Wilderness.'' 
The El Toro Wilderness would be the only tropical forest wilderness in 
the U.S. National Forest system.
    The Caribbean National Forest has long been recognized as a special 
area, worthy of protection. The Spanish Crown proclaimed much of the 
current Caribbean National Forest as a forest reserve in 1824. One 
hundred years ago, President Theodore Roosevelt reasserted the 
protection of the Caribbean National Forest by designating the area as 
a forest reserve.
    Located 25 miles east of San Juan, the Caribbean National Forest is 
a biologically diverse area. Although it is the smallest forest in the 
national forest system, the Caribbean National Forest ranks number one 
in the number of species of native trees with 240. It contains 50 
varieties of orchids and over 150 species of ferns. It is also home to 
over 100 species of vertebrates, including the endangered Puerto Rican 
parrot. This is the only native parrot in Puerto Rico. Although they 
numbered nearly one million at the time that Columbus set sail for the 
New World. Today there are fewer than 35 of these parrots. The Forest 
Service, the U.S. Fish and Wildlife Service and Puerto Rico's 
Department of Natural Resources and the Environment have initiated a 
recovery program for the Puerto Rican Parrot. Wilderness designation 
will ensure that the forest home to the parrot will remain protected 
and the ongoing recovery efforts, consistent with the Wilderness Act, 
will continue.
    The Caribbean National Forest also provides valuable water to the 
people of Puerto Rico. Its major watersheds in provide water to over 
800,000 Puerto Ricans. In addition, the forest provides a variety of 
recreational opportunities to over 700,000 Puerto Ricans and tourists 
each year. Families, friends and school groups come to the forest to 
hike, bird watch, picnic, swim and enjoy the scenic vistas.
    Wilderness designation of the El Toro would protect approximately 
one third of the forest. A companion House bill, H.R. 1723, has been 
introduced by Puerto Rico's Resident Commissioner, Anibel Acevedo-Vila. 
The bill is supported by the Wilderness Society, Sierra Club, National 
Wildlife Federation, and the National Hispanic Coalition Council.
    I thank you for the opportunity to testify, and I urge the 
committee to move this important legislation when the Senate returns to 
session in September.
                                 ______
                                 
            Prepared Statement of Hon. Anibal Acevedo-Vila, 
                   Resident Commissioner, Puerto Rico

    I would like to thank Chairman Pete Domenici, ranking member Jeff 
Bingaman, Chairman Larry Craig, ranking member Ron Wyden, and members 
of the Subcommittee on Public Lands and Forests. I greatly appreciate 
you holding this hearing on the Caribbean National Forest Wilderness 
Act of 2003, S. 2334, which will designate the El Toro Wilderness Area 
in the Caribbean National Forest in Puerto Rico. As you know, I 
introduced a companion measure in the House last year, H.R. 1723. I 
would also like to thank Senator Hillary Clinton for her strong 
leadership in introducing this measure in the Senate, and for Senator 
Charles Schumer for cosponsoring this measure.
    I would also like to recognize the U.S. Forest Service who is 
testifying today. I have enjoyed working with the Forest Service on 
this and other issues, and I especially appreciate the agency's strong 
endorsement of the companion bill during a hearing on this legislation 
nearly a year ago, on July 23, 2003, in a House Forests and Forest 
Health Subcommittee hearing.
    The legislation introduced by Senators Clinton and Schumer, and 
myself would designate approximately 10,000 acres of the Caribbean 
National Forest as the El Toro Wilderness Area, named for El Toro peak, 
the highest peak in El Yunque. The House bill has broad support, 
including 25 cosponsors, and was actually passed by the other body 
during the 107th Congress, though the Senate did not take it up at that 
time.
    As some of you may know, the Caribbean National Forest, the only 
tropical rainforest in the national forest system, celebrated its 100th 
anniversary last year. In 1876, twenty-seven years before its 1903-
federal designation by President Theodore Roosevelt, Spain's King 
Alfonso XII proclaimed this forest a Crown Reserve, making this forest, 
know locally as El Yunque, one of the first forest reserves in the 
western hemisphere.
    Due to the topography of El Yunque, unsuitable forest composition 
for timber, and conservation by the Forest Service, El Yunque, and to a 
greater degree the lands to be designated as wilderness in this bill, 
maintains the characteristics it had over 100 years ago. El Yunque 
contains virtually all of the primary forest remaining in Puerto Rico, 
and as such represents a unique cultural and natural heritage for 
Puerto Ricans. The Wilderness Act was passed to protect just these 
types of lands--where the forest has been affected primarily by the 
forces of nature, with the imprint of man's work substantially 
unnoticeable. Therefore, I believe that wilderness protection is 
appropriate and in line with the history of these lands and the value 
they contribute to Puerto Rico.
    However, these beliefs are not solely mine. As the population 
density in Puerto Rico is among the highest in the nation, large, 
undeveloped tracts of land are increasingly rare, while their value to 
the public has grown significantly. When the Forest Service revised the 
management plan for El Yunque beginning in 1995, the public widely 
supported wilderness designations on the forest. Many public comments 
were received in support of expanding the wilderness study area that 
was in the previous land and resource management plan, and in support 
of wilderness designation for this study area.
    Public support for wilderness led the forest plan to nearly double 
the wilderness recommendation from 5,254 acres to what is included in 
this bill, over 10,000 acres. However, I feel that it is important to 
note that an alternative considered during revision of the management 
plan would have provided for over 16,000 acres of wilderness, a 
proposal 63 percent larger than that which is being considered today. 
What this legislation proposes to designate as wilderness is identical 
to that recommendation in the Caribbean National Forest's revised land 
and resource management plan, and would create the first wilderness 
area in El Yunque. It should also be noted that there are no competing 
interests, such as timber harvests, road construction, or water 
development, in the lands to be designated as wilderness. This 
legislation also has the support of the Commonwealth's Governor, Sila 
M. Calderon, as well as numerous environmental organizations.
    The El Toro Wilderness Area to be designated through this bill is 
also essential habitat for the Puerto Rican parrot. One of the ten-most 
endangered birds in the world and a federally listed endangered 
species, the parrot requires large, undeveloped tracts of land for its 
survival. It is for this reason that the only remaining wild population 
of this bird, currently about 36 birds, is confined to El Yunque. 
Activities necessary for the conservation and recovery of this species 
would not be hindered by wilderness designation. In addition to the 
Puerto Rican parrot, no fewer than eight other threatened and 
endangered species call El Yunque home. Many other species are endemic 
only to El Yunque, and the forest also provides respite to dozens of 
migratory bird species. Protecting the El Toro area as wilderness will 
ensure that the habitat of these species remains undeveloped and well 
suited for their survival.
    Additionally, El Yunque, though one of the smallest forest system 
components, contains a striking array of plant biodiversity. The forest 
contains over 240 species of native trees, including some trees that 
are only found in the Forest, and also includes 50 species of native 
orchids and over 150 species of ferns.
    Water conservation is another important value of El Yunque. The 
forest is comprised of 8 major watersheds that provide water for nearly 
800,000 Puerto Ricans. Weather events in El Yunque often lead to 
mudslides, impacting water quality. Through wilderness protection, much 
of this forest will be protected from road development that could 
accelerate this type of erosion and water impairment. Further, 
recognizing the need for development outside the wilderness and to 
avoid user conflicts, the map of this wilderness area is drawn to 
exclude municipal water impoundments and is set back from a road right-
of-way.
    The El Toro area currently has a network of trails that permit an 
array of recreational opportunities that will continue under wilderness 
designation. Almost one million tourists a year currently visit and use 
El Yunque. Local residents and tourists alike hike, swim, climb El Toro 
peak, bird watch and otherwise take advantage of the wild nature of the 
proposed wilderness area.
    I believe that the characteristics and values of the proposed El 
Toro Wilderness Area are very much in concert with the intent and 
purpose of the Wilderness Act. Solitude, the absence of the imprint of 
man, and nationally unique ecological and biological features comprise 
El Yunque and the proposed wilderness area. On the 40th anniversary of 
the Wilderness Act, I believe it would be fitting that the first 
tropical forest in the wilderness preservation system, and the first 
wilderness designation in El Yunque be the El Toro Wilderness Area, as 
it encompasses the natural qualities of this forest, and should be 
protected in that nature for perpetuity.
    Again, I very much appreciate the Chairman's scheduling of this 
hearing. I appreciate the support for this bill that my colleagues in 
both the House and Senate have provided, and I encourage the support of 
this subcommittee, and the full Energy and Natural Resources Committee, 
in considering and approving this bill.

    Senator Craig. And finally, we will enter into the record 
the letters and statements we have received from Oregon State 
Senator Penny Lind and the Off-road Business Association, 
American Rivers, and the Sierra Club.
    Again, thank you all very much for attending.
    The committee will stand adjourned.
    [Whereupon, at 3:55 p.m., the hearing was adjourned.]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

                        Department of the Interior,
           Office of Congressional and Legislative Affairs,
                                 Washington, DC, September 8, 2004.
Hon. Larry E. Craig,
Chairman, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, Washington, DC.
    Dear Mr. Chairman: Enclosed are responses prepared by the Bureau of 
Land Management to questions submitted following the July 21, 2004, 
hearing on S. 738, the Northern California Coastal Wild Heritage 
Wilderness Act.
    Thank you for the opportunity to provide this material to the 
Subcommittee.
            Sincerely,
                                             Jane M. Lyder,
                                               Legislative Counsel.
[Enclosure.]
                   Questions From Senator Larry Craig

    S. 738--NORTHERN CALIFORNIA COASTAL WILD HERITAGE WILDERNESS ACT

    Question 1. I am concerned about the bridges and culverts and other 
drainage structures that will be abandoned within the proposed 
Wilderness areas.
    Could you provide this Subcommittee with a detailed inventory of 
the bridges, culverts and other drainage structures that fall within 
all of the wilderness, and wild and scenic river proposals being made 
today?
    Answer. The following is a list (area by area) of known roads and 
associated structures that would be closed to the public under the 
legislation (although any private access to inholdings would be 
continued).

Proposed Yolla-Bolly Middle-Eel Wilderness
    Big Butte Road, 0.6 miles long, no culverts or other drainage 
structures. This road provides access to private inholdings within the 
existing Yolla-Bolly Middle-Eel Wilderness through lease authorizations 
and could continue to provide access to the private inholdings after 
wilderness designation.

Proposed King Range Wilderness
    Smith-Etter Road, 4 miles long, 6 culverts. This road is currently 
closed to the public. The road provides access to private inholdings 
and would continue to provide access to private inholdings after 
wilderness designation.

Proposed Cache Creek Wilderness
    New Cacheville Road, 1.5 miles long, no culverts or other drainage 
structures. This road provides access to undeveloped private land with 
frontage on Cache Creek and could continue to provide access to the 
private inholdings after wilderness designation. Road is passable by 
four-wheel drive vehicle.
    Question 2. Please provide estimates of the cost of removal of each 
structure.
    Answer. The BLM does not anticipate removal of any of the access 
routes or associated structures.
    Question 3. S. 738 includes language to provide a 600 foot buffer 
strip to be managed around each parcel of private property within the 
wilderness proposals.
    Could you supply this Committee with maps of the non-federal lands 
within the proposed wildernesses, and an assessment of the cost of 
providing the 600 feet of buffer strips on the adjoining federal land?
    Answer. A map that responds to this request is being prepared and 
will be forwarded to the Committee as soon as it is available.
    Section 102(d)(4) of S. 738 directs that the boundaries of three of 
the wilderness areas in the bill be adjusted or set back by 600 feet to 
allow and encourage mechanical fire suppression activities. These areas 
are: Snow Mountain Wilderness (managed by the Forest Service), Yolla 
Bolly-Middle Eel Wilderness (managed by the Forest Service), and Cache 
Creek Wilderness (managed by the BLM).
    The BLM adjusted the external boundary of the Cache Creek 
Wilderness on the maps we are providing under question #11 to exclude 
the 600-foot setback from the wilderness. The boundaries on the maps 
will show that the 600-foot setback, which may need extensive fuels 
treatment, will be located outside the wilderness. Thus, the fuels 
treatments can occur in the future without any wilderness-related 
restrictions. Accordingly, the language in section 102(d)(4) for Cache 
Creek is no longer necessary.
    Question 4. Please also provide the approximate annual cost of 
maintaining these fire breaks once they have been cleared? And a 
description of your assessment of whether or not power tools would be 
allowed in the buffer area under the Wilderness Act?
    Answer. The BLM has not completed such an evaluation and does not 
have an estimate on cost. However, the designation of wilderness should 
have no impact on future decisions about fuels treatments or on the 
cost of any such treatments. Because this area is outside the 
wilderness, the Wilderness Act would not be a consideration in whether 
or not power tools would be allowed on these lands.
    Question 5. S. 738 includes a number of specific authorizations to 
ear-mark funding for economic development, fire fighting, and 
recreation improvements within these wildernesses. Do you believe we 
should be authorizing such ear-marks? What impact will they have on 
your agency's ability to manage other Wilderness areas?
    Answer. We note that there are a number of authorizations within 
the bill. It would be difficult to estimate the effect of these 
authorizations on the BLM's ability to manage wilderness until Congress 
makes a determination as to appropriation levels for each of these 
authorizations. However, we support funding as proposed in the 
President's Budget. The Department does not support the addition of 
funds for other programs or projects that would result in program goals 
not being achieved.
    Question 6. Can you give us some insight on utilizing roads as the 
boundaries of wilderness areas? Does using roads as wilderness boundary 
lead to inevitable conflicts that result in those roads being closed at 
a later time?
    Answer. Many BLM wilderness boundaries are along roads. In many 
cases roads are ideal boundaries for wilderness because they are semi-
permanent physical features that are easy to locate on the ground. The 
BLM's wilderness policy recommends wilderness boundaries be set back 
300 feet from high standard roads such as paved roads, 100 feet from 
high standard logging roads, and 30 feet from jeep roads or low 
standard logging roads.
    Question 7. Mr. Amador testified today that a number of roads that 
have been cherry-stemmed out of wilderness have later been closed 
because local land managers have concluded that the recreation use is 
not compatible with the surrounding wilderness area. What is the. 
agencies policy on this?
    Answer. The BLM does not have a specific written policy on this 
topic. However, the BLM recognizes that only Congress has the authority 
to designate wilderness and determine wilderness boundaries. The BLM 
has no authority to change the boundary of a wilderness. There have 
been very limited occasions where a wilderness boundary road or cherry-
stemmed road has been closed after wilderness designation. In these 
limited cases, the closure is not due to the wilderness designation, 
but for other resource reasons, such as natural disasters. We are not 
aware of any wilderness boundary roads that have been closed on BLM-
managed lands in order to protect the wilderness resource.
    Question 8. Please provide the Committee with a detailed list of 
roads that have been closed in areas that were cherry-stemmed out of 
wilderness by Congress. The list should include the name of the 
wilderness and the BLM District that the road and wilderness are 
located in. We would like a national inventory of this situation.
    Answer. The BLM manages 161 wilderness areas with 6.5 million acres 
in 10 states. In response to our inquiry to each state office in which 
BLM manages wilderness, we were able to find a total of 21 closures of 
cherry-stemmed roads. The reasons for road closures include: closure by 
private landowners, closure prior to wilderness designation, seasonal 
closures, management plan closures, closures through natural 
reclamation including landslides and storms. Below is a state by state 
list.

                                ARIZONA

    Paria Canyon-Vermilion Cliffs Wilderness, Vermilion Cliffs National 
Monument and Kanab Field Office. Numerous segments of boundary routes 
are not closed, but are in the process of natural reclamation, due to 
infrequent use.
    Paiute Wilderness, Arizona Strip Field Office. The corridor road 
through the wilderness is closed from about December 1 to April 1 
annually to reduce damage to the roadbed during winter/spring wet 
conditions. From April 1 to December 1, the road is open to all uses.
    Grand Wash Cliffs Wilderness, Grand Canyon-Parashant National 
Monument. The north to south primitive road through the wilderness was 
designated to be used by the livestock grazing permittee and closed to 
the public since enactment of the Arizona Wilderness Act of 1984.
    Kanab Creek Wilderness, Arizona Strip Field Office. The main access 
road to the Hack Canyon trailhead is closed intermittently by large 
storms. Access is encumbered or blocked following these natural events, 
sometimes for months.
    Mt. Logan Wilderness, Grand Canyon-Parashant National Monument. 
Several small segments of boundary routes are not closed, but have 
already been naturally reclaimed due to infrequent use. Over time, 
vegetation has grown in along the route, blocking it. The open corridor 
road through the wilderness is closed intermittently by large storms 
and infrequent maintenance.
    Beaver Dam Mountains Wilderness, Arizona Strip Field Office. In the 
past few years, the road corridor Congress provided through the 
wilderness has been blocked by chain link fencing with gates locked by 
the mining claimant/landowner. His claims and land straddle the 
corridor and public use of the road has been effectively blocked. In 
more recent years, the gates have variously been open, locked, and torn 
down.
    North Maricopa Mountains Wilderness, Phoenix Field Office. 
Approximately \1/2\ mile of East Margie's Cove Road and \3/4\ mile of 
West Margie's Cove Road were closed through a Management Plan decision 
to establish a trailhead in a manageable location in order to provide a 
staging area for cars, hikers and equestrians, and camping at a 
location away from an important water source for wildlife in the 
desert. Moving these developments away from this water source 
eliminates the conflict between intensive recreation use and the needs 
of wildlife. The closed portions of the routes are available for 
Arizona Game and Fish Department use for wildlife water maintenance.
    Peloncillo Mountains Wilderness, Safford Field Office. There are 
locked gates on private land in Little Doubtful Canyon. Cochise County 
did not claim the road as a county road, which allowed the private land 
owner to lock the gate and prevent access to the cherry-stemmed road in 
Little Doubtful Canyon.
    North Santa Teresa Wilderness, Safford Field Office. The Black Rock 
Road defines the wilderness boundary for approximately one mile on the 
north side of the wilderness. At the end of that one-mile stretch, a 
locked gate on private land prevents travel across both the private 
land and the adjacent public land.
    Dos Cabezas Mountains Wilderness, Safford Field Office. The Mascot 
Canyon and Sheep Canyon roads, which are wilderness boundary roads on 
the southwest and southeast portions of the wilderness, respectively, 
are blocked by locked gates on private land (Klump property). Each 
stretch of closed boundary road is about 2 miles in length.
    Gibraltar Mountain Wilderness, Lake Havasu Field Office. Through 
land use plan decisions established prior to the Arizona Desert 
Wilderness Act of 1990, portions of two boundary roads have designated 
use limitations. The northeast boundary road has a seasonal closure 
(January 1-June 31) within the Bighorn Sheep Lambing Grounds. Also, a 
utility access route, known as the Jump-Off, is limited to 
administrative and authorized users only.
    East Cactus Plain Wilderness, Lake Havasu Field Office. Through the 
East Cactus Plain Wilderness Management Plan, the Central Arizona 
Project Aqueduct right-of-way was closed to the public. This portion of 
the right-of-way was outside of the Aqueduct fencing and bounded the 
Wilderness area. There was a faint two track road in this area at the 
time of the plan. The closure eliminated damage to soil and vegetation, 
protected the Central Arizona Project facility from unauthorized 
activities, and prevented vehicle intrusion along the wilderness 
boundary.

                                COLORADO

    Black Ridge Canyons Wilderness, Grand Junction Field Office. A 
cherry stem is closed seasonally for several months in the winter and 
early spring due to a combination of snow, mud, and wildlife issues. 
The route was closed by a management plan decision for the entire Ruby 
Canyon area several years before the wilderness was designated. The 
closure remains in effect.

                               CALIFORNIA

    Mecca Hills Wilderness/Orocopia Mountains Wilderness, California 
Desert District, Palm Springs-South Coast Field Office. Approximately 
3.8 miles of the 7.2-mile Meccacopia Trail between these wilderness 
areas is seasonally closed from June 1 through September 30. This 
allows desert bighorn sheep unimpeded access to critical water sources 
during the summer. Desert bighorn sheep are a BLM California Sensitive 
Species, a State Fully Protected Species, and a State Game Species.

                                 NEVADA

    Muddy Mountains Wilderness, Las Vegas Field Office. A \1/4\ mile 
long cherry stem was administratively closed in May 1998 when the Muddy 
Mountains was a Wilderness Study Area (WSA). Closure occurred through 
the Las Vegas Resource Management Plan to protect an area of 
prehistoric habitation and rock art. In addition, the closed segment is 
in a narrow gulch with inadequate passing space for opposing vehicles 
or for parking. In November, 2002, the Muddy Mountains Wilderness was 
designated. The Wilderness boundary followed the former WSA boundary 
and the cherry stem was carried over to the Wilderness. The route 
remains closed.
    North Jackson Mountains Wilderness, Black Rock Desert High Rock 
Canyon Emigrant Trails NCA. The first 2 miles of the 2.85 mile Deer 
Creek cherry stem is passable by four wheel drive vehicles. Beyond that 
point, the road is washed out and impassable; it has not been driven 
for over 10 years and is now indiscernible.
    North Jackson Mountains Wilderness, Black Rock Desert High Rock 
Canyon Emigrant Trails NCA. The North Fork Jackson Creek cherry stem is 
impassable and has not been used by vehicles for 10-15 years. Large 
sagebrush, cottonwoods and mountain mahogany grow in the former road 
bed.
    North Jackson Mountains Wilderness, Black Rock Desert High Rock 
Canyon Emigrant Trails NCA. The New Years Canyon cherry stem has not 
been used for several years and has naturally reclaimed itself to the 
point that it is virtually indistinguishable.
    North Jackson Mountains Wilderness, Black Rock Desert High Rock 
Canyon Emigrant Trails NCA. The Happy Creek Canyon cherry stem has no 
public access. Private lands around the cherry stem have been closed to 
the public by the landowner.

                                 OREGON

    Table Rock Wilderness, Salem District, Cascade Field Office. 1.25 
miles of the northern dead-end boundary road was closed by a massive 
land slide several years ago. Opening the road would cost $100,000 and 
would also require moving the road 0.25 miles into the existing Table 
Rock Wilderness. The road has been left closed.
    Steens Mountain Wilderness, Burns District, Andrews Field Office. 
About 16.5 miles of the Steens Loop boundary road is closed seasonally 
due to heavy snowfall. This seasonal closure predates wilderness 
designation. This seasonal closure also closes the following cherry-
stem roads that connect to the Steens Loop Road: Cold Springs Road, 
12.9 miles; Fish Creek Road, 4.5 miles; Newton Cabin Road, .59 mile; 
Kiger Overlook Road, .26 mile; Grove Creek Road, 1.09 miles.
    Question 9. Also if there are instances of efforts to re-open roads 
that have been closed by land slides or sluffing of cut-banks that were 
cherry-stemmed out of the Wilderness please provide a forest by forest 
listing of those roads.
    Answer. As noted in the response to Question 8, the main access 
road to the Hack Canyon trailhead in Kanab Creek Wilderness, is 
periodically closed due to weather and re-opened as conditions permit.
    Question 10. If efforts have been made to re-open cherry-stemmed 
roads and have been opposed and delayed or stopped by appeal or 
litigation please provide a forest by forest list of those roads.
    Answer. BLM is not aware of this situation occurring in BLM-managed 
wilderness areas.
    Question 11. We need a set of maps for all wilderness proposals in 
S. 738 that fall within lands managed by the BLM.
    For each wilderness proposed in S. 738 that includes BLM lands 
please provide a map that displays the following information:
    A. The proposed wilderness (in the bill)
    B. Any adjoining wilderness
    C. Any Wilderness Study Areas that fall within the wildernesses 
proposed in S. 738 that are within the BLM land base.
    D. All inventoried roads (from the most recent transportation 
analysis) including roads that have been or will be proposed to be 
closed, obliterated, or stored for later use.
    E. All non federal lands within the proposed wilderness (including 
road or trail access to the property).
    F. Those areas that you believe should be removed from the proposal 
to meet the BLM's management needs.
    Answer. Maps that respond to this request are being prepared and 
will be provided separately as soon as they are available. Regarding 
item F above, as stated in our testimony, we recommend that 
approximately 2200 acres (primarily in the King Range) be released from 
WSA status and the proposed Blue Ridge Wilderness not be designated as 
wilderness due to its small size. The maps will reflect these 
recommendations.
    Question 12. Section 103 on the Elk Horn wilderness directs the BLM 
to: eliminate non-native species, remove unused or decommissioned 
roads, repair skid tracks and to restore the natural ecosystem to the 
maximum extent practicable within five years after the date of 
enactment and to allow the use of motorized equipment and mechanized 
transport to accomplish the restoration. Can you give us any idea on 
whether or not all of this is possible, and what it might cost to 
accomplish?
    Answer. Yes, this is possible. The BLM has been working on similar 
types of restoration in the Headwaters Forest Reserve with great 
success. In the proposed Elkhorn Ridge Wilderness most of the areas 
have already been naturally reclaimed and little additional work is 
needed. This provision would allow BLM to complete an assessment of any 
additional restoration that is needed after designation. Because the 
BLM has not completed this assessment, we are unable to give a precise 
cost estimate at this time. However, a rough estimate appears to be 
less than $500,000.
    Question 13. Do you think it is reasonable to be expending this 
kind of money undoing multiple-use management when your agencies have 
the maintenance backlogs that they have?
    Answer. As we have noted, there is a small amount of work needed to 
reclaim the proposed Elkhorn Ridge Wilderness and the fiscal impact 
will be minimal. The actions would be designed to repair damage to the 
natural ecosystem, including recontouring slopes and removing abandoned 
vehicle trails and scars.
    Question 15. Mr. Amador mentioned that according to the Recreation 
Opportunity Spectrum (ROS), in order to have a wilderness recreation 
experience, an individual must be at least 3 miles from the nearest 
road or trail where motorized vehicles are in use. The ROS system was 
developed by the Forest Service and is used by your field folks.
    How about the DOI and BLM. Do you have a system similar to the 
Recreation Opportunity Spectrum (ROS)?
    Answer. The Recreation Opportunity Spectrum offers a conceptual 
framework for the inventory, analysis, and management of recreation 
opportunities. It classifies recreation opportunities or zones along a 
continuum of development from the pristine (Gates of the Arctic) to the 
urban (Central Park). For example, using concepts adapted from the ROS, 
the BLM's Resource Management Plan for the King Range identifies 
zones--backcountry, front country, and residential--of recreational 
opportunities.
    Question 16. Do you have conflicts with roads being the boundaries 
of a wilderness?
    Answer. No. As noted in the response to question 6, many BLM 
wilderness boundaries are along roads. In many cases roads are ideal 
boundaries for wilderness because they are semi-permanent physical 
features that are easy to locate on the ground. The BLM's wilderness 
policy recommends wilderness boundaries be set back 300 feet from high 
standard roads such as paved roads, 100 feet from high standard logging 
roads, and 30 feet from jeep roads or low standard logging roads.
    Question 17. Have you closed, or limited use on roads that were 
cherry-stemmed out of wilderness areas?
    Answer. There have been very limited occasions when a cherry-
stemmed road has been closed after wilderness designation. Examples of 
closures along wilderness boundary roads and cherry stems are listed in 
the response to question 8 above.


                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                         Department of Agriculture,
                                            Forest Service,
                                       Vancouver, WA, July 6, 2004.
Hon. Maria Cantwell,
Committee on Energy and Natural Resources, U.S. Senate, Washington, DC.

Re: Upper White Salmon River

    Dear Senator Cantwell: Thank you for allowing me the opportunity to 
speak to one of the true treasures of the Gifford Pinchot National 
Forest. The Upper White Salmon River and Cascade Creek as they flow 
through the Forest near Mt. Adams are beautiful and special places.
    Recognizing its uniqueness, our Forest Land Use Plan (1990) 
identifies the Upper White Salmon River as eligible for the National 
Wild and Scenic River System. The Plan classifies approximately 6.7 
miles of the Upper White Salmon and its tributary, Cascade Creek, from 
their headwaters on Mt. Adams to the Mt. Adams Wilderness boundary as 
potentially ``wild.'' The next approximately 11.3 miles of the White 
Salmon to the Forest boundary, and 1.5 miles of Cascade Creek from the 
Wilderness boundary to its confluence with the White Salmon River are 
identified as having potential to be classified as ``scenic'' (FEIS 
Appendix E 130). The 1997 Legislative EIS for the Upper White Salmon 
River recommended the same classifications.
    The ``outstandingly remarkable'' values to determine eligibility 
are scenic and geologic. The upper segment of the White Salmon River, 
according to the Forest Plan, contains areas of old-growth Douglas fir, 
long and narrow gorges, and a glacier on Mt. Adams that is considered 
regionally significant because of large avalanches and lahars that have 
occurred as recently as 1921. The section within the Mt. Adams 
Wilderness is accessible by trail and is ``totally without road 
development.''
    The Record of Decision for the Forest Plan recommends this river be 
protected for further study. We are currently managing this portion of 
the Upper White Salmon to maintain the outstandingly remarkable values 
and potential classifications for wild and scenic.
    Thank you again for this opportunity. If I can be of further 
assistance, please call.
            Sincerely,
                                           Claire Lavendel,
                                                 Forest Supervisor,
                                   Gifford Pinchot National Forest.
                                 ______
                                 
                                                      July 1, 2004.
Hon. Maria Cantwell,
Committee on Energy and Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Cantwell: We are local landowners, area residents, and 
individuals representing business interests. We would like you to know 
that your Upper White Salmon Wild and Scenic Rivers Act (S. 1614) is 
important in so many ways for those of us living in this rural region. 
When the legislation has been passed, our community will enjoy the 
fruits of a long period of cooperative efforts that has occurred to 
give our river the prominence and protection it deserves.
    This is a magnificent gem of a river, with waters that plunge 
through rugged canyons and provide many benefits for small towns on the 
way--organic herb and dairy farms; river rafting, kayaking, B and B 
enterprises; tourism; hiking, fishing, camping, wildflower viewing; 
sales of gas and food. These are only a few of the businesses and 
recreational activities that provide livelihoods for residents of our 
rural region.
    The economic needs and the beauty to be enjoyed have brought 
together residents of our area to support the Scenic River proposal. We 
realized a long time ago that our interests in providing sustainable 
livings and maintaining a clean, attractive river were joined. 
Therefore, in 1986, through local lobbying efforts, the lower eight 
miles of the White Salmon was designated a Scenic River within the 
Columbia River Gorge National Scenic Area legislation. At the same 
time, Congress mandated the Upper White Salmon to be studied for 
similar status. A task force, representing a wide range of interests 
concerning the future of the river, determined that it qualified for 
such designation and agreed by consensus to recommend this. The public 
also was much involved in the final decision. It wasn't until 1997, 
however, that the Secretary of Agriculture introduced it to Congress; 
and it took seven years longer, during which there was additional 
negotiation, for us to arrive at this opportune point.
    One B and B owner in Trout Lake has estimated that his business 
will increase by 20% when Wild and Scenic designation becomes a 
reality. Other business owners have said they expect the Wild and 
Scenic imprimatur to generate increased income for the entire region. 
Whitewater rafting guides tout not only the world class experience to 
be had on the White Salmon, but also the excellent water quality, and 
they lecture their rafters to protect it from degradation. All of the 
small communities along the river will benefit significantly both 
economically and environmentally by having pulled together to make this 
20-mile stretch Wild and Scenic. It has broad public support in our 
area and beyond.
    This 20 miles of river is on public land, all within the Gifford 
Pinchot National Forest. The Forest Service recommended it for 
inclusion in the Wild and Scenic Rivers system because of its free-
flowing condition and its outstandingly remarkable scenic, hydrologic, 
geologic and wildlife values.
    We believe that no river is more deserving of the designation Wild 
and Scenic than the Upper White Salmon. We are most hopeful that the 
Subcommittee of the Committee on Energy and Natural Resources will 
agree to recommend this to the entire Senate body for speedy passage.
    NOTE: Signatories' pages containing approximately 102 signatures 
have been retained in subcommittee files.
                                 ______
                                 
                       Off-Road Business Association, Inc.,
                                         Santee, CA, July 20, 2004.
Hon. Larry Craig,
Chairman, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, Washington, DC.
    Dear Chairman Craig: The purpose of this letter is to express our 
strong opposition to S. 738, the Northern Coastal Wild Heritage 
Wilderness Act sponsored by Senator Barbara Boxer (D-CA). While we 
share Senator Boxer's goal of preserving these areas for future 
generations this legislation represents nothing more than a further 
attempt by extreme environmentalists to ban the public from using 
``public'' land. We believe further generations should be able to enjoy 
these areas and not be excluded from them due to their designation as 
wilderness.
    As you know, this legislation would declare 300,000 acres in 
Northern California as wilderness, thereby closing it off to motorized 
vehicles and mountain bikes. Currently, California has a higher 
percentage of wilderness than any other of the lower 48 states. Nearly 
a decade ago 7 million acres of the Southern California desert were 
declared wilderness impacting thousands of Off Highway Vehicle (OHV) 
users. Enough is enough! We believe the time has come for balance--and 
this legislation does not help us achieve that balance. Instead it 
continues down a path of closing down the rest of the Western United 
States to OHV users. Many of the members who support this bill also 
support Congressman Shay's bill to designate millions of acres in 
Idaho, Montana, Oregon, Washington and Wyoming as wilderness. As you 
can see we all have something at stake with this designation.
    Lost in the debate about this area under consideration for 
wilderness is the fact that is does not meet the definition of the 1964 
Wilderness Act because it is not ``untrammeled by man. We simply do not 
believe Congress should pick and choose when it follows the law. The 
proponents of this bill are using the fear of logging to steal land 
away from the public. By declaring the area wilderness Congress 
prevents the vast majority of the public from being able to enjoy the 
beauty and splendor of the land--we find this unacceptable!
    ORBA is a national non-profit trade association of off-road related 
business owners who have united to preserve the sport of off-road 
recreation and to resist the efforts to eliminate off-road recreation 
under the pretense of protecting the environment. Our membership cares 
about the outdoors and about stewardship. Over the past few years, we 
have worked with interested parties to ensure that OHV users work to 
protect the environment. The economic impact of closures of public 
lands to vehicle access is having a significant affect on the Off-Road 
Recreation Industry.
    Please give serious consideration to the impact that this bill 
would have on a multi-billion dollar (and growing rapidly) industry in 
this country.
            With best regards,
                                                Roy Denner,
                                                   President & CEO.
                                 ______
                                 
                            Glorieta Battlefield Coalition,
                                                     July 21, 2004.
Hon. Pete Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.

Re: S. 2622, Pecos National Historical Park Land Exchange Act of 2004

    Dear Mr. Chairman: We are writing in support of S. 2622, the Pecos 
National Historical Park Land Exchange Act of 2004. We appreciate your 
long-standing commitment to preserving important elements of Glorieta 
Battlefield and your continuing efforts to facilitate acquisition of 
lands within the boundaries of both the Pigeon's Ranch and Canoncito 
subunits.
    The private tract of land that would be acquired under S. 2622 is 
critical for providing public access to the Canoncito unit and to the 
Park Service's interpretive planning efforts. The tract includes the 
mesa front down which Union troops descended into Canoncito on March of 
1862 in their attack on the. Confederate supply train, thereby forcing 
the Confederate Army to withdraw from the field of battle and, 
ultimately, from New Mexico Territory, preserving the Southwest for the 
Union.
    The bill will allow for the acquisition of nearly half of the 
acreage within the authorized boundary of the Canoncito subunit. An 
added benefit of this legislation is that no federal funds will be 
required for either the land acquisition or necessary compliance 
actions to effect the exchange, as we understand that any such costs 
would be borne by the private landowner, who is a willing seller.
    We strongly support S. 2622 and encourage its swift passage in the 
Senate.
            Sincerely,
                                                 Randall Rasmussen.
                                 ______
                                 
              International Mountain Bicycling Association,
                                        Boulder, CO, July 22, 2004.
Hon. Larry Craig,
Chair, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, Washington, DC.

Hon. Ron Wyden,
Ranking Member, Subcommittee on Public Lands and Forests, Committee on 
        Energy and Natural Resources, U.S. Senate, Washington, DC.
    Dear Chair Craig and Ranking Member Wyden: On behalf of the 
International Mountain Bicycling Association (IMBA), I write to offer 
comments on S. 738, the Northern California Coastal Wild Heritage 
Wilderness Act. As you know, Wilderness designation prohibits 
bicycling. For this reason, bicyclists seek modifications of Wilderness 
proposals that will protect the land while continuing to allow this 
quiet, low-impact, muscle-powered recreation on significant trails.
    The International Mountain Bicycling Association (IMBA) was founded 
in 1988 and leads the national and worldwide mountain bicycling 
communities through a network of 32,000 individual members and more 
than 500 affiliated clubs. More than 43 million Americans participated 
in singletrack bicycling and 7 million were `enthusiasts' of single-
track bicycling in 2002, according to the Outdoor Industry Association. 
IMBA teaches sustainable trailbuilding techniques and has become a 
leader in trail design, construction, and maintenance; and encourages 
responsible riding, volunteer trailwork, and cooperation among trail 
user groups and land managers. IMBA members and affiliated clubs 
conduct close to 1,000,000 hours of trailwork annually and are some of 
the best assistants to federal, state, and local land managers.
    At stake in S. 738 are fabulous riding routes such as the Kings 
Crest and Lost Coast-Chemise Mountain trails in the King Range National 
Conservation Area and the Red Bud and Judge Davis trails in Cache Creek 
in Napa and Lake counties. In addition, IMBA has analyzed the bill and 
found that three-quarters of the areas under consideration do not 
conflict with bicycling. For the one-quarter that would eliminate 
bicycling opportunities, IMBA recommends other forms of land 
preservation designations, Non-Wilderness Trail Corridors, or boundary 
adjustments. We are including a list of all trail opportunities that 
will be lost to bicycling due to S. 738/H.R. 1501. This list includes 
139 miles of currently open routes, 32 miles that are uncertain or 
problematic, plus an unknown mileage of unofficial but legal bicycling 
routes.
    IMBA supports protecting all of the lands in the proposal from 
development, some as Wilderness, and some using other, diverse 
designations such as National Conservation Areas and Protection Areas. 
Please find attached an example of the type of legislative language we 
think would ensure bicycle access and afford substantially the same 
protection as a Wilderness designation.* IMBA will continue to work 
with the sponsors of S. 738 and companion legislation in the House of 
Representatives to accommodate areas and trails of particular concern.
---------------------------------------------------------------------------
    * Retained in subcommittee files.
---------------------------------------------------------------------------
    Generally, the elimination of bicycling access would exacerbate a 
situation where much of California's public land is already closed to 
bicycling. Congress has designated almost 14 million acres of 
Wilderness in California, more than any other state. Many trails in 
state and local parks are also closed to bicycling.
    IMBA believes that bicycle access is a legitimate, primitive form 
of recreation that should be allowed in certain Wilderness areas 
subject to ongoing administrative discretion of federal land managers. 
Wilderness as the exclusive tool for preservation is increasingly 
problematic. The current interpretation of the Wilderness Act prohibits 
mountain bicycling by treating it differently than other forms of 
muscle-powered recreation, such as hiking, horseback riding, skiing, 
and climbing. IMBA believes that the original wording of the Wilderness 
Act in 1964 was ambiguous about the use of bicycles. The actual 
prohibition of bicycles didn't happen until 20 years later. In the 
1980's land managers became concerned about the growing popularity of 
bicycles on trails but chose an excessive solution--banning bikes. Now 
there is significant scientific evidence and a full generation of 
actual experience showing that the impacts of mountain bikes are 
comparable to other muscle-powered recreation allowed in Wilderness. 
The blanket prohibition no longer makes sense.
    In these days when the Centers for Disease Control is sounding an 
alarm that America's population is increasingly obese, we hope that 
Congress will endorse bicycling, both on roads and trails, as an 
excellent solution to that problem. Closing more trails to bicycling 
does not further that goal.
    Thank you for the opportunity to submit comments on this important 
legislation. We look forward to working with you and the sponsors of S. 
738, as the committee continues its work.
            Sincerely,
                                            Tim Blumenthal,
                                                Executive Director.
                                 ______
                                 
                              Civil War Preservation Trust,
                                     Washington, DC, July 28, 2004.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: On behalf of the national Civil War Preservation 
Trust (CWPT), I am writing to express the organization's strong support 
for S. 2622, the ``Pecos National Historical Park Land Exchange Act of 
2004,'' co-sponsored by yourself and Senator Jeff Bingaman.
    The 60,000 members of CWPT appreciate your long-standing commitment 
to preserving important elements of the Glorieta Battlefield, and your 
continuing efforts to facilitate acquisition of lands within the 
boundaries of both the Pigeon's Ranch and Canoncito subunits of the 
Battlefield.
    The 1993 congressionally authorized Civil War Sites Advisory 
Commission (CWSAC) Report on the Nation's Civil War Battlefields listed 
Glorieta Battlefield as a ``Priority 1, Class A'' site. This means that 
the site is one of the major battlefields of the Civil War with its 
landscape basically still intact and not yet developed for housing or 
commercial purposes. The battleground is also one with less than 20 
percent of its core area protected and with a critical need for 
coordinated preservation action.
    CWPT considers S. 2622 to be fully consistent with the CWSAC's 
conclusions and recommendations regarding the Glorieta Battlefield.
    The bill authorizes the acquisition of private land that is 
essential for providing public access to the battlefield's Canoncito 
unit and to the National Park Service's interpretive efforts. These 
approximately 160 acres are key areas of the battlefield, comprising 
the mesa front down which Union troops descended into Canoncito in 
March 1862 in their successful attack on a Confederate supply train. 
The attack forced the invading Confederate Army to withdraw from the 
field of battle and, ultimately, from the New Mexico Territory, 
preserving the Southwest for the Union.
    S. 2622 will allow for the acquisition of nearly half of the 
acreage within the authorized boundary of the Canoncito subunit. The 
bill also features both a willing seller and a land exchange requiring 
no subsequent Federal Government appropriations to carry out.
    Consequently, CWPT strongly supports S. 2622, deeply appreciates 
your work on its behalf, and urges the bill's swift passage in the 
Senate. If you have questions or comments about our position on S. 
2622, please have your staff get in touch with me at 202-367-1861 
extension 210.
            Sincerely,
                                          James Lighthizer,
                                                         President.
                                 ______
                                 
                                     Northwest Youth Corps,
                                         Eugene, OR, July 30, 2004.
Hon. Larry Craig,
Chairman, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, Washington, DC.
    Dear Chairman Craig: Thank you for the opportunity to testify on 
Wednesday, July 21 in support of S. 2253, the Healthy Forest Youth 
Conservation Corps Act of 2004. During the hearing, you asked me 
whether the authorities in previously enacted legislation and S. 2253 
were similar enough that enactment of S. 2253 would be redundant.
    You also asked that I submit for the record a letter that 
identified the major differences between the Public Lands Corps 
authorized in the National and Community Service Trust Act of 1993 
(P.L. 103-82), the Youth Conservation Corps Act of 1970 (as amended) 
and the Healthy Forest Youth Conservation Corps that would be 
authorized by S. 2253. In response to your requests, I am submitting 
this letter on behalf of the Northwest Youth Corps and the National 
Association of Service and Conservation Corps (NASCC).
    Because of the discussion of the Youth Conservation Corps Act 
(YCC), I want to highlight some of the major differences between it and 
the Public Lands Corps and S. 2253 for you:

  <bullet> the YCC can be no more than a three month program, whereas 
        S. 2253 does not stipulate a time limit on projects;
  <bullet> participation in the YCC is limited to youth at least 15 but 
        less than 19, whereas participants under S. 2253 can range in 
        age from 16 to 25;
  <bullet> the YCC does not focus on disadvantaged youth, whereas S. 
        2253 does; and,
  <bullet> the YCC does not contain a priority for fire-related 
        activities, whereas this is the primary focus of S. 2253.

    Other important differences are that the PLC does not have an 
authorization for funding, while S. 2253 would authorize $25 million a 
year for the next 5 years for youth corps programs.
    What follows is a detailed analysis of the differences among the 
enacted legislation and the proposed bill.

                                FUNDING

    S. 2253 authorizes $25 million for each of fiscal years 2005-2009 
and ``allows service and conservation corps to contract directly with 
public land management agencies'' to perform projects.
    P.L. 103-82 establishes Public Lands Corps (PLC) in the Interior 
and Agriculture Departments, but contains no authorization for funding.
    The Youth Conservation Corps Act establishes a permanent 
authorization of $60 million a year.

                         MATCHING REQUIREMENTS

    P.L. 103-82 requires the Secretaries ``to pay not more than 75 
percent of the costs of any appropriate conservation project . . . . 
The remaining 25 percent of the costs . . . may be provided from 
nonfederal sources in the form of funds, services, facilities, 
materials, equipment, or any combination of the foregoing. No cost 
sharing shall be required in the case of any . . . project carried out 
on Indian lands or Hawaiian home lands under this title.''
    S. 2253 has no matching requirements.
    The Youth Conservation Corps Act states that ``no grant for any 
project may exceed 80 per centum of the cost (as determined by the 
Secretaries) of such project.

                            LIVING ALLOWANCE

    P.L. 103-82 limits the living allowance paid to members of the 
Corps to the maximum level provided to AmeriCorps members.
    S. 2253 includes no such limitation.
    The Youth Conservation Corps Act states that ``the Secretary of 
Interior and the Secretary of Agriculture shall--(3) determine the 
rates of pay, hours, and other conditions of employment in the Corps . 
. . .''

                              PARTICIPANTS

    S. 2253 provides that a purpose of the bill is to ``(2) offer young 
adults, ages 16 through 25, particularly those who are at-risk or 
economically disadvantaged, the opportunity to gain productive 
employment.'' However, Section 4(b) Participants--states that the Corps 
``shall consist of low income young adults who are enrolled as members 
of a service and conservation corps.''
    P.L. 103-82 states that ``the Secretaries may establish a 
preference for the enrollment in the Corps of individuals who are 
economically, physically, or educationally disadvantaged.''
    The Youth Conservation Corps ``shall consist of young men and women 
. . . who have attained age fifteen but have not attained age 
nineteen.'' Further, ``the Corps [shall] be open to all youth from all 
parts of the country of both sexes and youth of all social, economic, 
and racial classifications . . . with no person being employed as a 
member of the Corps for a term in excess of ninety days during any 
single year.''

                           TYPES OF PROJECTS

    S. 2253 authorizes ``projects to prevent fire and suppress fires, 
and provide disaster relief, on public land,'' ``perform rehabilitation 
and enhancement projects to prevent fire, rehabilitate public land 
affected or altered by fires, and suppress fires, and provide disaster 
relief.''
    P.L. 103-82 authorizes the PLC ``to carry out appropriate 
conservation projects which such Secretary is authorized to carry out 
under other authority of law on public lands.'' ``The Secretaries may 
also authorize appropriate projects to be carried out on Federal, 
State, local, or private lands as part of disaster prevention or relief 
efforts in response to an emergency or major disaster declared by the 
President.''
    Both S. 2253 and the Public Land Corps include language stating a 
preference for projects that will 1) provide long-term benefits to the 
public; 2) instill in the enrollees a work ethic and a sense of public 
service; 3) be labor intensive; 4) be planned and initiated promptly; 
and 5) provide academic, experiential, or environmental education 
opportunities.
    The Youth Conservation Corps authorizes the Secretaries to ``(3) 
determine with other Federal agencies the areas under the 
administrative jurisdiction of those agencies which are appropriate for 
carrying out programs using members of the Corps, and determine and 
select appropriate work and education projects for participation by 
members of the Corps.''

              ASSISTANCE IN DISASTER PREVENTION AND RELIEF

    P.L. 103-82 provides that the Secretaries may also authorize 
appropriate projects . . . as part of disaster prevention or relief 
efforts in response to an emergency declared by the President under the 
Robert T. Stafford Disaster Relief and Emergency Assistance Act.
    S. 2253 does not require Presidential designation of an emergency 
or disaster.
    The Youth Conservation Corps Act does not mention disaster 
prevention and relief.

                  RESPONSIBILITIES OF THE SECRETARIES

    P.L. 103-82 authorizes the Secretaries to ``provide such quarters, 
board, medical care, transportation, and other services, facilities, 
supplies and equipment as such Secretary deems necessary . . . and to 
establish and use conservation centers owned and operated by such 
Secretary for purposes of the Corps and such projects.''
    S. 2253 authorizes each Secretary to ``provide such services as the 
Secretary considers necessary to carry out this Act.''
    The Youth Conservation Corps Act authorizes the Secretaries to 
determine ``(a) Programs and projects; conditions of employment; 
regulations; [and] use of facilities by educational institutions.''

                          TECHNICAL ASSISTANCE

    S. 2253 authorizes the Secretaries to ``provide technical 
assistance, oversight, monitoring, and evaluation to, or for, state 
departments of natural resources, corps, Indian tribes, Alaska native 
corporations, or the applicable state agency in Hawaii with 
responsibility for Hawaiian home lands.''
    P.L. 103-82 is silent on this issue.
    The Youth Conservation Corps Act is silent on this issue.

                      NONCOMPETITIVE HIRING STATUS

    S. 2253 provides that ``each Secretary may grant credit for time 
served toward future federal hiring . . . for former members of the 
Corps.''
    P.L. 103-82 includes no such provision.
    The Youth Conservation Corps Act is silent on this issue.

                          RESOURCE ASSISTANTS

    P.L. 103-82 authorizes the Secretaries to provide individual 
placements called ``Resource Assistants'' with any Federal land 
managing agency.
    S. 2253 does not contain similar provisions.
    The Youth Conservation Corps Act does not include similar 
provisions.

               RELATIONSHIP TO THE DEPARTMENT OF DEFENSE

    P.L. 103-82 authorizes the Secretaries to ``make arrangements with 
the Secretary of Defense to have logistical support provided by the 
Armed Forces to the Corps . . . where feasible. Logistical support may 
include the provision of temporary tent shelters where needed, 
transportation, and residential supervision.''
    S. 2253 includes no such provisions.
    The Youth Conservation Corps Act provides that ``existing but 
unoccupied Federal facilities and surplus or unused equipment (or 
both), of all types including military facilities and equipment, shall 
be utilized for the purposes of the Corps, where appropriate and with 
the approval of the Federal agency involved.''

                            GRANTS TO STATES

    P.L. 103-82 does not authorize grants to states. S. 2253 does not 
authorize grants to states.
    The Youth Conservation Corps Act provides that ``Thirty per centum 
of the funds appropriated under . . . this title for any fiscal year 
shall be made available for grants under this section for such fiscal 
year.''
    I believe this analysis demonstrates that while the three proposals 
share the goal of creating opportunities for young people, there are 
significant differences among the proposals and that enactment of the 
S. 2253 would not be redundant.
    If you have additional questions, please do not hesitate to call 
Sally Prouty, President of the National Association of Service and 
Conservation Corps at 202-737-6272 or email her at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="057675776a70717c456b647666662b6a77622b">[email&#160;protected]</a>
            Sincerely,
                                                  Art Pope,
                                                Executive Director.
                                 ______
                                 
                                  Kelseyville, CA, August 12, 2004.
Hon. Mike Thompson,
Congressman, U.S. House of Representatives, Washington, DC.
    Dear Congressman Thompson: I am a horsepacker and hunter from Lake 
County, California, who is supportive of your wilderness legislation, 
the Northern California Coastal Wild Heritage Wilderness Act, H.R. 
1501/S. 738. I attended the hearing for this legislation in the Senate 
Energy and Natural Resources Committee last month and wanted to comment 
specifically on concerns raised by Undersecretary Mark Rey with regards 
to an area I know, the Skeleton Glade Unit addition to the Snow 
Mountain Wilderness.
    Mr. Rey stated the Skeleton Glade Unit ``has several roads running 
through it which compromise wilderness attributes and hinder 
manageability.'' I know the area and I am not certain what ``roads'' 
Mr. Rey is referring to. There are abandoned remnants of primitive 
dozer trails that go through the Unit, but they are neither designated 
nor maintained as roads, nor do they detract from the wilderness 
quality of the area in any respect. They are used for hiking and 
horseback riding into the area. In contrast, there are important roads 
beside the proposed Unit as well as a few short ``cherry-stemmed'' 
roads.
    There is a major road (M3) running between the existing Snow 
Mountain Wilderness and the proposed Skeleton Glade Unit. Under your 
legislation, this road will continue to stay open. In fact, you may 
recall this was brought up as an issue at one of your local hearings 
when crafting this legislation. I, along with many other people, wanted 
assurances this road would stay open so we could continue to frequent 
both the proposed wilderness additions to the North and the existing 
wilderness on the South side of the road. Without M3, this would be 
impossible.
    In addition, there are several short roads ``cherry-stemmed'' roads 
that branch south off of M3, and are surrounded on either side by 
proposed wilderness that would extend the northern border of the 
existing Snow Mountain Wilderness up to the southern edge of M3.
    These cherry stems serve an important purpose. Without them, there 
are several existing trailheads I would be unable to reach when 
bringing my horses in to explore these areas. This was another issue 
brought up during your local hearing. These cherry stems are important 
for access for horsepackers such as myself, but it is equally important 
that the lands surrounding them are protected. Without the full 
protection of the Wilderness Act, there is no guarantee that these 
scenic wild lands will remain in their wild state for future 
generations to enjoy.
    The Skeleton Glade Unit will be a valuable addition to our 
wilderness system. I strongly advocate for keeping it in the bill in 
order to ensure wilderness protection for the marvelous lands within 
its boundaries. Please continue to advocate for its inclusion.
    Thank you for your sponsorship of this important legislation.
            Sincerely,
                                                  Peter F. Windrem.
                                 ______
                                 
 Statement of Jack Hannon, Wild and Scenic Rivers Program Coordinator, 
 American Rivers, Inc., and Phyllis Clausen, River Steward, Friends of 
                   the White Salmon River, on S. 1614

    Mr. Chairman and Members of the Subcommittee, this statement is 
submitted for the record of the hearing on S. 1614, the Upper White 
Salmon Wild and Scenic Rivers Act, by Jack Hannon, the Wild and Scenic 
Rivers Program Coordinator for American Rivers, and Phyllis Clausen, 
River Steward for the Friends of the White Salmon River. Since its 
founding in 1973, American Rivers has worked with our grassroots 
partners to protect rivers under the Wild and Scenic Rivers Act and has 
actively assisted federal agencies, states and local groups with river 
conservation efforts. Friends of the White Salmon River is a local 
organization that has worked to conserve the White Salmon River since 
1976.
    We would like to thank Senator Cantwell for introducing and Senator 
Murray for co-sponsoring S. 1614, which would designate some twenty 
miles of the main stem upper White Salmon River and Cascade Creek, all 
within the Gifford Pinchot National Forest, as components of the 
National Wild and Scenic Rivers System. The lower eight miles of the 
White Salmon River were designated a Scenic River within the National 
Wild and Scenic Rivers System under the Columbia River Gorge National 
Scenic Area legislation back in November, 1986. At the same time 
Congress mandated the study of the upper White Salmon for possible 
inclusion in the National Wild and Scenic River System.
    That study, expanded somewhat by the U.S. Forest Service as a 
result of many comments received, was essentially completed by June 
1990, with a positive recommendation for designation of the river, but 
it took an additional seven years for this to be reported out to the 
President and Congress (July 1997). It has taken an additional seven 
years to move forward only with the portion of the upper White Salmon 
that lies squarely within the Gifford Pinchot National Forest, 
resulting in the bill before you today. Some of the segments would be 
classified as a ``Wild'' river, and others as a ``Scenic'' river. 
American Rivers and Friends of the White Salmon River strongly endorse 
passage of this bill.
    The U.S. Forest Service has recommended these segments for 
inclusion in the National System in recognition of the river's free-
flowing character and its outstandingly remarkable scenic, hydrologic, 
geologic and wildlife values. The Forest Service determined that the 
pastoral scenery along these segments of the river make it one of the 
most scenic river areas in the region. The hydrology of the river is 
unique because of its consistently reliable flows; the upper White 
Salmon is a glacially fed stream, with a slow melting seasonal snow and 
even slower-melting glaciers, which extend the run-off season to an 
almost year-round basis. The areas near the river also provide 
regionally significant habitat for such species as spotted owls, 
pileated woodpeckers, and pine martens. And the river and its drainages 
provide important wintering areas for black-tailed deer.
    The river areas to be encompassed in the wild and scenic river 
designation are forested through the entire segment and are used for a 
wide variety of recreational activities, including camping, picnicking, 
fishing, hunting, nature study hiking, horseback riding, skiing, 
climbing and backpacking. Access to the river is largely limited to 
bridge crossings and trails. Gradients are steep, with an average drop 
of 150 feet per mile. Within the Mt. Adams Wilderness Area and along 
the canyon below the confluence with Cascade Creek, the upper White 
Salmon River has a rugged, primeval character.
    The White Salmon has strong historic values as well. Native 
American populations have inhabited the river valley for as much as 
7,000 years, and relied on the river for food gathering, fishing, 
hunting, and establishing villages. Traditional Native American 
activities continuing to the present day in this area include 
collecting roots and berries, collecting materials for basket weaving, 
hunting, and fishing. The Lewis and Clark expedition passed the mouth 
of the White Salmon River and referred to it as the ``canoe'' river.
    In 2003, American Rivers released two reports by researchers at 
North Carolina State University amply demonstrating that properly 
conserving a river will generate significant economic activity in the 
form of recreational spending. The rivers studied were the Farmington 
in Connecticut and the Chattooga in North and South Carolina and 
Georgia. (Further details are available on our website, 
www.americanrivers.org.) More particularly, Friends of the Upper White 
Salmon River has heard from those in the lodging industry, from 
outfitters and from other local businesses that designation of the 
upper White Salmon River as a wild and scenic river would have a 
similar effect, thereby contributing to the region's economy.
    American Rivers has worked on many dozens of proposals for 
designating rivers as wild and scenic rivers. We believe the 
characteristics of the upper White Salmon River as described above meet 
the statutory requirements and amply support inclusion of the river in 
the National Wild and Scenic Rivers System. Our organizations thus 
support passage of this bill.
    Thank you for considering this statement in the record of the 
hearing on S. 1614.
                                 ______
                                 
 Statement of Penny Lind, Executive Director, Umpqua Watersheds, Inc., 
                              Roseburg, OR

    CONSIDERATIONS TO INCLUDE IN CHANGES TO THE ROGUE/UMPQUA DIVIDE 
                       WILDERNESS BOUNDARY, ETC.

    1. The Umpqua portion of the Rogue/Umpqua Divide Wilderness is 
26,350 acres, any proposed change in boundary, no matter how minor, can 
not result in a loss of designated wilderness.
    The Rogue/Umpqua Divide Wilderness was originally proposed with 
logical landscape boundaries (those boundaries where altered in the 
final wilderness designation). The area where the road in question 
occurs ended up being drawn very mechanical rather than ecological. 
Senator Smith's proposed May 2003 change also uses the same engineered 
boundary outcome. The attached map shows a much more logical landscape 
boundary for the area. The opportunity to draw the road out of the 
wilderness also gives an opportunity to incorporate wilderness benefits 
in a more natural outcome for the rogue/Umpqua Divide. The proposed 
small roadless addition is 11 acres. Map attached. Please take this 
opportunity to add back some of the original wilderness designation 
area with this bill.
    2. In addition--The Forest Service maps and specialists have 
identified fish blocking culverts on the road in question that need 
dollars to upgrade for fish passage. If people are to gain greater 
access, please make it possible for fish to have greater habitat 
benefits also. In addition there are several stem roads in the access 
reach that contribute to stream and habitat problems. Road 
decommissioning as recommended by the Forest's specialists would 
contribute to restoration of these public lands for fish wildlife and 
people.
    Thank you for the opportunity to comment to the sub committee on 
this important Umpqua wilderness matter.
                                 ______
                                 
                Statement of the Sierra Club, on S. 738

    Representing nearly 750,000 members across the nation, including 
168,000 Californians and over 6,000 constituents of the 1st 
Congressional District in California, the Sierra Club strongly 
advocates for the passage of S. 738, the Northern California Coastal 
Wild Heritage Wilderness Act. This bill will ensure that many of our 
national treasures, which provide the famous Northern California 
backdrop of redwoods, salmon, and wine, can be enjoyed just as it is 
today for all generations to come.
    The Northern California Coastal Wild Heritage Wilderness Act would 
protect clean water, important fish and wildlife habitat, ancient 
forests, world-class outdoor recreation opportunities and our unmatched 
quality of life by designating 298,000 acres of wilderness and 
protecting 21 miles of the Black Butte River in the 1st Congressional 
District of California.
    Some of Northern California's most spectacular wildlands are 
included in this proposal, such as the King Range, the longest stretch 
of undeveloped coastline in the lower 48, with towering peaks over 
4,000 feet directly next to the great Pacific Ocean. Cache Creek, home 
to California's second largest wintering bald eagle population, is also 
protected in the proposal. The bill proposes additions to the Siskiyou 
Wilderness, a critical area for California's remaining Chinook and coho 
salmon and steelhead trout. The Black Butte River drains one of the 
most undeveloped tributary watersheds to the Middle Eel River, is one 
of the Eel's most important salmon and steelhead spawning tributaries, 
and is rich in Native American cultural values.
    The areas proposed for wilderness are considered to have low 
potential for oil and gas and are generally uneconomical for logging 
due to the steep and remote nature of the land. Wilderness designation 
would help increase sustainable tourism-based income to local 
communities as people continue to enjoy hunting, fishing, bird 
watching, horseback riding, hiking, backpacking, camping, swimming, 
rafting, kayaking, and more. Livestock grazing would also continue 
under the bill.
    The method used for drafting the legislation has won praise from a 
vast array of different user groups and local interests. Congressman 
Mike Thompson, Along with Senators Feinstein and Boxer, have crafted a 
wild lands conservation bill using a thoroughly inclusive approach. In 
the process, they sought out, met with and addressed concerns of 
affected constituencies, including local land owners, businesses, 
elected officials, members of the logging industry, scientists, 
mountain bikers, Native Americans, hunters, anglers, winemakers, 
federal agencies and members of other diverse user groups.
    For example, the Clear Lake Horsemen's Association of Lake County 
objected to the original boundaries for the proposed Snow Mountain 
Wilderness additions because members like to cut firewood with 
chainsaws 150 feet from a certain Forest Service road, while the 
proposed additions began 100 feet from that road. As a result, the 
setback was increased in the proposal to 300 feet from the road and the 
equestrians subsequently offered their support of the measure.
    Specifically, Congressman Thompson and Senators Boxer and Feinstein 
addressed the fire management concerns raised by the Forest Service, 
Bureau of Land Management, community leaders, and private property 
owners. They reduced the scope of the wilderness designations by nearly 
12,000 acres, changing boundaries, adding buffer zones, and allowing 
for existing or proposed fuel breaks. Before Feinstein--a known leader 
on fire issues on public lands--threw her support behind the 
legislation, she gave the maps of the proposed wilderness to the Forest 
Service and asked them to identify concerns. Adjustments were made 
accordingly, and Feinstein joined original sponsor Senator Boxer as a 
sponsor of the legislation in the Senate.
    In addition, after discussions with local mountain bikers and 
agencies, the sponsoring members removed 6,000 acres from the original 
wilderness proposal so that popular mountain biking trails would not be 
closed. Two Native American tribes have voiced their support for this 
legislation because it will protect sacred sites and guarantee the 
right to conduct traditional practices. The bill will protect 
opportunities for vehicle-free recreation without closing any areas 
currently maintained for off-road vehicle use. No roads that are both 
physically and legally open to the driving public will be closed by 
this bill, ensuring the current level of motorized access to the public 
lands remains.
    In all, the sponsors scaled back the initial wilderness proposal by 
nearly 21,000 acres in order to address fire, mountain biking and 
manageability concerns. The result of this meticulous effort is an 
enormously popular wilderness bill with broad local and statewide 
support that will conserve the North Coast's wilderness character while 
also addressing the interests of local stakeholders.
    With this thoughtful process addressing stakeholder concerns, the 
proposal has gained the support of more than 40 elected officials from 
both sides of the aisle in the 1st Congressional District. In true 
bipartisanship, the Napa County Board of Supervisors unanimously 
supported the Northern California Coastal Wild Heritage Wilderness Act. 
The Willits City Council recently passed a bipartisan resolution 4 to 0 
in favor of the proposal, and the Mendocino County Board of Supervisors 
passed a bipartisan resolution for the bill last fall. The Ukiah City 
Council also unanimously voiced its support for the wilderness 
legislation last fall and has passed a bipartisan resolution of support 
in the past.
    Over 140 diverse businesses, outdoor groups, religious 
organizations, and citizen groups throughout the 1st Congressional 
District support the areas proposed for protection, including Harwood 
Industries, a local timber mill from Branscomb; Woodworkers Local Lodge 
W-469, a timber workers union from Fort Bragg; Six Rivers Paddling Club 
from Eureka; Stony Hill Vineyard from St. Helena; and the Kelseyville 
Presbyterian Church from Kelseyville--just to name a few.
    After four years of contacting all stakeholders and making changes 
to the wilderness proposal, the process has resulted in broad 
bipartisan support among 1st Congressional District voters, and indeed 
statewide. With this proposal, all Americans will be able to experience 
and enjoy our coastal heritage for generations to come. It is time for 
new wilderness in California and the Northern California Coastal Wild 
Heritage Wilderness Act serves as a balanced example of protection and 
compromise.
    On behalf of our members, both within the affected Congressional 
district and beyond who will reap the benefits of this bill, Sierra 
Club calls for the swift passage of S. 738, to ensure that our national 
wild heritage will be enjoyed for years to come.


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
